<html>
<title> - SOLVING THE CLIMATE CRISIS: DRAWING DOWN CARBON AND BUILDING UP THE AMERICAN ECONOMY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




  SOLVING THE CLIMATE CRISIS: DRAWING DOWN CARBON AND BUILDING UP THE 
                            AMERICAN ECONOMY

=======================================================================

                                HEARING

                               BEFORE THE

                        SELECT COMMITTEE ON THE
                             CLIMATE CRISIS

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 30, 2019

                               __________

                            Serial No. 116-3


              
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                            www.govinfo.gov
                            
   Printed for the use of the Select Committee on the Climate Crisis
   
   
                              ________
                       
                 U.S. GOVERNMENT PUBLISHING OFFICE
                
36-849                     WASHINGTON: 2019  
   
   
   
   
   
                 SELECT COMMITTEE ON THE CLIMATE CRISIS

                      KATHY CASTOR, Florida, Chair
                      
BEN RAY LUJAN, New Mexico            GARRET GRAVES, Louisiana, Ranking 
SUZANNE BONAMICI, Oregon                 Member
JULIA BROWNLEY, California           MORGAN GRIFFITH, Virginia
JARED HUFFMAN, California            GARY PALMER, Alabama
A. DONALD McEACHIN, Virginia         BUDDY CARTER, Georgia
MIKE LEVIN, California               CAROL MILLER, West Virginia
SEAN CASTEN, Illinois                KELLY ARMSTRONG, North Dakota
JOE NEGUSE, Colorado

                                 ------  
                                 
                Ana Unruh Cohen, Majority Staff Director
                        climatecrisis.house.gov
                        
                        
                        
                        
                            C O N T E N T S

                              ----------                              

                   Statements of Members of Congress

                                                                   Page
Hon. Kathy Castor, a Representative in Congress from the State of 
  Florida, and Chair, Select Committee on the Climate Crisis:
    Opening Statement............................................     1
    Prepared Statement...........................................     2
Hon. Garrett Graves, a Representative in Congress from the State 
  of Louisiana, and Ranking Member, Select Committee on the 
  Climate Crisis:
    Opening Statement............................................     3

                               Witnesses

Diana Liverman, Regents Professor of Geography and Development, 
  University of Arizona
    Oral Statement...............................................     6
    Prepared Statement...........................................     8
Christopher Guith, Acting President and CEO, US Chamber of 
  Commerce, Global Energy Institute
    Oral Statement...............................................    16
    Prepared Statement...........................................    19
David Foster, Distinguished Associate, Energy Futures Initiative 
  Activities
    Oral Statement...............................................    27
    Prepared Statement...........................................    28
Hal Harvey, CEO, Energy Innovation
    Oral Statement...............................................    33
    Prepared Statement...........................................    35

                       Submissions for the Record

Article from the Climate Policy Initiative Report, submitted for 
  the record by Mr. Casten.......................................    58
Graphic from Lazards Levelized Cost of Energy Analysis, submitted 
  for the record by Mr. Graves...................................    97

                                Appendix

Questions from Hon. Kathy Castor for Diana Liverman..............   102
Questions from Hon. Garrett Graves for Christopher Guith.........   106
Questions from Hon. Kathy Castor for David Foster................   109
Questions from Hon. Kathy Castor for Hal Harvey..................   112
Questions from Hon. Ben Ray Lujan for Hal Harvey.................   117




 
  SOLVING THE CLIMATE CRISIS: DRAWING DOWN CARBON AND BUILDING UP THE 
                            AMERICAN ECONOMY

                        TUESDAY, APRIL 30, 2019

                          House of Representatives,
                    Select Committee on the Climate Crisis,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:02 a.m., in Room 
2247 Rayburn House Office Building, Hon. Kathy Castor 
[chairwoman of the committee] presiding.
    Present: Representatives Castor, Bonamici, Huffman, 
McEachin, Levin, Casten, Neguse, Graves, Griffith, Palmer, 
Carter, Miller, and Armstrong.
    Ms. Castor. Good morning. Welcome to the April 30, 2019 
meeting of the Select Committee on the Climate Crisis. The 
committee will come to order. And without objection, the chair 
is authorized to declare a recess of the committee at any time.
    Today, we will set the table for the select committee's 
work on the biggest challenge before us: how to decarbonize the 
economy, in accordance with climate science, while creating 
family-sustaining jobs and building a more equitable society.
    For the benefit of the witnesses, I want to note that 
members will be coming in and out of the hearing, Mr. Lujan is 
with the Speaker, meeting with the President about 
infrastructure, and several members are chairing, or trying to 
fit in multiple hearings. I recognize myself for 5 minutes for 
an opening statement.
    This is the first of many select committee hearings that is 
focused on solutions to the climate crisis. The need for 
solutions is increasingly urgent. The first major warning 
Congress received about the impending climate crisis was in 
1988, but the Congress didn't act then. Today, we know that oil 
companies' own scientists warned them about climate change too. 
But instead of action, executives chose to tell Congress and 
the American people to ignore the scientists and that we could 
afford to wait.
    Well now, the climate science is too unequivocal to deny. 
What is clear from the science and what diverse voices, 
including many young people across America are telling us every 
day is that if Congress continues to delay, we lose. If 
Congress chooses the status quo, we lose. In fact, scientists 
have told us that the world needs to hit net zero carbon 
emissions by 2050 to avoid the worst consequences of the 
climate crisis. Getting there means cutting greenhouse gas 
pollution 45 percent below 2010 levels by 2030. To get there, 
and to give ourselves a chance of avoiding the most 
catastrophic consequences of climate change, we have to cut 
carbon pollution smartly, and soon. Taking action now gives us 
the best opportunity to transition to a clean energy economy, 
efficiently and equitably.
    We still have time to solve the climate crisis, because we 
have made some good choices. Raising fuel economy standards, 
supporting wind and solar jobs, investing in research and 
development, that is coming to fruition now. America chose to 
lead the world in the Paris Climate Agreement, an agreement 
vital to the clean energy jobs and innovations underway in 
America right now. But every time Congress and the 
administration choose delay, American families and businesses 
are asked to pay a higher price, whether it is through climate 
catastrophes, extreme heat, dirtier air, or higher electric 
bills. But as daunting as the climate crisis is, we can make 
choices and rise to the challenge.
    Many businesses and communities across America have been 
leading the way. More than 3 million Americans work in the 
clean energy economy, existing energy efficiency standards will 
save consumers and businesses $2 trillion on utility bills by 
2030, and fuel economy standards will save the average 
household another $2,800 a year at the pump.
    Still, there is no substitute for bold Federal policy 
initiatives that meet the scale of the challenge we face. When 
we choose clear policies with clear goals, businesses innovate; 
they reduce cost, they put clean technology to work.
    Our witnesses today will help us examine and prioritize our 
policy choices. We are going to look at infrastructure, at 
deploying more wind and solar, at electrifying home heating and 
transportation, at cutting the most powerful climate pollutants 
and more. We are also going to look at funding research and 
development, and establishing public private partnerships that 
move technology from the lab to the market. We are going to 
look at capturing and storing carbon and pulling it out of the 
atmosphere. But we have to be clear: Technological 
breakthroughs are not guaranteed. Choosing to invest in 
innovation doesn't give us an excuse to choose the status quo 
elsewhere. At the end of the day, technology is just a tool. It 
is people who will solve the climate crisis.
    The clean energy economy employs millions of people, and we 
can choose policies that will make those jobs family-sustaining 
jobs. That includes elevating transition for workers in the 
fossil fuel industry. They deserve a clean energy economy that 
delivers for them in their communities. We need good and 
patriotic policies for them, too, and we need climate solutions 
that work. We have to pursue many options to meet our goals by 
2030 and 2050. The one option we don't have anymore is delay. 
We must choose climate action now.
    And at this time, I will yield to my friend and colleague, 
the ranking member, Mr. Graves, for an opening statement.

              Opening Statement (As Prepared for Delivery)

                        Rep. Kathy Castor (D-FL)

        Chair, U.S. House Select Committee on the Climate Crisis

  Solving the Climate Crisis: Drawing Down Carbon and Building Up the 
                            American Economy

                             April 30, 2019

    This is the first of many Select Committee hearings that is focused 
on solutions to the climate crisis. The need for solutions is 
increasingly urgent.
    The first major warning Congress received about the impending 
climate crisis was in 1988. But the Congress didn't act then. Today we 
know that oil companies' own scientists warned them about climate 
change, too. But instead of action, executives chose to tell Congress 
and the American people to ignore the scientists . . . and that we 
could afford to wait.
    Now the scientific consensus is too unequivocal to deny. What is 
clear from the science and what diverse voices, including young people 
across America, are telling us every day is that if Congress continues 
to delay, we lose. If Congress chooses the status quo, we lose.
    In fact, scientists have told us that the world needs to hit net-
zero carbon emissions by 2050 to avoid the worst consequences of the 
climate crisis. Getting there means cutting greenhouse gas pollution 45 
percent below 2010 levels by 2030.
    To get there--and to give ourselves a chance of avoiding the most 
catastrophic consequences of climate change--we have to cut carbon 
pollution smartly and soon. Taking action now gives us the best 
opportunity to transition to a clean energy economy efficiently and 
equitably.
    We still have time to solve the climate crisis because we've made 
some good choices: raising fuel economy standards, supporting wind and 
solar jobs, and investing in research and development that is coming to 
fruition now. America chose to lead the world in the Paris Climate 
Agreement, an agreement vital to the clean energy jobs and innovations 
underway across America now.
    But every time Congress and the administration choose delay, 
American families and business are asked to pay a higher price whether 
it's through climate catastrophes, extreme heat, dirtier air or higher 
electric bills.
    But as daunting as the climate crisis is, we can make choices and 
rise to the challenge.
    Many businesses and communities across America have been leading 
the way. More than 3 million Americans work in the clean energy 
economy. Existing energy efficiency standards will save consumers and 
businesses $2 trillion on utility bills by 2030. And fuel economy 
standards will save the average household another $2,800 a year at the 
pump. Still, there is no substitute for bold federal policy initiatives 
that meet the scale of the challenge we face.
    When we choose clear policies with clear goals, businesses 
innovate. They reduce costs. They put clean technology to work.
    Our witnesses today will help us examine and prioritize our policy 
choices. We're going to look at infrastructure, at deploying more wind 
and solar, at electrifying home heating and transportation, at cutting 
the most powerful climate pollutants and more.
    We're also going to look at funding research and development and 
establishing public-private partnerships that move technology from the 
lab to the market. We are going to look at capturing and storing carbon 
and pulling it out of the atmosphere.
    But we have to be clear: technological breakthroughs are not 
guaranteed. Choosing to invest in innovation doesn't give us an excuse 
to choose the status quo elsewhere.
    At the end of the day, technology is just a tool. It's people who 
will solve the climate crisis.
    The clean energy economy employs millions of people and we can 
choose policies that will make those jobs family-sustaining jobs.
    That includes elevating transition for workers in the fossil fuel 
industry. They deserve a clean energy economy that delivers for them, 
in their communities. We need good and patriotic policies for them, 
too.
    And we need climate solutions that work for people who are on the 
front lines of the climate crisis. That means putting an end to 
environmental racism and making sure the jobs at the heart of the clean 
energy economy are accessible to everyone.
    We have to pursue many options to meet our goals by 2030 and 2050. 
The one option we don't have any more is delay. We must choose climate 
action now.

    Mr. Graves. Thank you, Madam Chair. I appreciate the 
opportunity to address the committee. I hope everybody had a 
fantastic Easter, and welcome back.
    Witnesses, I want to thank you all for being here. I 
apologize, I didn't come tell you hello this morning, but thank 
you all for submitting testimony. I did have a chance to go 
through all your testimony, and I appreciate you making the 
effort to be here today.
    Madam Chair, first of all, I want to reiterate what I have 
talked about in the past: Climate change is real, humans are 
having a contribution to it. And the congressional districts, 
like the one that I represent, that Congressman Carter 
represents, the effects of sea rise and other challenges, are 
having real impacts on our communities today.
    I think that what we have to do moving forward is be very 
thoughtful, be responsive, and make sure we are bringing people 
to the table that actually have experience working in these 
fields, as opposed to folks setting targets, objectives, and 
goals that lack any degree of science or reality. Importantly, 
what we have to do is we have to very carefully think about 
some of these multilateral agreements like Paris, and look at 
the cumulative effect of them and determine whether or not 
these truly will provide a global benefit, a global and 
environmental benefit, or have adverse consequences.
    For example, Madam Chair, I think it is important to note 
that you can look at what the European Climate Action Network 
determined. They determined that all European countries are 
currently not, they are not on a trajectory to actually hit 
their Paris Accord targets, that they would have to triple 
their efforts today in order to come into compliance with those 
targets, and that their targets, to begin with, are 
insufficient.
    So let me say that again, the European Union nations are 
not hitting their targets; they are not on a trajectory to hit 
their targets, that they would have to triple their efforts and 
that their targets, to begin with, were insufficient.
    Something else that is really important for us to think 
about, and one of the biggest flaws in the Paris Accord is the 
fact that you have China that doesn't even have to reduce 
emissions, doesn't even have to reduce emissions for several 
years, and is already more than offsetting the impact of 
emission reductions in the United States.
    Now, I also think that it is important to make note of 
another really important fact: The IEA, the International 
Energy Agency, in their recent global energy and CO<INF>2</INF> 
status report, I want to read a quote from it, because we can 
sit here and continue demonizing the United States, or we can 
talk facts. In their report they say: In the United States, 
emission reductions seen in 2017 were reversed. Our emissions 
reductions were reversed with an increase of 3.1 percent of 
CO<INF>2</INF> emissions in 2018. You have seen lots of 
reporting on that. So folks were looking myopically in 2017 and 
2018.
    Let's actually look even farther back. Despite this 
increase, emissions in the United States remained around their 
1990 levels, 14 percent at 800 metric tons of CO<INF>2</INF> 
below the peak in 2000. Now, here is the kicker statement: This 
is the largest absolute decline among all countries since 2000. 
We have got to stop this ridiculousness of beating up on the 
United States. We have got to recognize that we are actually 
doing extraordinary things without mandates requirements that 
we are doing--experiencing extraordinary reductions in the 
United States. We have got to stop these utopian concepts like 
Green New Deal and other things that lack any degree of 
reality, that lack any input from actual experts in these 
fields. We have got to realize that the Paris Accord what the 
China, India developing country targets. Calling China a 
developing country is fascinating to me, using entirely 
different metrics on how they are reducing emissions. All this 
is doing is resulting in a net adverse impact to our global 
environment, while undermining the competition, or the 
competitiveness of the U.S. workforce and the U.S. economy.
    Madam Chair, I look forward to working with you, to build 
upon some of the successes, and also, learning from some of the 
failures of previous administrations to try and reduce 
emissions, particularly looking at the impacts of Ms. Miller's 
district, looking at the impacts of Mr. Griffith's district, of 
some of these flawed policies, and moving forward in a 
direction like we are seeing in Louisiana, where we are 
exporting natural gas to 35 countries today, and resulting in 
lower emissions.
    Mr. Foster, I want to particularly thank you for your 
thoughtful testimony. I think that you have come across very 
balanced and being very realistic. I enjoyed reading your 
testimony, I thought it was very good; Mr. Guith, you as well. 
I want to thank you all for just being thoughtful and realistic 
in your testimony. We often have people come in here that just 
throw out these things that aren't based. And I am not beating 
up on you all in anyway, but you had a very balanced and 
thoughtful realistic approach in your testimony, and I do 
appreciate you being here.
    I am over time, so I am going to go ahead and shut up, but 
I want to thank you all again.
    Ms. Castor. Thank you very much to the ranking member. The 
United States of America has been a world leader and we should 
keep it that way.
    Now I want to welcome our witnesses. First, we have Dr. 
Diana Liverman, who is a Professor of Geography at the 
University of Arizona. Dr. Liverman served as a lead author for 
the Intergovernmental Panel on Climate Change's report on 
limiting warming to 1.5 degrees Celsius. Her research focuses 
on how climate change affects people, including historically 
disempowered groups, and how society can adapt to climate 
change.
    Mr. Hal Harvey, here at the end, is CEO of Energy 
Innovation, an energy and environmental policy firm. Harvey 
founded the Energy Foundation, and has served on Federal energy 
panels under the George H.W. Bush and Bill Clinton 
administrations. In 2018, he received the United Nations' Clean 
Air and Climate Change Award, and he is the author of two books 
on energy and climate.
    Mr. David Foster is a distinguished associate with the 
Energy Futures Initiative, a think tank started by energy 
security former Energy Secretary Ernest Moniz. Foster served as 
a senior adviser to Secretary Moniz at the Department of 
Energy, and was the founding executive director of the 
BlueGreen Alliance, a partnership between unions and 
environmental organizations. From 1990 to 2006, Foster was 
director of the U.S. steelworkers district 11, a 13-State 
region based in Minneapolis, welcome.
    And Mr. Christopher Guith is acting president and CEO of 
the U.S. Chamber of Commerce's Global Energy Institute. 
Previously, Guith had served as a Deputy Assistant Secretary in 
the George W. Bush administration, and worked in the offices of 
Representatives Bob Barr and Tim Murphy.
    Without objection, the witnesses' written statements will 
be made part of the record. With that, we will go to Dr. 
Liverman, then to Mr. Guith, and then go down the table this 
way. So without objection, the witnesses' written statements 
will be part of the record. Dr. Liverman, you are now 
recognized to give a 5 minute presentation on your testimony. 
Thank you.

    STATEMENTS OF DR. DIANA LIVERMAN, REGENTS PROFESSOR OF 
 GEOGRAPHY AND DEVELOPMENT, UNIVERSITY OF ARIZONA; HAL HARVEY, 
CEO, ENERGY INNOVATION; DAVID FOSTER, DISTINGUISHED ASSOCIATE, 
   ENERGY FUTURES INITIATIVE; AND CHRISTOPHER GUITH, ACTING 
  PRESIDENT AND CEO, U.S. CHAMBER OF COMMERCE, GLOBAL ENERGY 
                           INSTITUTE

                  STATEMENT OF DIANA LIVERMAN

    Dr. Liverman. Thank you, Chairwoman Castor, Ranking Member 
Graves, and distinguished members of the committee. Good 
morning and thank you for the invitation to give testimony at 
today's hearing.
    My name is Diana Liverman. I am a professor at the 
University of Arizona, where we are proud to host federally 
funded centers for the climate assessment for the southwest 
with NOAA, and the Department of the Interior Regional Climate 
Science Center. We also have a Center for Climate Adaptation, 
Science, and Solutions, that made many contributions to the 
U.S. National Climate Assessments.
    I studied climate change and its impacts for 40 years. I 
wrote my Ph.D. on climate change and food security at UCLA and 
the National Center for Atmospheric Research in Colorado. I 
worked for the University of Wisconsin, Penn State, and Oxford 
University. And although I have been a U.S. citizen for 30 
years, I have retained my British accent because students in my 
classes apparently are finding it more interesting and more 
convincing.
    You invited me to speak about the recent special report of 
IPCC on global warming of 1.5 Celsius, requested by countries 
as part of the decision to adopt the Paris Agreement. I was a 
lead author for chapter 5 of the main report, nominated by the 
U.S. Government, and I also contributed substantially to the 
summary for policymakers. We released the report written by 91 
authors from 40 countries in October 2018. We assessed more 
than 6,000 scientific studies, and received over 40,000 
comments from governments, scientists and other expert 
reviewers that helped us improve the report.
    What did the report conclude? My written testimony provides 
much more detail, but let me summarize some of the key 
messages: First, the Earth is already warmed on average by 1 
degree Celsius, that is about 1.8 Fahrenheit, even more over 
land and towards the poles. And we are already seeing impacts 
and losses from the warming. In the U.S., the warming has been 
greatest in Alaska, but also in the southwest where I live, 
where the annual average temperature has increased since 1901, 
with parts in southern California and Arizona warming by more 
than 4 degrees Fahrenheit.
    Warming has led to lower flows on the Colorado, increased 
the risk of wildfires across the west. It is altering our 
ecosystems, and stressing the electrical grid and agriculture. 
It has already increased the risk of species extinction, 
shifted agricultural zones, and affected human health. Tucson, 
where I live, now has 25 more days above 100 degrees Fahrenheit 
than it did in 1970. This heat has especially affected our most 
vulnerable citizens, the poor, the elderly, children, as well 
as tribal members, people of color and folks who work outdoors. 
Many people can't afford the increased air conditioning and 
water costs.
    Secondly, every bit of warming matters. The IPCC found 
significant differences in climate and impacts between 1.5 
Celsius and 2 Celsius, that is 2.7 and 3.6 Fahrenheit. For 
example, sea level rise by 2100 would be 6 inches more at 2 
degrees with added risks if ice sheets become more unstable. 
Even a few inches of sea level rise increases the risks of 
coastal flooding, salt water intrusion, and damage to 
infrastructure.
    The loss of habitat for many insects, plants and animals 
doubles, even with that extra half degree. Fire risk is higher, 
and fisheries are more disturbed. At 1.5 degrees Celsius, we 
lose about 70 percent of tropical corals, at 2 degrees they 
disappear. Poverty increases by several hundred million, and in 
many regions, water stress and heat wave deaths double, 
agricultural production declines, and diseases can increase.
    My third point is that we can reduce losses now, and at 1.5 
degrees Celsius, if we focus on adapting to ongoing warming. 
Limiting warming to 1.5 Celsius makes that adaptation easier 
and less costly. U.S. communities and businesses are already 
making costly adaptations to cope with observed warming.
    The University of Arizona is working with stakeholders 
across the southwest, water managers, conservation scientists, 
farmers and communities to develop and implement adaptation 
solutions.
    Fourth, limiting warming to 1.5 is possible. The world is 
not on track if we want to limit warming to 1.5. The IPCC 
concluded that the voluntary commitments pledged so far under 
the Paris Agreement still take us to 3 degrees. But there is a 
chance to stay under 1.5, if we cut emissions in half by 2030, 
and reach net zero emissions by 2050.
    The U.S. can make important contributions to the rapid and 
far-reaching transitions in energy, land, urban infrastructure, 
and industrial systems that could help limit warming to 1.5. 
Delaying emission reductions could be very costly. If we choose 
to delay, we may lose the chance to stay under 1.5 degrees 
Celsius, or we will have to make deeper and more expensive cuts 
in emissions, rely on untested technologies, experience greater 
losses, or adapt to higher temperatures. Halving emissions by 
2030, starting now, sets us on the path to success. The world 
will not end if we don't make these emission cuts by 2030, but 
that world will be much harder for us to live in. Thank you.
    [The statement of Dr. Liverman follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Ms. Castor. Thank you very much.
    Mr. Guith, you are now recognized to give a 5-minute 
presentation on your testimony.

                 STATEMENT OF CHRISTOPHER GUITH

    Mr. Guith. Thank you.
    Good Morning, Chairwoman Castor, Ranking Member Graves and 
members of the committee. The U.S. Chamber appreciates the 
opportunity to testify today on the important role of 
technology and innovation in addressing climate change. Global 
climate change is one of the most complex and far-reaching 
issues facing governments in the business community. The 
Chamber recognizes the climate is changing, humans are 
contributing to these changes, and these changes pose risks. 
The question for business and policymakers is how best to 
manage these risks, capture opportunities, and maintain our 
global economic leadership. But inaction is not an option. The 
Chamber believes there is much common ground on which all sides 
of this discussion could come together to craft a practical, 
flexible, predictable, and durable approach to climate change 
that acknowledges the cost of action and inaction and the 
competitiveness of the U.S. economy. Because the business 
community will be integral to developing and providing cost 
effective solutions and building resilient infrastructure, it 
will continue to be at the table.
    The Chamber believes that technology and innovation are 
integral to managing climate risks and reducing emissions 
across the U.S. as well as the globe. Instead of regulating our 
way to lower emissions, a realistic, effective and lasting 
climate policy should focus on innovating our way to 
technological solutions. Breakthroughs and commercially viable 
technology are necessary to enable significant cuts in 
emissions without harming economic growth or competitiveness of 
energy intensive and trade exposed industries.
    Existing technologies have started us on the path, but they 
are not capable of significantly reducing greenhouse gas 
emissions on a global scale at an acceptable cost. New, and in 
some cases, revolutionary technologies, will have to be 
developed and adopted commercially, along with the 
infrastructure to support them.
    Some of these technologies may never reach viability, but 
that does not mean we shirk the duty of trying to develop them. 
A technology neutral, solutions-focused climate policy is best 
positioned to stand the test of time and deliver cost 
effective, achievable, and meaningful greenhouse gas 
reductions.
    In the meantime, we should continue to develop our domestic 
energy resources which provide our businesses a critical 
operating advantage in today's intensely competitive global 
economy. We should work to preserve that advantage, recognizing 
that disproportionate international commitments could cause 
American industrial capacity to move to other countries through 
carbon leakage.
    A policy that promotes continued economic growth and 
environmental progress through sustained focus on technology 
development where what we at the Chamber call the cleaner, 
stronger approach, is much more popular with the voting public 
compared to an approach centered on expanding government 
regulation. Last month, we commissioned a national poll that 
found 79 percent of voters agreed that the best way to address 
climate change is through investment, and innovation, and 
technology, which was a 24-point advantage over increased 
government regulation. Additionally, voters prefer a cleaner, 
stronger focus to a Green New Deal approach by more than three 
to one.
    And finally, more than 64 percent of voters would spend no 
more than $10 a month to address climate change. These results 
underpin the Chamber's efforts to promote bipartisan Federal 
policies and investments that spur technologies that can reduce 
environmental impact and compete on price and reliability.
    It will largely be up to the business community to develop, 
finance, build, and operate the solutions needed to power 
economic growth worldwide, while mitigating greenhouse gas 
emissions. Thousands of businesses already have made emissions 
commitments and are taking action to reduce emissions in their 
own operations and along their value chains. To draw attention 
to what the energy industry is doing, last summer, we launched 
a new initiative to highlight that the energy industry has been 
one of, if not the most innovative industries, over the last 
decade. Our program, called Energy Innovates, highlights 
specific innovative projects and technologies, as well as the 
forward thinkers, engineers, and manufacturers responsible for 
further development.
    This summer, the Chamber is hosting an energy innovation 
summit to help policymakers here in Washington better 
conceptualize the exciting development happening across the 
country.
    Climate change is a global challenge, and U.S. 
technological leadership will be vital in addressing developing 
country emission trends. Virtually, all future greenhouse gas 
emission growth is expected to come from developing countries. 
Much of these increases are related to a sharp increase in 
coal-fired electricity generation expected to be built there. 
As such, technology and innovation will be even more important 
in addressing developing country emission trends.
    Make no mistake, the developing world's desire for greater 
energy access is not an argument for inaction. As we stated, 
inaction is not an option. However, failure to recognize the 
global nature of climate change leads to a solution set that is 
ineffective. Advanced technologies that compete with 
traditional fuels on cost, reliability and scalability can 
reconcile the sometimes competing quest for energy access and 
desire for emissions reductions.
    Technology supported by sound policy will be essential to 
tackling the challenges and capitalizing on the opportunities 
presented by climate change. The Chamber will continue to 
support an accelerated program to improve performance, lower 
the cost, and increase scalability of energy technologies. 
There are a number of near-term legislative actions on which 
there is broad consensus, such as technology and innovation 
that the Chamber supports, and on which Congress could act.
    I listed several in my written testimony, and we encourage 
all of you to cosponsor these bills. America's business 
community is ready, willing and able to continue to provide the 
solutions to reduce emissions while growing the economy. With 
the sensible policy environment that plays to America's 
strengths and business leadership, we can continue making our 
economy cleaner and stronger. An approach focusing on solutions 
offers a practical path forward that makes good sense and good 
business sense.
    Thank you, Madam Chairman.
    Ms. Castor. Thank you very much.
    [The statement of Mr. Guith follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Ms. Castor. Mr. Foster, you are new recognized for 5 
minutes.

                   STATEMENT OF DAVID FOSTER

    Mr. Foster. Thank you. Good morning, Chairwoman Castor, 
Ranking Member Graves, and Hal Harvey for turning the mic on. I 
am pleased to be here today on behalf of the Energy Futures 
Initiative to speak to the important issue of the energy and 
energy efficiency workforces. Twelve years ago, in 2007, I 
testified to the Select Committee on Energy Independence and 
Global Warming. At that time, I stated one of the most famous 
American industrialists of the 20th century, Henry J. Kaiser, 
once observed, quote, ``Problems are just opportunities in work 
clothes.'' While 12 years later, I am pleased to report that 
millions of Americans have put on their work clothes and got 
about the business of solving climate change. Today, of the 6.7 
million Americans who work in the energy and energy efficiency 
industries, over 3.5 million, more than 50 percent, are 
contributing to a lower emissions economy. 350,000 of them do 
this in the wind and solar energy industries; another 63,000 in 
nuclear power plants; 66,000 in hydro; 70,000 in low emissions, 
advanced natural gas generating plants; and thousands of others 
in geothermal, combined heat and power, battery storage, and 
many other technologies including several hundred at the first 
coal-fired power plant retrofitted with carbon capture 
technology at the Petra Nova generating station, just south of 
Houston, Texas.
    If it is done right, with the interest of America's middle 
class and working families at heart, there will be a place at 
the table, a job, and a paycheck, for every American while we 
solve the climate crisis. But we do have to do it right. Most 
of the Americans whose jobs are reducing greenhouse gas 
emissions today are working with energy efficiency 
technologies. In fact, almost 2.35 million people work in 
energy efficiency in the United States, retrofitting our 
buildings, installing LED lighting systems, and manufacturing 
high efficiency HVAC systems and hundreds of other ENERGY STAR 
certified products.
    In transportation, almost 254,000 Americans now work 
manufacturing hybrids, all electrics, and plug-in hybrids, 
while another 486,000 work in the motor vehicles component 
parts industry, specifically on those products that make our 
automotive fuel consumption more efficient. This is how we 
solve climate change, by doing the hard work every day and 
getting a paycheck from construction work, factory jobs, for 
mining critical minerals like copper, iron ore and palladium 
and designing, financing, and permitting the systems and 
products that create our low carbon economy.
    So what are some of the effective job strategies for 
dealing with the disparities that are inevitable in the 
transition to a low carbon economy? First, we need to embrace 
an all-of-the-above flexible strategy towards climate 
solutions. There is no silver bullet that can guide our economy 
to a low carbon endpoint guaranteeing CO<INF>2</INF> reduction 
and a decent job for every American. But we can invest in a 
range of technologies and options that preserve flexibility and 
encourage participation in every form of energy and in every 
community during the next decade. From renewables and battery 
storage in California, to carbon capture and sequestration in 
Appalachia, to small modular reactors in Idaho.
    Second, we need to accelerate our investments in energy 
efficiency with a special priority on those regions of the 
country negatively impacted by declining use of fossil fuels. 
The third strategy is to invest in energy infrastructure. The 
existing DOE loan program office, with $39 billion of existing 
loan authority, could be particularly helpful in jump-starting 
such an initiative.
    Fourth, we need to focus on the manufacturing supply chains 
that our new energy technologies are creating. The ENERGY STAR 
brand promoted by the U.S. EPA is one of the strongest product 
marketing brands in the world, recognized as the gold standard 
for efficiency, using a new ENERGY STAR, Made in America 
procurement policy to support the manufacturer of best in class 
products would be one of best paths forward to a resurgence in 
American manufacturing. Carbon performance should be a 
universal procurement standard for government spending in the 
U.S., similar to what California recently did with its Buy 
Clean standard.
    Finally, we need to address the workforce development 
crisis across all energy technologies, but particularly in 
energy efficiency. In 2017, energy efficiency construction 
employers have projected hiring at 10.6 percent for over 
120,000 new jobs. But the reality of hiring difficulty got in 
the way, and they added only 21,000 jobs in 2018. This was a 
failure of our workforce development system with very real-
world consequences. From the environmental perspective, 
millions of tons of CO<INF>2</INF> went into the atmosphere 
that could have been prevented. But from the human perspective, 
this represented over 100,000 families that could have entered 
the middle class with some of the best paying jobs in America.
    I want to close by thanking the committee, again, for the 
opportunity to testify. With sound economic analysis, accurate 
jobs data and a collaborative approach, we can manage our path 
to a low-carbon economy by investing in new opportunities and 
new jobs first before we put old technologies on the shelf.
    Thank you very much.
    [The statement of Mr. Foster follows:]

     Testimony to the House Select Committee on the Climate Crisis

    David Foster, Distinguished Associate, Energy Futures Initiative

                             April 30, 2019

    Good morning, Madame Chairwoman Castor and Ranking Member Graves. 
I'm pleased to be here today on behalf of the Energy Futures Initiative 
to speak to the important issue of the energy and energy efficiency 
workforce in our country during a time of considerable technological 
change and policy debate, both of which can have consequential effects 
on the lives of the men and women who work throughout our energy 
economy.
    Twelve years ago, in 2007, I testified to the Select Committee on 
Energy Independence and Global Warming. At that time I reflected, ``One 
of the most famous American industrialists of the 20th Century, Henry 
J. Kaiser, who built an innovative manufacturing enterprise that 
included aluminum, steel, and ship building and created the health care 
delivery system that still bears his name, once observed that 
``Problems are just opportunities in work clothes.''
    Twelve years later, I'm pleased to report that a lot of Americans 
have put on their work clothes and got about the business of solving 
climate change. Today, of the 6.7 million Americans who work in the 
energy and energy efficiency industries over 3.5 million, more than 
50%, are contributing to a lower emissions economy. 350,000 of them do 
this in the wind and solar energy industries, another 63,000 thousand 
in nuclear power plants, 65,000 in hydro and 70,000 in low emissions 
advanced natural gas generating plants, and thousands of others in 
geothermal, combined heat and power, battery storage, and many other 
technologies, including several hundred at the first coal-fired power 
plant retrofitted with carbon capture technology at the Petra Nova 
generating station, just south of Houston, TX. If it is done right, 
with the interests of America's middle class and working families, at 
heart, there will be a place at the table, a job and a pay check for 
every American while we solve the climate crisis. But we have to do it 
right.
    Most of the Americans whose jobs are reducing greenhouse gas 
emissions today are working with energy efficiency technologies. In 
fact, almost 2.35 million people work in energy efficiency in the 
United States, retrofitting our buildings, installing LED lighting 
systems, and manufacturing high efficiency HVAC systems and hundreds of 
other EnergyStar certified products. They provide the design and 
engineering plans to restructure our built environment. They reduce the 
energy consumption in our energy intensive industries and in every way 
they are changing the way we interact with our environment.
    In transportation, almost 254,000 Americans now work manufacturing 
and designing alternative fuels' vehicles including all electrics, 
hybrids, and plug in hybrids, while another 486,000 work in the motor 
vehicles' component parts industry, specifically on those products that 
make our automotive fuel consumption more efficient. This is how we 
solve climate change--by doing the hard work every day and getting a 
pay check from construction work, factory jobs, from mining the 
critical minerals like copper, iron ore, and bauxite, and designing, 
financing, and permitting the systems and products that create our low 
carbon economy.
    For 31 years I worked with the United Steelworkers union, the last 
16 as the Director of the 13-state District #11, based in Minnesota. In 
2006 with the Steelworkers support, I was the founding executive 
Director of the Blue Green Alliance, a national organization that 
unified 10 labor unions and five environmental organizations with over 
14 million members around a vision of a fair and just transition to a 
low carbon economy that would put money in working families' pockets 
and make America the leader in low carbon technologies. I also served 
for three years as Senior Advisor on energy, economic development, 
climate, and workforce issues to U.S. DOE Secretary Moniz from 2014-
2017. I currently serve as a Distinguished Associate at the Energy 
Futures Initiative, an energy policy think tank, founded by the former 
Secretary and a consultant to the Roosevelt Project at the 
Massachusetts Institute of Technology. I also serve on the boards of 
two manufacturing companies, Kaiser Aluminum and Evraz, NA, a steel 
company.
    While I was at the U.S. Department of Energy (DOE), I was 
responsible for overseeing the design and production of the U.S. Energy 
and Employment Report, an employer survey-driven study of how new 
energy technologies were affecting labor markets in the U.S. in five 
critical sectors--Fuels; Electric Power Generation; Transmission, 
Distribution and Storage; Energy Efficiency; and Motor Vehicles. We 
focused on these sectors because they were at the core of the system 
through which we create, distribute, and consume most of the energy in 
the American economy. After producing two editions of the U.S. Energy 
and Employment Report, I have continued this work at the Energy Futures 
Initiative in partnership with the National Association of State Energy 
Officials (NASEO). This partnership has produced two subsequent reports 
on the energy workforce, using the identical methodology we created at 
DOE, released in the spring of 2018 and most recently, the spring of 
2019.
    Energy jobs data is critical to measuring the economic success of 
any climate change mitigation program, pinpointing any adverse economic 
consequences, and crafting solutions for working people and communities 
that may be upended by changing energy technologies.
    Here are some of the key findings of our reports:
    Although the energy sector in the U.S. has steadily declined as a 
percentage of U.S. Gross Domestic Product (GDP) since the Oil Embargo 
of the 1970's, with one notable exception during the 2006-08 period, 
energy occupies a unique position in the American economy. It is the 
sector upon which every other sector is dependent.
    Today's energy and energy efficiency sectors employ 6.7 million 
Americans, with 35% of those employees focused on energy efficiency, 
19% engaged in transmission, distribution and storage of fuels and 
electricity, 17% producing fuels, another 13% producing electricity, 
and 15% working in gas stations.
    For the last four years, the energy and energy efficiency sectors 
have out-produced the rest of the American economy, creating jobs at a 
more rapid rate than the economy as a whole. In 2018, the U.S. economy 
increased jobs by 1.8%, while the energy and energy efficiency sectors 
added jobs at 2.3%, creating 7% of all new jobs.
    It is critical to understand that an economy whose energy sector is 
constantly becoming more productive, more efficient and more cost 
competitive not only creates jobs itself, but also stimulates job 
creation in every other sector of the economy including in 
manufacturing, construction, agriculture, health care, or IT services. 
Energy is a critical cost component that links systems, enables 
innovation, and stokes global competitiveness. We need only look to 
neighboring economies where the cost of energy, inefficient energy 
systems, and unreliable delivery infrastructure disrupt and slow 
economic activity.
    Our energy system starts with the production of fuels which today 
employ 1.13 million Americans, an increase of 52,000 in 2018. Most of 
this increase was a result of the resurgence of oil and gas production 
in the U.S. While some advocates for aggressive action on climate 
change may see the growth of domestic oil and gas production as a 
threat, I see it as an opportunity that affords us the economic 
stability to plan the transition to a low carbon economy over the next 
thirty years without the disruption that spikes in fossil fuel prices 
or lack of availability would cause. Just remember the problems that 
accompanied the 2007-8 spike in oil prices to $140/barrel. Agriculture, 
manufacturing, and transportation, worldwide, faced serious 
consequences.
    The luxury of our current energy abundance also allows us to attack 
the much more difficult problems of reducing GHG emissions from the 
industrial, agricultural, and transportation sectors without dealing 
immediately with the social dislocation that would be caused in those 
sectors and in more rural parts of the country, all of which are more 
heavily dependent on fossil fuels.
    Although most fuels' production in the U.S. is fossil today, it is 
important to note that the 2019 USEER identified over 106,000 Americans 
who work in renewable fuels, an increase of almost 2,300 jobs.
    Electric Power Generation (EPG) employed 876,000 people in the US 
in 2018, a decline of some 8,000 from 2017, but roughly 8,000 more than 
in 2016. The declines were clustered in the solar, coal and nuclear 
generating technologies and were partially offset by gains in natural 
gas, wind, CHP, and geothermal. While the number of overall jobs in EPG 
has remained relatively stable, the fuel source of those jobs has 
changed dramatically and resulted in significant reductions in GHG over 
the last decade. Today, 640,000 people, or roughly 73% of the EPG 
workforce are employed in low emissions technologies--including wind, 
solar, geothermal, nuclear, hydro, combined heat and power, biomass, 
and low emissions natural gas. In addition to including almost \3/4\ of 
the workforce, these technologies produce almost 60% of our country's 
electricity. 242,000 work in the solar industry, 111,000 in wind, and 
63,000 in nuclear generation and 66,000 in hydro, our four principal 
zero emissions' technologies. This is the clearest proof I know that 
the transition to a low carbon economy can be done in a way that 
produces jobs, ensures reliability, and provides affordable electricity 
to consumers and business.
    However, it would be misleading not to point out that this success 
is dependent upon the continued production of natural gas, the largest 
single source of generation in the country today and the employer of 
over 270,000 Americans on the extraction side alone. Another 352,000 
work in the distribution and generation side of natural gas, for a 
total of almost 625,000. The shift of generation fuels from coal to 
natural gas has been one of the most consequential steps to reduce GHG 
emissions in both the electrical and industrial sectors over the last 
decade. The flexibility of natural gas has also been an important 
factor in accelerating the deployment of variable renewable energy 
technologies like wind and solar.
    Our energy infrastructure workforce--the men and women who build 
and maintain the fuels' and electricity transmission, distribution and 
storage systems--is the scaffolding around which the rest of our 
economy is built. Without the ``on time'' delivery of reliable and 
affordable energy every other aspect of our economy would grind to a 
halt. Today, in addition to a million people employed in gas stations, 
our energy infrastructure workforce is composed of another 1.4 million 
Americans who build and service 642,000 miles of high voltage 
transmission lines, 2.6 million miles of interstate pipelines, and 6.3 
million miles of distribution lines, as well as the ports, railway 
lines, and other essential infrastructure assets. According to the 
American Society of Civil Engineers, our country's energy 
infrastructure would get a D+ if given a high school grade. This 
translates into a $177 billion funding gap over a 10 year period for 
the electricity system alone. We lose a significant portion of 
generated electricity to the inefficiency of our grid. Upgrades in the 
grid are another example of how efficiency investments can directly 
lead to GHG reductions by simply reducing the need for generation, 
regardless of source.
    Finally, our energy efficiency workforce is critical to the success 
of any effort to address climate change, and its workforce challenges 
are key to the successful management of an overall energy workforce in 
transition. With 2.35 million workers, our energy efficiency workforce 
is composed of 55% construction workers, 21% professional and business 
services, 14% or over 320,000 manufacturing employees, 10% in wholesale 
trade and other. Our energy efficiency workforce has added over 275,000 
jobs in the last three years and is the fastest growing sector of the 
low carbon economy.
    Unlike fuel production and some renewable resources which tend to 
be geographically specific, our energy efficiency workforce is located 
in every state in our country. In my home state of Minnesota, there are 
EE workers in every one of our 87 counties.
    It is especially important to note that we are facing a hiring 
crisis in energy efficiency technologies in our country that is the 
worst in the entire energy sector. According to our recent survey, 84% 
of employers in the construction side of EE found it either very 
difficult or somewhat difficult to hire new employees in 2018. This 
represented a 5-percentage point jump in intensity over 2017 with 52% 
of EE construction employers saying it was ``very difficult'' to hire 
new employees, citing a lack of experience, training and technical 
skills as the main reasons. EE employers had predicted 9% job growth 
for 2018 and yet were only able to grow by 3% last year. The skills' 
shortage has become critical and addressing it is key to creating a low 
carbon economy that benefits all working people in America and rapidly 
reduces GHG emissions.
    I want to turn now to one of the key disparities in today's energy 
economy and one of the great challenges to the successful transition to 
a low carbon economy. That is the geographic uniqueness of key energy 
resources. Coal is concentrated in Appalachia, Wyoming, Montana, and 
the lower Ohio River basin. Petroleum resources are strongest in TX, 
LA, ND, and OK. Natural gas jobs are clustered in the Gulf Coast and 
the Marcellus Shale. Solar resources are strongest in the Southwest. 
Wind is concentrated in the Central Plains corridor. What benefits the 
deployment of one resource may negatively impact another.
    So what are some of the effective job strategies for dealing with 
the disparities that are inevitable in the transition to a low carbon 
economy, to minimize dislocation, and maximize opportunity? Here are 
five key strategies.
    First, we need to embrace an ``all-of-the-above'', flexible 
strategy toward climate solutions. There is no silver bullet, no single 
technology, nor one perfect policy that can guide our economy to a low 
carbon endpoint, guaranteeing CO<INF>2</INF> reductions and a decent 
job for every American. But we can invest in a range of technologies 
and options to preserve flexibility and participation by every form of 
energy and every community during the next decade while we pursue every 
technological solution--from renewables and battery storage in 
California to carbon, capture, utilization, and sequestration in 
Appalachia to small modular reactors in Idaho.
    This is the scientifically prudent approach and it is also the 
economically inclusive approach. It is especially important when we 
think about how to decarbonize the industrial, agricultural and 
transportation sectors of the economy which are responsible for almost 
70% of total emissions. It also means that our coal and gas dependent 
communities have jobs and a path forward. It means our rural, 
industrial communities have a role to play. That agriculture is an 
ally. It means our coastal communities can look to offshore wind, and 
our renewables-rich communities can prosper. The low carbon economy 
doesn't need winners and losers. It needs collaborators.
    Second, we need to accelerate our investments in energy efficiency 
with a special priority on those regions of the country negatively 
impacted by declining use of fossil fuels. Numerous local clean energy 
development funds have demonstrated the effectiveness of energy 
efficiency financing mechanisms as a vehicle to pay for building 
retrofits through energy cost savings while also creating well-paying 
construction jobs. Such agencies as the New York State Energy Research 
and Development Authority, the St. Paul, Minnesota Trillion BTU 
initiative, the many utility administered programs, PACE and on bill 
financing mechanisms have all demonstrated this success.
    A third strategy is to invest in energy infrastructure. Energy 
infrastructure is necessary to and crisscrosses every community. It is 
also closely linked to energy efficiency GHG reductions on the 
electrical side and to methane emission reductions on the natural gas 
side. In addition to enhancing resilience and national security, these 
investments provide access to some of the best jobs in America and 
provide pathways to lifelong skills and job security. Inevitably, such 
infrastructure investments lead to broader economic development.
    As a former DOE employee and board member of DOE's Loan Program 
Office, I would be remiss in not stressing the immediate and important 
role that the DOE Loan Program Office could play in jumpstarting 
investments in our country's energy infrastructure and creating 
thousands of well-paying construction jobs and learning opportunities. 
With $39 billion of unused low interest loan and loan guarantee 
authority, the LPO could move rapidly into the much needed space of 
helping to finance America's next generation of energy infrastructure. 
The Energy Futures Initiative has provided an analysis of this subject, 
published in March, 2018, entitled, ``Leveraging the DOE Loan Program: 
Using $39 Billion in Existing Authority to Help Modernize the Nation's 
Energy Infrastructure'' which is attached to my testimony. The LPO 
could also play a role in supporting the use of regional clean energy 
lending institutions, accelerating the deployment of energy efficiency 
technologies.
    Both energy efficiency and energy infrastructure investments are 
applicable for every community in the country. However, by investing, 
first, in these critical aspects of the energy system in those 
communities and regions impacted most significantly by the loss of jobs 
in fossil fuels, we can provide economic development support where it 
is needed most, a critical choice at a time when new energy 
technologies are displacing some long-standing energy production 
systems. The sequencing and timing of how we solve a problem can 
ultimately determine the support it achieves from our fellow Americans.
    Fourth, we need to focus on the manufacturing supply chains that 
our new energy technologies are creating. Nothing is more frustrating 
than looking back over the years of American technological innovation 
and recording the history of American applied research being handed off 
to other countries for commercialization. Such was the story of wind 
and solar technologies, developed here in the U.S., before being ceded 
to Europe and Asia. We do not need to repeat this history with the next 
generation of low carbon technologies.
    Especially with energy efficiency products, such as high efficiency 
appliances, lighting systems, industrial motors, or water pumps, one of 
our clear goals, when introducing new regulatory requirements, should 
be assuring a manufacturing policy that encourages ``Made in America.'' 
Much of the infrastructure is already in place but we need to nurture 
it and aggressively support it. The EnergyStar brand, promoted by the 
U.S. EPA is one of the strongest product marketing brands in the world, 
recognized as the gold standard for efficiency. Using a new EnergyStar 
Made in America procurement policy to support the manufacture of ``best 
in class'' products in the global economy would be one of the best 
paths forward to a resurgence in American manufacturing.
    EnergyStar not only certifies products, it also certifies 
commercial buildings, single family residences, and industrial 
processes. We already have the least carbon intensive steel industry in 
the world, for instance, and that should be a cause for celebration and 
recognition. Carbon performance should be a universal procurement 
standard for government spending in the U.S., similar to what 
California recently did with its ``Buy Clean'' standard. Such a policy 
would provide a significant boost for domestic manufacturing.
    Finally, we need to address the workforce development crisis across 
all energy technologies, but particularly in energy efficiency. During 
the four years of the production of the U.S. Energy and Employment 
Report, I have watched with alarm as the reports of employer hiring 
difficulty have steadily gone upward from 75% in 2015 to 80% in 2016 to 
83% in 2017 and finally to 84% last year. At the same time the 
disparity between projected hiring growth rates and actual hiring rates 
from employers in key industrial sectors has grown wider and wider.
    Consider these examples. In 2016 EE construction firms projected a 
growth rate in 2017 of 11%, but actual employment in those construction 
firms declined by 7% that year. Overall, energy efficiency employment 
still grew by 67,000. Two years later hiring difficulty by these same 
construction firms had risen to 84% with 52% saying it was very 
difficult to hire new employees. Employers had projected hiring 10.6% 
or over 120,000 jobs but the reality of hiring difficulty got in the 
way and they added only 21,000 jobs. This was a failure of our 
workforce development system with very real world consequences. From 
the environmental perspective, millions of tons of CO<INF>2</INF> went 
into the atmosphere that could have been prevented. But from the human 
perspective, this represented over 100,000 families that could have 
entered the middle class with some of the best paying jobs in America.
    I want to finish my testimony with some comments about our energy 
system and job quality in America. We have recently heard much more 
discussion about income and wealth inequality in America, often from 
surprising sources. At EFI we recently completed a wage survey of 
energy sector employment to better understand the effect that 
technology shifts were having on job quality, access and inclusion in 
our energy workforce. We expect to publish a full report on this 
subject later in the spring.
    Let me share some preliminary findings with you today. First, with 
a handful of technology exceptions, our energy and energy efficiency 
workforce is racially as diverse or more diverse than the American 
workforce as a whole. Thus, in Fuels, Electric Power Generation, TDS, 
and EE these sectors of the economy are places where all Americans can 
feel welcome. In Electric Power Generation and in Transmission, 
Distribution, and Storage, the workforce is 35% more diverse. Gender 
equity, however, does remain an issue. Energy and energy efficiency 
jobs also pay substantially more than equivalent occupations outside of 
the energy field. For instance, an electrician working in the electric 
power generation area gets paid, on average, $1.49 per hour more than 
an electrician generally, a construction laborer in EPG gets $.95 more. 
In TDS those premiums rise to $2.66 and $1.70. Interestingly, across a 
range of manufacturing positions, Energy Efficiency workers earn from 
$.82-$1.39 an hour more.
    Another important factor underlying this wage differential is the 
higher degree of unionization in America's energy sector. In 
Transmission, Distribution, and Storage, the unionization rate is 
almost three times higher than the average private sector rate. In 
Energy Efficiency it's double, while in Electric Power Generation it is 
generally higher except in the wind and solar technologies. Fuels 
production is below the average.
    The quality of energy jobs is very often the anchor to the social 
and economic quality of a community. Consider for instance the 
relatively rural, isolated nature of most of the communities where 
America's 90+ nuclear generating stations are located, producing 20% of 
U.S. electricity, all of it carbon free. The nuclear sector happens to 
have the highest median wage of any technology in the energy sector. It 
is not surprising that these employers and their employees are among 
the most highly valued in any community. Regardless of your personal 
views on the value of nuclear to our overall energy system, it should 
be our aspiration that every job in energy in America has the same 
value to its community that those nuclear jobs do.
    I want to close by thanking the Committee again for this 
opportunity to testify about the importance of America's energy 
workforce and our collective responsibility to those men and women to 
ensure their safety and economic security since the rest of our economy 
depends on them. As I said earlier, the problem of climate change is an 
opportunity in work clothes. That means it's a paycheck not a layoff 
slip. With sound economic analysis, accurate jobs data, and a 
collaborative approach we can manage our path to a low carbon economy 
by investing in new opportunities and new jobs first before we put old 
technologies on the shelf.
    Thank you very much.

    Ms. Castor. Thank you, Mr. Foster.
    Mr. Harvey you are recognized for 5 minutes.

                    STATEMENT OF HAL HARVEY

    Mr. Harvey. Thank you, Madam Chair, thank you Ranking 
Member, and all the other members here. It is a great honor to 
be here today.
    I am an engineer by education. I have decades of experience 
in finance, in technology, in public policy, and in engineering 
and construction. And I have come here today to offer options 
that I think are practical and that will appeal to both sides 
of the aisle. As honored as I am to address this, I guess, 
body, I have to stay it is especially important, I have my son 
with me today. So he can witness my work, but, especially, 
because we all have a deep obligation to our children to give 
them a planet as bountiful as the one we inherited. We cannot 
shirk that duty. My approach in thinking about energy policy is 
to think about the four qualities that Americans need with 
their energy. They need affordable, reliable, clean and safe. 
It is these attributes that are the public policy goals, not a 
specific technology. And the right kinds of policy can produce 
those attributes.
    Here is the big picture, and it is pretty terrific: It is 
now cheaper to save the planet than to ruin it. I appreciate 
the testimony from the Chamber of Commerce, it should have been 
written 10 years ago, because the technologies are here today. 
We have had amazing advances in batteries, in electric 
vehicles, onshore wind, offshore wind, 3-D printing, solar, LED 
bulbs, industrial control systems, heat pumps and more. And so, 
it is now cheaper, in many, many circumstances, to drastically 
reduce climate change than to keep going with business as 
usual.
    The key missing ingredient is the right kind of policy. We 
want to reward those characteristics of affordable, reliable, 
clean and safe, or do we want to protect income and 
technologies? Let me offer an example. My team analyzed every 
single coal-fired power plant in America, the economics of 
them. Three-quarters of them now cost more simply to operate 
than replacing them within 35 miles with solar and wind. So it 
is cheaper to take those same locations, those same 
transmission lines and the same workers, and give them a better 
job in clean energy than to keep running those old power 
plants. It is also better for the economy because it saves 
consumers money.
    People worry about reliability with clean energy. The 
states in America, and this is our great experiment in 
democracy, that have adopted strong wind energy standards have 
more--have increased the reliability of their grid. It moves 
you in the proper direction not the wrong direction.
    So let me offer four policy ideas, but also mention in my 
written testimony, we worked on a comprehensive strategy that I 
urge you to take a look at. The first policy I would recommend 
is to require that the Federal Energy Regulatory Commission be 
a merit-driven, technology-neutral, adjudicatory body required 
to run the power system at the lowest cost. That seems straight 
forward and that seems like a bipartisan idea. And in fact, 
that is the way the FERC has worked for years. But in the last 
2 years, they have started to put the thumb on the scale for 
certain technologies. In my mind, that is a Soviet-era 
thinking. That is not what America should be all about.
    Second, we should set performance targets for our grid. I 
would argue for 80 percent zero carbon electricity by 2035. 
This is ambitious, but it is realistic, and it is cost 
effective. It will save consumers money. If you don't believe 
me, check out Iowa, or Kansas, or Texas, or Oklahoma, or 
California, which have different geographies, different 
policies, different political situations, but are all 
benefiting from incredible rapid adoption of clean energy 
technology.
    We worked in Texas when George W. Bush was Governor. He 
signed the first--the second renewable portfolio standard in 
the country. And it has been a huge success.
    The third option I would offer for your consideration is 
let's make sure America builds the most efficient clean cars on 
the planet. We need to accelerate the energy efficiency 
standards and accelerate the transition to zero emission 
vehicles.
    Ranking Member Graves, I have traveled to China more than 
70 times. I have worked in a dozen countries on energy policy. 
And I tell you, they have a lot of bad stuff to fix, but they 
are working hard on it. And they are moving in the transition 
to electric vehicles, I am afraid, a lot faster than we are. We 
don't want to have China on that technology, that should be an 
American technology, in my opinion.
    The fourth recommendation I would offer is to make sure 
that the affected communities in this transition are treated 
properly. So think of the coal mining towns in West Virginia, 
we should have an environmental restoration project of 
significant scale, so that the same people in the same 
communities with similar skills can be part of the solution and 
can be supported for that. They have helped deliver low cost 
electricity to this country for 100 years, let's not walk away 
from that now, let's begin a serious environmental restoration 
project.
    I see my time is running out. Let me offer a concluding 
thought. My work is organized around solutions, practical 
solutions, based on economics, based on engineering. But I must 
have done something horrible in a previous life, because I also 
have to keep up on the climate science. And I am here to tell 
you that if we don't act, and don't act rapidly, we will leave 
a much impoverished Earth to our children. We will walk away 
from the America we recognize and create FEMA world, and nobody 
here wants that. So we need to do the right thing and we need 
to do it rapidly. Thank you.
    [The statement of Mr. Harvey follows:]

               Federal Policies To Slash Greenhouse Gases

                          Hal Harvey, et al.,

                               April 2019

    Federal policies could reduce the United States' greenhouse gas 
(GHG) emissions by at least a third below 2005 levels by 2030, and at 
least 80 percent by 2050, according to modeling in the Energy Policy 
Simulator (available at https://www.energypolicy.solutions).
    Ultimately, we must get to zero, but this package would be a great 
start, using only federal policy levers that we believe should have a 
reasonable chance of passing. This package would also kick-start 
innovation, opening up further options to drive emissions to zero in 
the coming years. However, this is a comprehensive package, not a menu 
from which to select. Only enacting policies that address emissions in 
every sector creates a reasonable chance to avoid the worst impacts of 
climate change.
    The electricity sector has the greatest emission reduction 
potential by 2050, given the recommended policies below--the path to 
zero is relatively clear, and we know the technologies and approaches 
that can deliver it. The faster we decarbonize the power sector, the 
more we can use it to decarbonize other sectors--like transportation 
and buildings, by converting fossil fuel burning to electricity.
    The next largest opportunity lies in addressing super-pollutants 
(methane and fluorinated gases), which tie closely with other policies 
to reduce emissions from the U.S. industrial sector. Heavy industry 
produces a large share of U.S. GHGs today, but the path to zero is less 
clear for industry--policies included here will get us a good start, 
but more research and development (R&D) is needed to support industry 
decarbonization.
    Major opportunities to reduce GHG emissions via policy also exist 
in the transportation sector--including a mix of electric vehicle 
incentives, supporting infrastructure, and strong standards for 
traditional internal combustion engine vehicles.
    Another important chunk of emissions reductions comes from 
upgrading the energy efficiency of existing buildings and also 
switching from burning gas or oil on-site to using electricity.
    Agriculture also presents emission reduction opportunities, and 
support for agriculture-related R&D can help identify options to drive 
additional emissions reductions.
    A carbon price adopted at the federally-estimated social cost of 
carbon would offer additional potential emissions reductions alongside 
these sector-specific policies.
    Finally, the list of policies below includes important enabling 
policies, such as support for rural Americans in the energy transition, 
as well as expanded clean energy and carbon reduction R&D.

                              Electricity

    The electricity sector is currently the second-largest source of 
U.S. GHG emissions, but it has the clearest path to zero emissions. We 
have the technology (and it's increasingly cheaper to deploy clean 
rather than polluting power plants), we have the know-how, we just need 
to get this moving--and quickly.
    Leaning into this sector where we are already making progress will 
have knock-on benefits for other sectors: A decarbonized electricity 
system can be used to replace fossil fuels in other parts of the 
economy, via electric vehicles, electrifying buildings that would 
otherwise burn natural gas, and electrifying parts of factories that 
would otherwise burn fuel onsite.
          create a 100 percent national clean energy standard
    A 100 percent clean energy standard for the electricity sector by 
2045 \1\ is one of the most effective policies for reducing U.S. GHGs. 
The standard could include all sources of zero-carbon electricity 
(solar, wind, biomass, hydro, geothermal, nuclear, carbon capture and 
storage, and any other source of zero-carbon electricity developed 
between now and 2045). It should include interim targets at least every 
five years, or better yet, an annual improvement rate of two percent 
per year from 2020-2045. Special attention must be paid in early years 
to develop low-cost options for squeezing the last 10 percent of GHGs 
out of the power system.
---------------------------------------------------------------------------
    \1\ Note that it would be useful to structure this as an incentive-
driven race to the top; in the past, state officials have balked at 
federal requirements on their electricity mix.
---------------------------------------------------------------------------
   extend and expand tax credits for solar, wind, and energy storage
    Extending tax credits \2\ for solar, wind, and energy storage is 
another strong mechanism to support clean electricity, particularly if 
a national clean energy standard is not part of a final policy package. 
These kinds of incentives help spur the market for newer technologies 
with great potential, driving sufficient scale to bring down costs and 
make new options available for Americans. Offshore wind and energy 
storage are two of these newer technologies, but have huge market 
potential if they can achieve enough scale to bring costs down just a 
bit more.
---------------------------------------------------------------------------
    \2\ Note that taxable cash incentives are much more efficient than 
tax credit structures--with some analyses suggesting the same federal 
dollar could achieve twice as much in the form of a taxable cash 
incentive as in the form of a tax credit (see https://
climatepolicyinitiative.org/wp-content/uploads/2012/09/Supporting-
Renewables-while-Saving-Taxpayers-Money.pdf). The financial efficiency 
of tax credits may even decline further given recent tax reform, as 
large businesses have less tax appetite and the already-tight market 
for tax equity will likely become even tighter.
---------------------------------------------------------------------------
    In addition to traditional tax credits, the federal government 
could address up-front capital costs for clean energy technologies by 
leveling the playing field with fossil fuel infrastructure through 
additional financing mechanisms such as Master Limited Partnerships, 
Real Estate Investment Trusts, Clean Renewable Energy Bonds, and 
securitization of project debt (similar to how Fannie Mae does this in 
the housing market).\3\
---------------------------------------------------------------------------
    \3\ For more on what would need to be done to make these structures 
as useful as possible, see: https://www.nrel.gov/docs/fy14osti/
60413.pdf.
---------------------------------------------------------------------------
 issue a stronger mandate for ferc to modernize power markets and make 
                        them technology neutral
    The wholesale power markets regulated by the Federal Energy 
Regulatory Commission (FERC) were established in an era when coal and 
other fuel-burning power plants dominated the U.S. electricity system. 
Naturally, rules and structures were designed with the power plants of 
the day in mind, but many more options are available today and the 
power markets must evolve to take advantage of them. FERC should 
inventory market rules and structures with an eye toward updating them 
to be truly technology neutral given the swath of new options available 
today.\4\ FERC should also consider complementary reforms to the 
governance of regulated power markets to ensure decision-making 
processes reflect today's needs.
---------------------------------------------------------------------------
    \4\ See this paper we wrote: https://energyinnovation.org/wp-
content/uploads/2017/10/A_Roadmap-For-Finding-Flexibility-In-Wholesale-
Power-Markets_FINAL.pdf.
---------------------------------------------------------------------------
    The federal government should further clarify that FERC should 
consider benefits of GHG emission reductions in its gas infrastructure 
and electricity market design rulemakings. In the absence of a clean 
energy standard, the federal government should articulate its intention 
that FERC-jurisdictional markets assist state efforts to reduce GHG 
emissions.
 spur transmission: get more from the existing system, smooth the way 
                                for more
    Transmission is the platform that allows our nation's electricity 
system to function. As renewables provide increasing amounts of the 
U.S. electricity supply, we need to move it from the places with the 
greatest solar and wind resources to the places where people and 
businesses need to use it. We can do that by getting more out of our 
existing system,\5\ and by adding new lines.
---------------------------------------------------------------------------
    \5\ Dynamic line rating gets more out of the system than existing 
practices in much of the country (for more, see https://
issues.nawindpower.com/article/using-grid-weve-got). Where needed, we 
can beef up transmission capacity on existing rights of way.
---------------------------------------------------------------------------
    The federal government could build on the National Interest 
Electric Transmission Corridors \6\ to overlay priorities for GHG 
reduction goals, aligning transmission incentives with GHG objectives, 
then partner with states to increase capacity on existing rights of way 
or build new lines. President Lyndon Johnson provided a model for this 
in the 1960s with the build-out of the Pacific Intertie.\7\ Texas also 
provides a model by pre-approving and building out transmission to 
``Competitive Renewable Energy Zones'' where clean energy resources are 
abundant. Market mechanisms can then select the lowest cost projects to 
build clean power in those zones.
---------------------------------------------------------------------------
    \6\ See this factsheet from the Department of Energy: https://
www.energy.gov/sites/prod/files/edg/media/NIETC_Fact_Sheet.pdf.
    \7\ See this article from the board chair of PJM, the nation's 
largest electricity market: http://www.orkas.com/the-future-of-
electric-transmission/.
---------------------------------------------------------------------------
    While transmission allows electricity to travel across space, 
energy storage can allow electricity to travel across time, alleviating 
congestion on transmission lines. The federal government could direct 
FERC to consider establishing structures to plan and pay for energy 
storage in a similar way to transmission.
               create a national demand response program
    ``Demand response'' is the term for when consumers and businesses 
shift when they use electricity to take advantage of low-cost or low-
emissions sources. This can reduce the need to build costly new power 
plants, and can help get the most from renewable energy. A national 
program focused on scaling demand response could kick start the 
market--perhaps via pay-for-performance matching funds for states or 
municipalities that establish programs. Loans may also be considered 
since well-designed demand response programs should pay for themselves 
in short order.

                            Super Pollutants

    Bolstering efforts to reduce carbon dioxide with programs to 
address methane and fluorinated gases (``F-gases'') is an efficient way 
to drive near-term reductions in U.S. contributions to climate change. 
Per molecule emitted, methane warms the climate at least 28 times more 
than CO<INF>2</INF>, and F-gases can be thousands of times stronger 
contributors to climate change.
 rapidly phase out f-gases by ratifying the kigali amendment and give 
                             epa authority
    Ratifying and implementing the Kigali Amendment to the Montreal 
Protocol would create a requirement to reduce F-gas consumption in 
America. The U.S. Environmental Protection Agency (EPA) has already 
attempted to regulate F-gases under the Significant New Alternatives 
Policy (SNAP), but the ruling was remanded. Expressly directing EPA to 
regulate these gases, with the flexibility to use other approaches 
beyond SNAP, would allow it to move forward with requiring the use of 
lower GHG-emitting substitutes. U.S. companies would be at a 
competitive advantage with a strong new F-gas phase-out policy, as they 
are the primary manufacturers of the chemicals that could substitute 
for climate-warming F-gases.\8\
---------------------------------------------------------------------------
    \8\ For example, the case brought against EPA resulting in remand 
of SNAP was brought by Mexichem Fluor, Inc., a Mexico-based chemicals 
manufacturer.
---------------------------------------------------------------------------
 set a steadily declining standard for methane emissions from oil and 
               gas, including extraction and distribution
    The federal government could strengthen Obama-era standards for 
methane leakage, methane leak detection, and mitigation systems to push 
methane leakage rates toward zero. A 2050 target of zero leakage 
throughout the system, along with strong interim targets, will 
encourage the natural gas industry to invest in the system upgrades and 
monitoring equipment necessary to significantly cut emissions. Canada's 
methane rules could serve as a template for early action--it aims to 
reduce methane emissions from the oil and gas sector 40-45 percent from 
2012 levels by 2025.
    The federal government could dedicate resources to measuring 
methane leakage, include leakage estimates into GHG inventories, and 
reward gas utilities for targeting leakiest equipment first.

                                Industry

    Federal options for reducing industry sector GHG emissions are less 
well-established than some of the other economic sectors. However, it 
is very important for any comprehensive climate plan to address 
emissions from the industry sector, as industry produces about as many 
GHGs as the whole U.S. transportation sector today, as well as a large 
share of the projected remaining GHG emissions in 2050. The U.S. needs 
a plan to address this sector and develop further options to drive down 
emissions. The following policy proposals are a good start.
establish carbon intensity standards for cement, steel, chemicals, and 
natural gas and petroleum systems; allow tax credits for some share of 
                             upgrade costs
    New emissions intensity standards could drive industry energy and 
emissions savings.\9\ A program that sets new output-based standards 
every few years based on the top industry performers could drive a race 
to the top and encourage continuous improvement in U.S. factories. 
Standards could be set based on emissions or energy per unit of output 
(e.g., CO<INF>2</INF> per ton of cement or BTU per ton of ethylene 
produced). Tax credits based on performance could be made available to 
businesses that invest to meet new standards. This policy could be 
coupled with a border adjustment to level the global playing field for 
U.S. industries.
---------------------------------------------------------------------------
    \9\ Note that this has not been done in the U.S. to date, but other 
countries have used this approach with some success. For example, see 
Ontario, Canada's proposed industry performance standards: https://
prod-environmental-registry.s3.amazonaws.com/2019-02/EPS%20Regulatory% 
20Proposal%20%28EN%29_0.pdf.
---------------------------------------------------------------------------
                 create a federal ``buy clean'' program
    A federal ``Buy Clean'' program would set standards for cement, 
iron, steel, and other products used to build federally-funded 
infrastructure, based on the emissions intensity of those inputs. A 
model policy is in place in California (Assembly Bill 262), which 
includes suppliers' emission intensities in government procurement 
decisions.\10\ The federal government could ensure a national program 
considers material substitution opportunities (e.g., using timber 
instead of steel for buildings less than 20 stories).\11\
---------------------------------------------------------------------------
    \10\ See https://buyclean.org/2017/10/16/gov-jerry-brown-signs-buy-
clean-law/.
    \11\ See http://www.energy-transitions.org/sites/default/files/
ETC_MissionPossible_FullReport. pdf.
---------------------------------------------------------------------------
     incentives for industrial cogeneration and waste heat recovery
    New incentives for industry facilities to cogenerate electricity 
and heat, and to use waste heat, would improve the efficiency of U.S. 
factories. Incentives for cogeneration should not be offered for coal-
fired industrial equipment.
    increase incentives for carbon capture and storage and provide 
                   financing and technical assistance
    Carbon capture and storage (CCS) could be a critical part of 
decarbonizing the industry sector. Section 45Q tax credits were 
recently increased and expanded to cover smaller industries, but these 
tax credits could be increased to kick-start industrial sector CCS, 
which has fewer decarbonization options than the electricity sector. 
Complementing these tax credits with loan guarantees and technical 
assistance would help industries access the capital and expertise 
needed to install CCS, which is a relatively new technology with high 
upfront capital costs and little monetized payback.

                               Buildings

    Improving America's buildings can result in better comfort and 
energy service for citizens and business owners, while also reducing 
greenhouse gas emissions. Buildings can be a tough nut to crack since 
there are so many dispersed decision-makers, but that is precisely the 
reason this sector provides a way to reach voters with something 
tangible that can make their lives better.
incentives for building electrification and efficiency retrofits, with 
                       some important exclusions
    Buildings can decarbonize by using energy more efficiently, and 
then converting essential uses to clean energy. Because the majority of 
existing U.S. buildings will still be standing in 2050, the federal 
government must find ways to incent retrofits combining appliance 
electrification, efficiency, and on-site clean power generation (e.g., 
rooftop solar) if practical. By and large, existing buildings could be 
much more efficient, but the upfront cost of upgrades dissuades 
building owners.
    A national program with financial incentives including low interest 
loans or on-bill financing for building retrofitting could 
significantly accelerate the pace of retrofitting; current programs 
vary in their effectiveness but generally reach only a fraction of one 
percent of eligible customers each year.\12\ A national program to 
target a package of decarbonization retrofits in one percent of U.S. 
homes per year would be reasonable and in line with Germany's retrofit 
rate.
---------------------------------------------------------------------------
    \12\ See https://link.springer.com/article/10.1007/s12053-018-9661-
5.
---------------------------------------------------------------------------
    Such programs should encourage efficiency retrofits to include 
electrification and clean on-site generation, reducing the total cost 
of all decarbonization measures. Programs should also encourage pay-
for-performance, increasing the value of efficiency measures to the 
grid.\13\ On the flip side, gas appliance retrofits should not receive 
federal funding; while they reduce emissions in the short term only in 
coal-heavy states, they also lock in gas consumption for the 15-20 year 
appliance lifespan, and create upstream methane leakage.
---------------------------------------------------------------------------
    \13\ https://www.brookings.edu/research/advancing-inclusion-
through-clean-energy-jobs/.
---------------------------------------------------------------------------
    Like renewable energy 20 years ago, all-electric retrofits come at 
a premium today, but hold huge long-term potential for cost and carbon 
reductions. When contractors get in the door of a building for an 
efficiency retrofit, they should also seize the moment to drive 
electrification. Building electrification incentives could include tax 
credits for demand response-enabled heat pumps for space and water 
heating and cooling (which in addition to replacing natural gas, enable 
a huge efficiency improvement for space and water heating), heat pump 
clothes dryers, and electric induction stoves, at the point of 
sale.\14\ The federal government can also increase customer access to 
these technologies by encouraging utilities to finance them on 
customers' bills.\15\
---------------------------------------------------------------------------
    \14\ It would be important to only offer these incentives for heat 
pumps that use working fluids with very low global warming potential--
otherwise, some of the chemicals in heat pumps can be dangerous for 
climate change.
    \15\ https://aceee.org/sites/default/files/pdf/conferences/eeff/
2016/Weeks_Session4A_FF16_5.24. 16.pdf.
---------------------------------------------------------------------------
    Electrification-induced efficiency improvements of this kind have a 
knock-on benefit of lowering household energy costs while delivering 
the same comfort and service. In addition, as more of these products 
are deployed, costs are likely to decline. A higher incentive could be 
offered to electrify buildings with oil-fired space and water heating, 
which is more polluting and less efficient than natural gas. To measure 
progress, the federal government can set a target for the carbon 
footprint of the U.S. building stock (e.g. 50 percent below 2020 levels 
by 2035), and delegate authority for sizing the incentives to the U.S. 
Department of Energy (DOE) to achieve the target as cost-effectively as 
possible.
   direct doe to accelerate the standards process for appliances and 
                               equipment
    DOE has a strong appliance and equipment standards program, but it 
is underfunded and years behind schedule in keeping standards up-to-
date. This may sound like a small opportunity, but it can deliver 
energy savings, cost reductions for citizens, and pollution reduction. 
Additional funding for this critical program, along with a directive to 
accelerate this process would improve appliance and equipment 
efficiency.
            repair and accelerate the building code process
    The federal government could maintain and promote an advanced model 
code for states and regions to choose to adopt, and a federal code 
could even serve as a backstop for the remaining states with no 
code.\16\ A national model code could be based on California's model, 
where today's most efficient approaches become the standard every seven 
years and the building code is automatically reviewed and revised every 
three years. Advanced codes also offer alternative compliance pathways 
based on performance, rather than the usual list of prescriptions.
---------------------------------------------------------------------------
    \16\ Building codes are adopted and enforced at the state and city 
levels, but a federal code could act as a model for smaller 
jurisdictions to adopt.
---------------------------------------------------------------------------
    Finally, codes may need to be updated to include GHG considerations 
in addition to efficiency. Codes should support fuel switching in 
buildings from oil and gas to electricity, and restrict the build-out 
of new natural gas infrastructure and hook-ups. They should also 
require building electrical equipment to be sized to accommodate an 
appropriate level of on-site EV charging.
 make funds available for states and cities to adopt stretch building 
                codes and train builders and inspectors
    Federal matching funds could encourage states and cities to adopt 
stronger building codes to make buildings even more efficient. Funds 
could also be made available to train builders and inspectors, which 
would allow more regular building inspections and help drive best 
practices into building construction, increasing the share of buildings 
that actually adhere to code.

                             Transportation

    The U.S. transportation sector has eclipsed the power sector and is 
now the largest source of GHG emissions. The move to electric vehicles 
(EVs) is exciting and many policies can accelerate the shift, but 
millions more fuel-burning vehicles will still be sold, so we cannot 
take our foot off the pedal of efficiency improvements for those 
vehicles, even as we electrify. A complementary infrastructure program 
focused on transit can reduce emissions by supporting alternatives to 
personal cars and charging stations for electric vehicles of all kinds.
set an annual improvement rate for vehicle emission standards and move 
                            authority to epa
    Vehicle standards (i.e., fuel economy or GHG emission standards) 
are key to reducing transportation sector CO<INF>2</INF> emissions. 
Even with aggressive policies to promote EV sales, millions of internal 
combustion engine cars will still be sold between now and 2050, and 
efficiency standards can help drive down emissions from these vehicles. 
Rather than specify a mile-per-gallon target in the future, standards 
should specify an annual improvement rate, building on existing 
standards for light- and heavy-duty vehicles. An annual improvement 
rate of about seven percent per year from 2026-2040 for light-duty and 
1.7 percent per year from 2028-2040 for heavy-duty vehicles \17\ would 
enable U.S. vehicles to become super-efficient, while pushing 
manufacturers to ramp up sales of plug-in hybrid electric and full 
electric vehicles.
---------------------------------------------------------------------------
    \17\ Note these annual improvement rates assume compounding 
improvements, not a simple division of improvements through a final 
year.
---------------------------------------------------------------------------
    Moving authority over these standards from the National Highway 
Traffic Safety Administration to EPA would drastically decrease the 
administrative burden on the auto industry for following these 
standards.
 establish a transportation infrastructure program for public transit, 
        non-motorized transport, and ev charging infrastructure
    An infrastructure program could help reduce transportation 
emissions. U.S. cities need improved public transit options and support 
for a new wave of EVs. The federal government could provide matching 
funds (or even greater than 50 percent cost sharing) for states or 
cities that want to invest in EV chargers at public and multi-family 
buildings, electric buses, electric light rail, bike lanes, and efforts 
to make cities more walkable. On interstate highways, an exception 
could be made in the prohibition of commercial activities at rest stops 
for fast-charging EV infrastructure, and federal funds could support 
highway fast-charging infrastructure to help make it easier for drivers 
to go electric.
           repair ev tax credits by eliminating 200k sale cap
    EV incentives have been a major contributor to growth in recent 
years. Incentives should continue to be offered at existing levels by 
eliminating the current cap of 200,000 credits per manufacturer, at 
least for the next five years. To increase accessibility for low- and 
middle-income Americans, the tax credit system should be amended to 
allow for cash grants at the point of sale.

                              Agriculture

    The U.S. agricultural sector produces about the same amount of 
emissions as our nation's buildings sector, but the path to zero 
emissions in agriculture is much less clear. The following policies can 
help.
  increase incentives for agricultural practices to reduce greenhouse 
                                 gases
    Increased incentives can expand low-GHG agricultural practices, 
such as low-till methods, cover crops, and water conservation. 
Conversion to these practices may have high upfront or ongoing costs as 
well as some loss of revenue, so government incentives can encourage 
farmers to adopt these practices. The federal government could fund a 
national experiment to explore whether farmers could be paid directly 
for increasing the carbon content of their soil.
   increase technical assistance for precision agriculture deployment
    The federal government could increase technical assistance for 
deployment (e.g., farmer-to-farmer workshops) of precision fertilizer, 
soil supplements, and other practices aimed at reducing costs, chemical 
input, fertilizer, and soil erosion. Government assistance in the form 
of incentives and cooperative formation can also help increase 
precision agriculture deployment.
    fund r&d and implementation of cow methane emissions reductions
    Cows are a major source of agriculture sector GHG emissions, but 
the best management practices typically suggested are rotational 
grazing--which creates struggles with accurate deployment and 
scalability--and expensive feed change. New R&D is needed for improved 
options.

                             Carbon Pricing

         consider a hybrid cap-and-trade/carbon pricing system
    Carbon pricing would create an additional incentive to decarbonize 
the economy, particularly the electricity and industry sectors. The 
federal government could consider establishing a hybrid cap-and-trade 
system with cap levels reflecting scientifically based targets, a price 
floor and ceiling to manage price variability, and a significant 
investment of revenue in reductions from sectors that respond less to 
price changes (such as transportation, buildings, and agriculture). 
Another option is a hybrid carbon tax, whereby the tax level varies 
based on progress reducing emissions.
    An important caveat: Existing sector-specific policies should be 
not discarded in favor of carbon pricing. Rather, carbon pricing should 
be used as a complementary policy to help achieve additional emissions 
reductions. It is not a substitute for performance standards.

                Rural America and the Energy Transition

    Federal support for rural Americans can be very powerful. These 
supports include taking care of frontline communities where polluting 
energy infrastructure has made an impact over the years, as well as 
sharing the new energy economy's benefits with those who host its 
infrastructure.
 matching funds for rural communities hosting energy and transmission 
                             infrastructure
    To the extent that new energy and transmission projects include a 
payment to local communities for hosting infrastructure, a federal 
matching fund could be created to help support these communities. This 
can compensate communities and increase public support for these 
projects.
 federal funds for transition support for coal miners and power plant 
                                workers
    The clean energy transition will result in fewer Americans working 
in coal mines and coal power plants. The total number of Americans 
working in these industries is already relatively small roughly 50,000 
Americans are employed in the coal mining industry \18\--so a federal 
fund would not need to be large to assist communities and individuals 
through this transition.
---------------------------------------------------------------------------
    \18\ See https://data.bls.gov/timeseries/CES1021210001.
---------------------------------------------------------------------------
  create investment incentives for clean energy in coal and fracking 
                              communities
    Local clean energy resources are cheaper than keeping two-thirds of 
U.S. coal plants running,\19\ and can sustain economic development 
through the clean energy transition. Incentives for clean energy 
manufacturers and developers to invest in communities that have 
historically hosted fossil fuel infrastructure can help those frontline 
communities during this transition. New investment can help create jobs 
and reinvigorate local economies affected by the transition.
---------------------------------------------------------------------------
    \19\ https://energyinnovation.org/publication/the-coal-cost-
crossover/.
---------------------------------------------------------------------------
                      health care for coal miners
    Federal support for health care for coal miners can help those most 
harmed by helping America achieve the economic prosperity we enjoy 
today.

                        Research and Development

triple clean energy and carbon reduction r&d from $2.5 billion to $7.5 
                            billion per year
    The U.S. lags far behind on spending on clean energy and carbon 
reduction R&D. The budget for clean energy and carbon reduction R&D--
note this is not the total energy research budget, but just the share 
going to clean energy and carbon reduction--should be tripled to at 
least $7.5 billion per year. Research areas that need more attention 
include: software advancements to plan and run a zero-carbon grid; 
opportunities to decarbonize heavy industry; hydrogen generated from 
clean electricity and used to meet both stationary and mobile energy 
needs; biochemistry and synthetic chemistry; materials efficiency and 
advanced recycling; new materials like low-carbon cement, steel, and 
plastic substitutes; as well as carbon capture and 
removal.<SUP>20}21</SUP>
---------------------------------------------------------------------------
    \20\ See: http://www.energy-transitions.org/sites/default/files/
ETC_MissionPossible_FullReport. pdf.
    \21\ On carbon removal programs, see also: https://www.wri.org/
blog/2018/12/wanted-325-million-federal-rd-jumpstart-carbon-removal.
---------------------------------------------------------------------------
                             expand cradas
    The federal government could support broader use of cooperative 
research and development agreements (CRADAs) between the private sector 
and national labs. CRADAs demand commitment from the public and the 
private sector, and are effective at stimulating private research, 
patents, and accelerating important technologies toward 
commercialization.

    Ms. Castor. Thank you very much. Thank you to all the 
witnesses for your outstanding testimony.
    At this time, I will recognize myself for 5 minutes for 
questions.
    Dr. Liverman, the Intergovernmental Panel on Climate Change 
said that the global community needs to achieve net zero 
emissions by 2050 to limit warming, but it doesn't specify the 
country-by-country reductions. You have heard some of the 
comments up here that gosh, the U.S. can't do it on its own. 
But what does the scientific literature say about what the U.S. 
needs to do in order to achieve that global goal? And what is 
your response to gosh, throw up our hands because other 
countries may not be moving fast enough either?
    Dr. Liverman. Well, the scientific literature is 
considerable, looking at different countries' responsibility 
for emissions, and what criteria one might use to decide what 
an equitable or a politically feasible response might be. So 
one of the issues is that carbon dioxide stays in the 
atmosphere for a number of years. So what we emitted 50 years 
ago, it is still around contributing to warming.
    So there are several alternatives, several choices that 
might distribute responsibility for emissions. If you use 
current emissions, then, certainly, China is now higher than 
the United States. But historically, in terms of accumulated 
emissions, the U.S. still is the highest. We have done more to 
contribute to warming than any other country. We also have 
higher per capita emissions, 20 tons compared to a world 
average of about 6. So depending on which of those allocation 
criteria we look at in our research, the U.S. could bear a 
larger responsibility for emissions than a 50 percent reduction 
by 2030. But that negotiation is something that is done in the 
political arena, scientists are just pointing out what the 
various choices would be and what the implications might be in 
terms of the fair responsibility of the United States.
    Ms. Castor. Well, clearly, we are behind the 8 ball, 
because the U.S. has put off climate action for so long that 
dramatic transition to the clean energy economy.
    Mr. Foster, you say this is an outstanding opportunity to 
create clean energy jobs and lower utility bills for consumers. 
Help us prioritize as we look to putting together a report for 
the United States, and for citizens in the Congress. Where do 
we start?
    Mr. Foster. Well, one of the projects that we started when 
I worked at the Department of Energy was the collection of jobs 
data on energy jobs and energy efficiency, an annual study that 
we have continued for the last 4 years. What I think it shows 
us is that the big bulk of an immediate economic impact on 
Americans is in the field of energy efficiency. We have an 
outstanding record, we have 2.35 Americans who work in that 
area, very heavily dominated by construction, but over 320,000 
manufacturing jobs. Many of those manufacturing jobs, making 
that energy efficient equipment, are located in coal States; 
six of the top 15 are among those. It is no accident that 
places where we once mined coal produce cheap energy and led to 
a manufacturing cluster in all those States, so to speak. So 
investments, picking up projects like the old 48(c), advanced 
energy manufacturing tax credit, to spark the growth of 
manufacturing and clean energy, energy efficiency technologies 
would be one of smartest things we could do to drive economic 
development in places that have been negatively impacted.
    Ms. Castor. And Mr. Harvey, you have laid out some 
significant recommendations for us. You also have authored a 
book ``Climate Solutions,'' that is a very good roadmap for 
policymakers. You highlight that we better get started in the 
energy sector. Could you elaborate please?
    Mr. Harvey. Certainly. There are four big sectors in 
American energy, or any country's energy, which is the electric 
grid, transportation, buildings, and industry. They have 
separate pathways, although obviously connected, and one needs 
to have policy for each one that understands the dynamics of 
that one.
    The technology advancement off of the electric grid has 
been dramatic, and it is now driven so that the lowest cost 
electricity on the planet is solar and wind. And we have many 
more options on the way. By the way, I am completely in favor 
of technology, the more advanced technologies. I want to use 
what have already right away, and keep developing the next 
generation.
    So the electric grid can be decarbonized at a savings to 
consumers, so long as the policy is proper designed. And what 
do I mean by that? This is very important. You need a long-term 
target that has high certainty. Companies need flexibility on 
how to get there. The target should be technology neutral and 
there should be price finding. It should not be driven by 
arbitrary dicta. If you do those things, you liberate the free 
market and all its innovation to find a solution. It doesn't 
mean you softened the goal at all. It means you create enough 
of a horizon and enough certainty and enough flexibility that 
you achieve it at the lowest possible cost.
    Ms. Castor. Thank you very much. Mr. Graves, you are going 
to yield to Mr. Carter.
    Mr. Carter, good morning.
    Mr. Carter. Good morning.
    Ms. Castor. You are recognized for 5 minutes.
    Mr. Carter. Thank you, Madam Chair. And thank each and 
every one of you for being here. We appreciate this. This is 
very, very helpful to us as a committee, and we all take that 
very seriously, climate change is real. The climate has been 
changing since day 1, and protecting our environment is real. 
We all understand that.
    Mr. Guith, I am going to start with you. As Ranking Member 
Graves mentioned, I read your report as well and found it to be 
very interesting and very balanced. And I appreciate that. I 
wanted to ask you specifically about something you mentioned. 
You mentioned a number of private sector businesses that are 
already making investments in their own right to fight climate 
change. Can you just talk a little bit about that and maybe 
just a few examples?
    Mr. Guith. Absolutely. Thank you for the opportunity. I 
didn't get a chance to go over it in the oral testimony. But in 
my written testimony, I highlighted a couple of specific 
projects that I think are emblematic of what U.S. business has 
been doing over the last decade. And we feature these in our 
energy debates program. The most recent one we just--module we 
just put on our website last week was San Diego Gas & Electric 
who constructed, what at the time was the world's largest 
stationary storage facility. It has now been surpassed by one 
in Australia, but I am sure there will be a race to the top to 
see who can make the most efficient and, frankly, largest 
dispatchable battery. Advanced reactor at new scale, it is a 
small module reactor. It is revolutionary design that can be 
used globally, and in places where you wouldn't necessarily put 
a large scale reactor like we use right now. And then, one that 
is incredibly important, just outside of Houston, Texas, a 
project being built by a consortium of companies that stands to 
be the first zero emissions natural gas plant, that would be 
competitive----
    Mr. Carter. I have actually seen that.
    Mr. Guith [continuing]. With off-the shelf natural gas. 
That power, yes. It is a great project.
    Mr. Carter. And you bring out some great examples. Let me 
ask you this: As is often the case in Congress, with the best 
of intentions, we put in government regulations to encourage 
these type of things. Do you think that it is possible that the 
government putting more requirements on these businesses to 
fight climate change in specific ways could do just the 
opposite, and that is, it could hinder their ability?
    Mr. Guith. Absolutely. I think, even with the best 
intentions, American history, and probably the history of 
democracy globally, is littered with unintended consequences. I 
mean, we see State by State, and sometimes even national 
policies are creating headwind for nuclear power right now. 
Nuclear power remains the backbone of our emissions-free 
generation. It is the leading source of round-the-clock 
baseload generation. I don't think those policies were intended 
to harm nuclear, but----
    Mr. Carter. Exactly.
    Mr. Guith [continuing]. That is what happened.
    Mr. Carter. And as you point out, quite often that does 
happen, with all the best of intentions.
    At the same time, if we put in policies that--if we allow 
policies that harm our economy, isn't that going to hurt 
business' ability to address and to make investments to fight 
climate change?
    Mr. Guith. Absolutely. I mean having private conversations 
with many of my members, especially in the generation sector, 
they have all made significant commitments to emissions 
reductions over the next 30, 40, 50 years. But they are 
concerned that specific policies might deny them the capital 
they need to invest in the technologies they would need to 
actually meet those commitments.
    Mr. Carter. Absolutely. And let me reach just a little 
further, we have established the fact that China is accounting 
for 30 percent of all the emissions in the world, the United 
States, only 15 percent. But even with China and their 
international emissions, and what they are putting into the 
environment, does the business community have a role in working 
with China, do you think, in trying to reduce emissions?
    Mr. Guith. Absolutely it is a great economic opportunity. 
The reality is, is that emissions from developing countries, 
and whether you consider China one or not, are going to 
continue to rise. And unless we or someone else bring the 
technologies to bear that are scalable to the extent that we 
are talking about globally--we are not talking about a single 
state or a single community in this country, where resources 
are relatively accessible, we are talking about scalable 
globally. They are going to keep burning coal. So unless we 
have a way to capture the emissions from that, we are going to 
continue to be at a net negative as far as reductions.
    Mr. Carter. Well, again, thank you all for being here. 
Thank you, Mr. Guith. And again, I can't stress, as I have in 
the past the opportunity that lies here. We have the brightest 
minds, the greatest innovators, right here in America. That is 
why I am so excited about this. I mean, people look at this, 
the sky is falling. Actually, this is one of the greatest 
opportunities I think we have had in this country in many, many 
years, and I look forward to seeing it what results from this.
    So thank you very much, and I yield back.
    Ms. Castor. Thank you, Mr. Carter.
    Ms. Bonamici, you are recognized for 5 minutes.
    Ms. Bonamici. Thank you, Chair Castor, Ranking Member 
Graves, and thank you to our witnesses. We know what we are 
facing. We have already seen heat waves, droughts, wildfires, 
surge in extreme weather events, more acidic oceans, rising sea 
levels, and certainly, the intergovernmental panel on climate 
change emphasizes that it is time, it is past time to take bold 
action. And we do, here in the United States, have the ability, 
and, I submit, the obligation as well, to be a leader in 
curbing greenhouse gas emissions. Certainly our commitments 
under the Paris Climate Agreement are an important first step, 
but there is so much more that we can do, and we must accept 
this challenge.
    We know it is going to require innovation, leadership and 
the responsible use of our vast resources. I just had the 
opportunity to tour the manufacturer of a wave buoy that is 
going to help tap the power of the ocean.
    So, Mr. Harvey, in your testimony you highlight examples of 
advances in clean energy technology, wind, solar, battery 
storage. Significant Federal investments in research and 
development have been critical in developing and deploying new 
and advanced clean energy technologies, programs like ARPA-E, 
supporting high risk, high reward energy research that is not 
being addressed by the private sector.
    So I am going to ask Mr. Harvey and Mr. Foster, what 
sectors would benefit from additional R&D resources and in what 
other areas would additional Federal funds be effective in 
spurring innovation and research?
    Mr. Harvey. So thank you for the question. I think it is a 
very important one. Everybody on this panel, I think everybody 
in this room agrees, technology is the key to success here. 
Right now, the United States of America spends less than 1 half 
of 1 percent of its energy budget on R&D. That is pitiful. That 
is the wrong number. For IT, it is 10 percent, for 
pharmaceuticals, it is 20 percent.
    More than 10 years ago I founded something called the 
American Energy Innovation Council, which was about 10 CEOs 
including Bill Gates, the CEOs of GE, McDonnell Douglas, and a 
number of other companies. We urge the trebling of Federal R&D. 
I think if you trebled clean energy R&D from roughly 2.5 
billion to 7.5 billion you would create an amazing downpayment 
on the future.
    With that said, there is development of new ideas and then 
there is deployment. Innovation happens all the way along that. 
You need a different policy for innovation in the deployment 
phase. You need large-scale purchase. And in the beginning you 
are going pay a little more, but over time, you drive the price 
down. So you are creating options for all of humanity. We have 
done that successfully with solar, with wind, with many aspects 
of geothermal, with fracking, with many other technologies. The 
learning curve, as it is called in scientific parlance, is our 
friend. But if you let technologies die on the vine before you 
get to those price reductions, then you fail to create those 
options for future generations.
    Ms. Bonamici. I appreciate that very much. I also serve on 
the Science, Space, and Technology Committee, so it is very 
helpful.
    Mr. Foster, climate change, as we know, is affecting our 
entire economy, and solution must include the creation of good-
paying jobs. My other committee is the Education and Labor 
Committee where we do work on a lot of workforce issues at 
advocated for on-the-job training programs.
    And I know, Mr. Harvey, you mentioned people who work in 
coal power plants. My grandfather was a coal miner in 
Pennsylvania. I am sure he worked very hard in that coal mine 
trying to support his family. He lost his leg and then he died 
of lung cancer, so he had severe health problems. So we want to 
have good, safe jobs for workers, and that needs to be central 
to a clean energy economy.
    So Mr. Foster, you talked about the workforce development 
crisis across all energy technologies, especially in energy 
efficiency. And you highlight energy efficiency jobs paying 
substantially more than equivalent occupations outside of the 
energy field. So how can Congress better support workforce 
development in the energy sector in our transition to a clean 
energy economy? Mr. Foster.
    Mr. Foster. Well, first, let me just add that in my 
opinion, there is no technology more important to invest in 
right now than carbon capture sequestration, simply because we 
have no other paths to decarbonization in the industrial sector 
and it is extremely important that we contribute to that. It 
also has other applications that from a political point of 
view, I think open up the subject of climate change to a much 
broader discussion in this country because it then talks about 
what is the future of coal, what are the future of fossil 
fuels. If we have that technology it becomes very, very 
important to otherwise abandoned communities.
    In terms of what can be done on the energy workforce 
crisis, I think a deep look at how our Federal agencies 
collaborate and coordinate on how they develop curriculum that 
supports energy efficiency technologies, how the National 
Science Foundation, how the Department of Education, how the 
Department of Defense, Department of Labor, and the Department 
of Energy, all work on how they create a uniform, standard-
driven energy efficiency technology that can be spread out 
around the country to our benefit. That was a project we worked 
on when I was at the Department of Energy. And I think it is 
something of extreme importance to solve this crisis.
    Ms. Bonamici. Thank you, very helpful. I yield back.
    Ms. Castor. Thank you very much.
    Mrs. Miller, you are recognized for 5 minutes.
    Mrs. Miller. Thank you, Madam Chair and thank all of you 
for being here today. We all care about taking care of and 
protecting Mother Earth.
    In the past century, we have seen unparalleled economic 
growth around the world. This boom is in part because people 
have access to energy, increased access to affordable 
electricity to power our homes, our schools, and our places of 
work correlates directly to the improved quality of life for 
people all around the world. Any recommendation this committee 
makes must ensure that we maintain access to affordable energy. 
Dismantling coal, oil, and natural gas will not only hurt our 
economy, but it will also make energy less affordable and set 
society back. I can personally attest to the effect of policy 
that can decimate an economy.
    One of the many aspects that makes our country great is our 
entrepreneurial spirit. So many of our Nation's small 
businesses and corporations have taken steps to be good 
stewards of the environment, and to give back to their 
communities, without the direction of the Federal Government 
because it is the right thing to do.
    It is a good reminder of what can be done when the 
government takes a backseat, and lets businesses run 
themselves.
    Mr. Guith, in your experience with the private sector, what 
is already being done to lower carbon emissions while 
preserving and promoting our Nation's diverse energy mix?
    Mr. Guith. Where do I begin? If you look across the many 
commitments that have been made, some of them have been within 
the companies themselves. There has been billions of dollars 
invested in greater efficiencies within the manufacturing 
sector.
    If you look at the advent of the shale revolution and what 
that has meant to fuel diversity, and efficiency, and frankly, 
emissions. But ultimately, as you pointed out, we have seen 
great economic growth over the last century. If you look over 
just the last 40 years, we have seen our own economy grow by 
170 percent, while simultaneously reducing the criteria air 
pollutants by 70 percent. That was driven by innovation, that 
was driven by science, and that was driven by the 
entrepreneurial and ingenuity of the business community.
    Mrs. Miller. What technologies can and should be deployed 
to mitigate carbon?
    Mr. Guith. I think there is a pretty wide consensus across 
every scientific body that has looked at this that the three 
core technologies that are essential from a scalability 
standpoint globally are carbon capture sequestration, whether 
it is utilization or otherwise, stationary storage. Renewables 
have made a huge dent in our emissions profile, but until we 
can bring them to a parity, as far as baseload replacement, 
they are going to have a glass ceiling.
    And then finally, advanced nuclear. I mean, everybody that 
I have looked at, that has looked at this, all say that those 
are the three. And, obviously, efficiency is going to continue 
to be integral to all of them.
    Mrs. Miller. In 2017, the United Sates led the world in the 
reduction of climate emissions. However, other countries, even 
those who are signatories to multilateral agreements, are 
canceling out our efforts. Can you speak to how we can, in 
America, do--help to counteract what these other countries are 
doing?
    Mr. Guith. As I mentioned in my testimony, the developing 
world is projected to continue to have emissions increases, 
while the developed world is projected to continue to decrease 
them. Unfortunately, they are not equal and we look--we expect 
emissions to continue to increase globally on the net.
    What can be done is what we are doing now, and that is, 
investing in the technology to a much greater scale. We have 
consistently been disappointed with OMB's budget when it comes 
to innovation and technology. We agree that there is lot more 
that needs to be done at the Federal level, both from an R&D 
standpoint, but also from a commercialization standpoint, as 
well as structurally within the Federal Government itself, to 
focus on these core technologies. But right now, U.S. business 
continues to lead the way.
    Mrs. Miller. Thank you.
    I yield back my time.
    Ms. Castor. Thank you very much.
    Mr. Huffman, you are recognized for 5 minutes.
    Mr. Huffman. Thank you, Madam Chair, and thanks to our 
witnesses.
    I am intrigued and a little bit skeptical about this notion 
of carbon capture and sequestration that we keep coming back 
to, and several of the witnesses have referenced. Mr. Foster, I 
can stipulate that if we have got a natural gas power plant 
that comes online and is truly zero emissions, because it has 
implemented cutting edge carbon capture sequestration, that 
will be a good thing. My understanding is that plan is not yet 
producing electricity. And my concern is that this notion of 
CCS has always been that thing just around the corner that we 
keep pointing to to avoid bolder action in support of clean 
renewables and efficiency and other things. But I want to, for 
a moment, imagine that this really is near and deployable at 
scale. And I guess my question for you is, I get that that is 
appealing to folks that want to minimize disruption to fossil 
fuel infrastructure and to fossil fuel interests. But why would 
anyone do it in the absence of regulations, in the absence of 
some cap on emissions, in the absence of some price on carbon. 
It is not going to happen out of the goodness of people's 
heart. Would you agree with me?
    Mr. Foster. I would agree with that. From the studies that 
we did when I was at DOE, it was a combination of baseline 
policy, combined with forward leaning tax credits. And those 
things have generally been the combination in driving claim 
policy forward that I have been the most struck by. So that, 
for instance, the Clean Power Plan, coupled with the ITC and 
PTC taxes for wind and solar, along with the new technologies 
of hydraulic fracking lowering the cost of natural gas, very 
quickly according to the National Renewable Energy Lab within 
less than 1 year after the adoption of the Clean Power Plan, 
market forces had taken over and were driving the reduction of 
the C0<INF>2</INF> emissions faster than policy alone. So I 
think that combination of things is really the magic spot.
    Mr. Huffman. All right.
    Mr. Harvey, I think I am hearing you say that if we take 
our thumb off the scale for fossil fuels, and put in place some 
of the incentives, like the one Mr. Foster and I were just 
talking about, either carbon pricing or some caps that begin to 
move the market towards low emission solutions, that clean 
energy competes just fine, and, in some cases, actually saves 
money. Would you elaborate on that, please?
    Mr. Harvey. Yes, absolutely. There is a problem with 
unintended consequences of regulation, and that's been raised 
already, and we need to pay attention to that. In my mind, the 
best way to achieve reductions is to think about public 
standards. We have public standards so that our meat isn't 
poisoned, so that our water is clean. You mentioned the Clean 
Air Act, fantastic unleashing of technology in business 
innovation, but it came about because of public standards, 
because we said we are going to emit fewer carcinogens and 
fewer lung-damaging particulates into the atmosphere. That is 
what we need in carbon dioxide as well; is set clear public 
standards, and let the market find the best way to achieve 
them. Don't choose technology, don't choose prices--that is a 
communist idea--choose what the public needs and let the market 
do its job.
    Mr. Huffman. Can you give us an example of the standards 
that might be set? For example, there is a lot of talk about 
net zero emissions by 2050. Is that the kind of standard that 
you could build incentives around?
    Mr. Harvey. It is. Although, I wouldn't argue for that one 
precisely. There are 30 states now with renewable portfolio 
standards. The best of them say, ``Hit the target, go.'' I 
don't care--by the way----
    Mr. Huffman. Technology neutral.
    Mr. Harvey. Technology neutral absolutely. I would make it 
clean energy. I wouldn't make it renewable per se. Every one of 
those, every single one of those has been hit at a lower cost 
than projected, and some of them at dramatically lower costs. 
And by the way, they are not R things or D things, they are 
both sides of the aisle, these renewable portfolio standards.
    So for the country, I mentioned 80 percent by 2035, it is 
feasible. It would set a clear signal. It creates enough of a 
time horizon that business can get to it. It would be very 
powerful.
    Mr. Huffman. All right. Thanks.
    I don't have a lot of time, but Mr. Guith, I am drawn to 
the fact that you are saying inaction is not an option. And 
believe me, I am encouraged by that statement as far as it 
goes, but my challenge is, I am looking at a couple of decades 
of action by the Chamber here in Congress and elsewhere that is 
all about preventing action on addressing climate change.
    In 2007, you spearheaded the defeat of a very modest 
climate bill, Lieberman-Warner; you spearheaded the opposition 
to Waxman-Markey. You turned around, you targeted Members of 
Congress that voted for that climate solution. In the next 
election, you defeated them. And when your allies came into 
power, they have done nothing for a decade on this issue, and 
you were just fine with that. I guess what I am trying to 
understand--oh, and you also funded studies that attacked the 
Paris Climate Agreement and Donald Trump cited those studies, 
even though they have been debunked by independent scientists. 
So after all of this effort, you have put in defending the 
status quo and preventing climate action, as you testify today 
telling us that inaction is not an option, has there been a 
change in the Chamber's position?
    Mr. Guith. No. I mean----
    Mr. Huffman. Well, that is really what I was asking. And so 
reserving my time--reclaiming my time, I want to urge you----
    Ms. Castor. The gentleman's time has expired, and I think 
we will be able to get back to that issue. So at this point, we 
will recognize Mr. Griffith for 5 minutes.
    Mr. Armstrong will be recognized for 5 minutes.
    Mr. Armstrong. Thank you. I take a little exception with 
the talk that carbon capture isn't feasible. We are dealing 
with whether it is ELM cycle research, we have a thing called 
Project Tundra in North Dakota. We have great partnership 
between the coal industry, the wind industry, the oil and gas 
industry, and utilizing it because we have--it is North Dakota, 
but we have some advantages of geography in that they are both 
there, and not to mention up in the Weyburn Field in Canada has 
been doing this now for over a decade. So as we continue to 
work forward with that, I--Americans want clean air, they want 
clean water. And sometimes, I think we get into a situation 
where our policies get counterintuitive based on politics. And 
I don't think there is a better answer than that than 
pipelines. Transportation is obviously one of the lead drivers 
in carbon emissions, whether it is trains, whether it is cars, 
whether it is anything, it is not as safe to move product on 
rail or on the roads as it is in pipelines. But more 
importantly, we are trying to move natural gas through--it 
would be nice to get a quorum on FERC, that would be pretty 
good moving forward. But we try, moving our gas to the east 
coast, we end up having a really bad winter. Carbon emissions 
actually go up, because State water laws trumping FERC citing 
on a pipeline, and so we are using heating oil instead of 
natural gas to burn. And I think we do this a lot. Perfect is 
the enemy of good when we continue to have this conversation. 
So--and just with the Bakken shale revolution in North Dakota, 
we have invested $12 billion in gas infrastructure. We probably 
need another $5 or $6 billion more. So as we continue to 
capture carbon from North American Coal, or the Wolf Creek 
station, all that is going to do without the infrastructure 
is--I mean, it is still better. We are capturing the carbon, 
but we are producing more oil and gas, and we don't have the 
infrastructure in place to process the gas, and then we run 
into these kind of issues.
    So I guess my question for Mr. Foster, you were the one 
that talked about carbon capture, what incentives, what 
advantages can we do so--and I agree with you, it is clean 
energy, so we can do this in a realistic manner that is 
allowing industries to compete and also protect the reliability 
of the grid.
    I mean, that is a part of the conversation I don't think we 
have enough, is that given certain storage limitations and 
weather limitations, if you live in a State like mine where it 
is 35 below for 45 days in a row, and windmills don't turn if 
it is more than 20 below, we have to have reliable energy. And 
one thing you can't do with a coal plant is just turn it on and 
off very quickly.
    Now, there is some quick combustion engines with natural 
gas and we can do those things. So how do we really truly 
incentivize--I mean, we do some stuff with our research arm at 
the EERC and do a lot of projects, but from a Federal level, 
how do we not pick winners and losers, and just start talking 
about whether it is sequestration, enhanced oil recovery, and 
those types of things.
    Mr. Foster. I believe that a properly constructed Federal 
clean energy standard, coupled with improvements to the 45Q tax 
credit, would provide the kind of architecture to help make 
carbon capture sequestration more commercially viable in the 
electric sector. But beyond that, I think it is absolutely 
critical that we drive the cost of deployment of that 
technology down so it can be usable in industrial applications, 
because we have no other way to remove emissions from blast 
furnaces and steel mills, or from cement kilns, or a host of 
other industrial applications that are going to be needed the 
world over. So what better economic driver than to be the 
leaders in producing, applying, commercializing this technology 
across all its different uses.
    Mr. Armstrong. To understand how this works on the ground 
sometimes, I mean, innovation happens in really interesting 
places. So we have an ethanol plant that is immediately located 
next to a coal plant, and they use the coal plant to heat the 
ethanol plant. So they are capturing, they are increasing 
efficiencies, they are driving down the cost; instead of a 
waste product, now they are creating two different things.
    I will have a question for Mr. Guith. How do we do any of 
these things that doesn't just export our pollution? If we are 
going to go back and ban the export of oil, ban the export of 
LNG, ban the export of coal when we are dealing with developing 
countries and doing those things. I mean, if we are serious 
about this conversation, isn't the conversation also have to 
include that part of the conversation? Because the last thing 
we want to do is export our pollution to countries that don't 
have the regulations we have here.
    Mr. Guith. It is not just the production side, it is on the 
consumption side, too. I mean, we know full well that climate 
change is a global issue. And if it is not addressed globally, 
it is not going to be addressed. If we don't have technologies 
in place that the rest of the world can use, whether it be 
sequestration or otherwise, then we are going to continue to 
see emissions rise.
    And I would also point out, to follow up on Mr. Foster's 
answer, right now, the USE IT Act is an incredibly important 
regulatory change that has tremendous bipartisan support in the 
Senate, and hopefully, we will see it passed there and come 
over here to help facilitate greater use of sequestration.
    Ms. Castor. Thank you very much.
    Mr. Levin, you are recognized for 5 minutes.
    Mr. Levin. Thank you, Chair Castor, and thank you to our 
witness for providing such thorough testimony. Many of your 
statements make it clear that the planet is heading towards 
huge costs associated with climate change. However, it is 
heartening to see you have done a lot of work to chart the best 
path forward that can help the United States and the rest of 
the world to avoid those costs.
    Dr. Liverman, I would like to begin with you, and also 
begin by saying my wife is a proud University of Arizona 
graduate. She would be very mad if I didn't offer Bear Down. In 
this committee, we have discussed that there will be a 
significant financial cost if nations, including the United 
States, don't take action on climate change. So I would offer 
that any recommendations the committee makes must be compared 
to that baseline.
    In your testimony, I was struck when you said that limiting 
warming to 1.5 degrees Celsius rather than 2 degrees could 
avoid up to $38 trillion, that is with a T, $38 trillion 
worldwide in damages by the end of the century.
    On this figure can you estimate how many dollars of those 
damages might take place in the United States?
    Dr. Liverman. The IPCC didn't look at that, but the U.S. 
National Climate Assessment did provide some figures. They 
suggested that if warming continues, that damages could be up 
to .6 percent higher, if we go up 2 degrees in the U.S. And 
that would be 2.3 percent of GDP per degree of warming. So if 
we continue to warm, if we don't act, it will have a 
significant impact on our GDP.
    Mr. Levin. So it would be terrific if you could track down 
the number in trillions of dollars in direct economic impact, 
the cost of inaction of the United States and provide that to 
the committee.
    Dr. Liverman. I would be happy to do so.
    Mr. Levin. Thank you.
    Mr. Harvey, in fairness to my wife, I notice you went to my 
alma mater, Stanford University, so go Cardinal. I was 
interested to read your finding that multiple midwestern States 
that derive more than 25 percent of their generation from wind 
power have more reliable grids than their neighbors that don't.
    This week, you are probably aware the House is voting on a 
bill that would keep the U.S. in the Paris Agreement. And I 
have offered an amendment to that bill underscoring the fact 
that cleaner and more reliable forms of energy like wind don't 
necessarily mean less reliability or higher costs. In fact, 
often the opposite is true.
    Could you elaborate on how wind power and other renewables 
integrated into the grid of future, don't necessarily equate to 
higher costs or less reliability.
    Mr. Harvey. Certainly, Congressman Levin, and thanks for 
the opportunity.
    I studied power systems planning in my graduate program in 
engineering at Stanford. And we were taught to turn on power 
plants in ascending economic dispatch order to meet whatever 
the demand was, and that people still refer to baseload power, 
shouldering power and peaking power. That paradigm is giving 
way to a new management strategy, which is system optimization.
    So a grid operator should have a whole suite of resources 
at his or her fingertips, ranging from the conventional power 
plants to renewable energy, to demand side opportunities as 
well. And then wheeling power across large distances. The more 
options you have, the more robust your system is. If something 
goes down and you have a good transmission line, you can bring 
in electricity from another part of the country. When it is 
freezing cold in North Dakota, it is probably reasonably warm 
in Arizona. When San Diego has a peak demand, Seattle doesn't 
and vice versa. And so, by hooking together heterogenous 
systems and heterogenous power supply and optimizing across the 
suite, you create a much more robust system and a much more 
reliable system. It is what other industries are used to doing, 
the electric power industry is just learning to do that.
    I will just mention one last word, the head of the 
California Independent System Operators, Steven Berberich, is 
somebody you should consider as a witness, because he is 
running one of the largest grids in the fifth largest economy 
in the world, and he is pushing into these frontiers and he is 
not breaking a sweat.
    Mr. Levin. I think a field trip to Folsom would be great 
for the committee to see CAISO.
    Mr. Guith, I noted your mention of a San Diego Gas & 
Electric project. And I commend the work at SDG&E, that is in 
my neck of the woods. But I note that it didn't happen in a 
vacuum, it happened only after tough regulatory oversight by 
the California Public Utilities Commission. I wanted to turn to 
the Paris Accord and get your take on it for just a minute.
    I noticed the Chamber has a position saying, and I quote, 
``The Chamber believes in an effective climate policy should 
encourage international cooperation,'' end quote. And also, 
quote, ``The United Nations Framework Convention on Climate 
Changes Paris Agreement established a comprehensive framework 
for international action,'' end quote. Mr. Guith, do you 
believe the United States should stay in the Paris Climate 
Agreement?
    Mr. Guith. I think the business community has been pretty 
clear that United States needs to remain at the table 
internationally, and that includes the Paris Agreement itself.
    Mr. Levin. Great. I agree and every member will have the 
opportunity to vote this week to keep the United States in the 
Paris agreement when H.R. 9 comes to the floor.
    Thank you.
    Mr. Guith. But if I may, though, the legislation is not 
just about Paris. It is also about the commitment and how by we 
get there. That is a completely separate issue.
    Mr. Levin. Well, I find any discussion of H.R. 9, or 
questioning of H.R. 9, hard to reconcile with the Chamber's 
position. I actually think it is quite consistent, and I think 
my colleagues across the aisle will agree if they take the time 
to read the legislation. I thank you for your time.
    Ms. Castor. Thank you, Mr. Levin. Mr. Griffith, you are 
recognized for 5 minutes.
    Mr. Griffith. Thank you, Madam Chair. I have to respond. I 
read the legislation, and I am not voting for it. So there.
    All right. Mr. Foster, thank you so much for being here 
today and thank you--you are probably the only person on the 
panel today who has actually been to my district. And it was 
one of those rare moments when while we didn't agree on 
everything, Secretary Moniz sent you and a team down to see 
what was going on in coal fields. I greatly appreciated that. 
We had a seminar as you recall at the University of Wise, 
University of Virginia at Wise. And then you all went over to a 
high school in one of my poorest counties, Dickenson County. My 
district, for those of you who don't know, abuts to West 
Virginia, Kentucky, North Carolina, and Tennessee. And we have 
a significant coal mining investment in part of the district, 
it is a very large district. And so I was very appreciative of 
your comments on page four of your written testimony that says 
we need--first we need to embrace in all-of-the-above flexible 
strategy toward climate solutions. There is no silver bullet. 
You said this in your oral testimony, too. No single 
technology, no one perfect policy, which is why I believe we 
have to continue to invest in research. I would suggest when--I 
appreciated you both pronouncing Appalachia, for those of us 
from central Appalachia, correctly. And for recognizing there 
are some things we can do in Appalachia, one that was not on 
your list because we hadn't really thought about when you all 
were down to visit, is close loop storage inside of a coal mine 
using the water. Obviously there is nothing living down there. 
We bring the water in from outside, there is not an 
environmental consequence, and we can use that as a giant 
battery sitting in the same areas. Mr. Harvey said we want to 
put some of the jobs in the area where the jobs are going to be 
lost, and my district has suffered heavily.
    Further, I would also have to say that one of the things we 
talked about at that seminar was the fact that we are going to 
continue to use coal. Everybody today has been talking about 
the grid and electricity. A large amount of the coal out of my 
district makes steel, and I know you have a lot of interest in 
steel as well having worked with the unions in that industry. 
And so, we are going to continue to mine that high quality 
coal, and we have to find ways to make sure that the American 
public understands that not every coal is equal to other coal, 
but a lot of the coal around the world is dirtier than our 
coal. And we have to come up with new research and ways to do 
that.
    Now, I am excited and will tell you that one of the 
participants there--and you heard the testimony from Dr. Yoon 
at Virginia Tech--they just have taken some of their technology 
and they were looking at rare Earth minerals, and separating 
that from the carbon in central Appalachia. But they also can 
make poor coal better. And so they have licensed that 
technology to steel plants in India, and I think this is how we 
solve some of these problems, so that they can take that poorer 
coal that they are mining in India, and upgrade what they are 
doing because they are going to make steel.
    Other nations, particularly in the developing world, they 
are not going to impoverish their people because we have 
decided we don't want it to be warmer. No matter what the 
consequences may be, they are not going to have their people 
living in the dark or living in poverty. But if we can get 
technologies that we can then license with these two steel 
mills that they have licensed their technology are going to do 
is lower the carbon footprint, because even in the developing 
world they want to have jobs, they don't want to be 
impoverished, but they also want clean water and clean air. So 
this is where I think we can find the win and I appreciate you 
saying that.
    And I am concerned, and I will give you an opportunity to 
give me some help, that the DOE's loan program that you worked 
with, and you said in your testimony, there were 39 billion of 
unused low interest and loan guarantees authority that could 
move rapidly to help finance some of this research that I am 
very positive about. Tell me why aren't we using that? What can 
we do to speed that up?
    Mr. Foster. Well, I submitted, along with my testimony, a 
research paper that had been done by the Energy Futures 
Initiative about a year ago, and a whole range of suggestions 
on how the loan program office could be applied, particularly 
to energy infrastructure investments, and a variety of other 
issues like that. I do think with the budget constraints that 
Congress may have on it, this is authorized $39 billion worth 
of loan guarantees, and low interest loans that could be 
applied without further authorizations.
    So, I think looking deeply at ways in which the loan 
program office could be used to accelerate additional 
technologies, particularly energy infrastructure, look at the 
research paper we did, and we strongly encourage the committee 
to investigate that.
    Mr. Griffith. I appreciate that.
    Mr. Guith, you heard my spiel on developing countries. What 
can we do to increase their use of technologies? Because they 
are going to continue to use fossil fuels, we know that. In 
fact, the World Bank said we are not going to lend any more 
money for building coal-fired power plants, so China is 
investing all over the world, particularly in Sub-Saharan 
Africa, in building new coal-fired power plants. What can we do 
to encourage these countries to use the new technologies and to 
make it cleaner?
    Mr. Guith. That is a great example right there. I mean, the 
technology that the Chinese are financing is subcritical, and 
so you have more emissions.
    Mr. Griffith. Subcritical means poor?
    Mr. Guith. Yes. If the United States would have remained as 
part of that financing mechanism, we would have been using 
ultra critical technology, and, therefore, lower emissions. But 
ultimately, we need to develop and commercialize the 
technology. If we make it available as we have so many 
technologies that we are using right now, the rest of the world 
will use it. But the rest of the world generally, especially 
developing world, does not have the resources that we have.
    Mr. Griffith. Thank you.
    Ms. Castor. Thank you very much. Mr. Casten, you are 
recognized for 5 minutes.
    Mr. Casten. Thank you, Chair Castor. Thank you so much to 
the panel.
    I want to focus my comments on--the question is on 
economics, and I just want to start with something that is, I 
think, non controversial, but too rarely said, and that is that 
fossil fuel is an inherently high marginal cost source of 
energy relative to every other option. And when you use less 
fossil, you reduce less CO<INF>2</INF> and you save money. It 
is not complicated, but we don't mention it often enough.
    The one exception, of course, is in the extractive 
industries, and the jobs in the extractive industries have a 
rooting interest in higher cost energy. The entire rest of the 
economy from steel production to bitcoin mining to airline 
flight attendants has a vested interest in lower cost energy.
    Mr. Foster, can you give me a rough estimate of how many 
jobs have a rooting interest in higher cost energy in the 
country relative to the numbers that have a rooting interest in 
lower cost energy?
    Mr. Foster. Well, I can give you rough numbers of a number 
of them according to the U.S. energy and employment report. So 
for the coal industry, which includes their entire value chain 
it would be about 200,000 jobs; for the natural gas industry, 
it would be about 650,000; and for the petroleum industry, it 
would be about 900,000. So if you try to put that in 
comparison, I mentioned wind and solar, solar if you are 
looking at the majority time jobs, it is about 240,000 wind. It 
is about 107,000. You look at the other zero carbon energy, I 
think I mentioned nuclear is in the range of 63,000, hydro 
66,000.
    Mr. Casten. Is it safe to say that even those pale beside 
those industries like steel making, all the manufacturing 
sector, that actually employs the bulk of the economy and has a 
rooting interest in lower cost energy?
    Mr. Foster. Well, I think just about every sector of the 
economy has an interest in lower cost energy. And one of things 
I found interesting is following how in the era of really 
unparalleled growth in the United States, we have seen a 
constantly diminishing share of gross domestic product going to 
energy. So it is down to about 5.4 percent today of gross--
overall of gross domestic product.
    Mr. Casten. I am sorry to interrupt, but I know we are am 
tight on time. Is it safe to say that investing in lower 
marginal cost energy sources is a net job creator and is net 
stimulative to the economy?
    Mr. Foster. That is a very big generalization that I 
wouldn't necessarily jump to.
    Mr. Casten. I certainly would, but fair enough. Part of the 
reason I say this is because I spent 20 years in the energy 
industry before I got here. And I am of the opinion that the 
single biggest explanation for the falling CO<INF>2</INF> 
emissions in the electric sector was the 1992 Energy Policy 
Act, and FERC order 888, which, for the first time, encouraged 
us to preferentially deploy lower cost assets, which, oh, by 
the way, are the more efficient and less fossil fuel intensive 
assets.
    I was delighted to hear your comments on that, Mr. Harvey. 
And I wonder if you would chat a little bit about what more we 
might be thinking at, specifically at the FERC level, to better 
incentivize lower cost production, and to better value 
ancillary services like voltage stability and other mechanisms 
to accelerate this transition to cheaper and cleaner energy.
    Mr. Harvey. Representative Casten, you just proved yourself 
to be an energy nerd, sir. Congratulations.
    Mr. Casten. Not the first time.
    Mr. Harvey. So the FERC has a very important job to do now, 
wholesale markets in America are FERC-regulated, but they are 
not generally FERC-controlled, they are controlled by 
independent nonprofit associations that are answerable to no 
one, and that is a bit of a problem.
    What happens is, and you are absolutely correct with rule 
888, it opens the doors for lowest marginal cost energy 
dispatch. However, the FERC and other independent markets have 
the ability to set conditions for those sales, and the ability 
to reward other attributes, so spinning reserve, ancillary 
services, capacity factors, and so forth.
    Some of those things you need to reward, others of those 
are basically fake ways to give a lot of money to certain 
industries, and I am being blunt here, because one needs to be. 
That is exactly what is it going on right now.
    The proper answer is to define those characteristics based 
on physical and economic need, not based on arbitrary made up 
numbers. I think the FERC just needs a stronger instruction 
about what its role is in creating a truly fluid market, a 
truly liquid market.
    Mr. Casten. So with the little time I have left, and I 
really, really enjoyed your testimony, I want to introduce for 
the record with unanimous consent if I could, climate policy 
initiative report supporting renewables while saving taxpayer 
money.
    Madam Chair, I would like to ask unanimous consent to enter 
this into the record.
    [The information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Casten. There specifically is a rich discussion in here 
about the benefits of using cash incentives as opposed to tax 
credits, which you talked about. Can you give us a little bit 
of an education on the differential ways that cash incentives 
versus tax incentives drive investments in clean energy?
    Mr. Harvey. Certainly. So whenever you give somebody cash, 
they get a $1 worth of benefit for every $1 you give them. If 
you give them a tax credit, they have to find a way to use that 
tax credit. And most startups and most new technology companies 
don't have profits, or don't have excess profits, so they don't 
need the tax credit, so they sell it on a secondary market. The 
price of that tax credit is always going to be less than $1, 
because of transaction costs. In many cases, because of 
restrictions on the tax credit, it is as low the 50 cents, 
which means the Federal Government is getting 50 cents for 
every dollar it gives up. That is a terrible bargain.
    So the answer is either direct grants, or highly fungible, 
highly liquid tax credits.
    Mr. Casten. Thank you. I wish I had more time, but I think 
I am out.
    Ms. Castor. And we will ask Mr. Harvey to get back to the 
committee with greater detail on that point.
    At this time, I recognize the ranking member.
    Mr. Graves. Thank you, Madam Chair.
    Dr. Liverman, thanks again for being here. You made 
reference to IPCC and Paris Accord earlier. Do you believe that 
the metric measuring China and India's emissions is the 
appropriate one meaning including GDP or an economic unit as 
opposed to an absolute reduction?
    Dr. Liverman. I think we need to use all of the measures to 
assess what is happening in China, whether it be their absolute 
emissions, their historic emissions, their carbon intensity. 
Most scientists will look at all of those.
    Mr. Graves. So just doing economic is not an appropriate 
metric?
    Dr. Liverman. I think the research suggests that we should 
look at multiple metrics because each metric gives us a 
different insight into what China's doing and where it is 
going.
    Mr. Graves. Thank you. Number two, I want to make sure I 
understood what you said before, so please correct my statement 
if I get this wrong, but you made mention of the greenhouse gas 
concentrations in the environment and talked about how much of 
that is attributable to what we released over the last 50 
years. And so, I want to take it a step further and make sure I 
got this right. So there is sort of a momentum within the 
environment of these greenhouse gases. And so, effectively, if 
we could stop all emissions today in the United States, and 
those concentrations that are there are there. And so the 
corresponding temperature changes would result because of those 
greenhouse gas concentrations that are in the environment from 
previous emissions, is that accurate?
    Dr. Liverman. Yes, unless, of course, we look at what the 
IPCC calls the negative emissions. And the discussion that we 
had so far has focused very much on the technology of carbon 
capture and storage, this sort of new technology, but we have 
very long-standing technology of carbon capture and storage 
which is forestry and farming for carbon capture.
    Mr. Graves. Biogenics, yeah.
    Dr. Liverman. And so, that we could make a dent in the 
emissions that are already there, and the U.S. can play a major 
role if we manage our forests and manage our farmland in order 
to capture carbon.
    Mr. Graves. I read an interesting article this week, I 
think it was the Salk Institute on how they are working on 
plant technology in order to increase the sink that results. In 
fact, I used to work on coastal resiliency issues. We were 
looking at how to change the vegetation in some of our 
diversion, water diversion receiving areas, to increase the 
uptake of phosphates and nitrates to help reduce the dead zone 
that was occurring, the hypoxic conditions in the Gulf of 
Mexico. So I agree there are other technologies and I think 
some of the extraction of carbon capture utilization are 
important ones.
    Do you believe that we should be using a metric of looking 
at sort of best return on investment whenever we make 
recommendations ultimately out of this committee, looking at 
which recommendations are going to get best return on 
investment in terms of preventing temperature increases and 
preventing sea rise and things along those lines?
    Dr. Liverman. Yes, we need a metric of return on 
investment, but I would say that IPCC and many other scientific 
assessments do identify the challenge of putting a financial 
cost on some losses, loss of life, loss of farms.
    Mr. Graves. Sure.
    Dr. Liverman. Loss of infrastructure. It can be quite hard 
to put a dollar value on that. And also, the uncertainty about 
discounting the future.
    Mr. Graves. But it is important for us to use some type of 
metric in looking at jobs, at economic and return on investment 
and others.
    Dr. Liverman. Yes, yes.
    Mr. Graves. Thank you. Moving on. Mr. Harvey, I want to--
you talked a lot about renewables. You talked about wind and 
solar and others, and certainly those are important all-of-the-
above strategies or components of a comprehensive strategy. But 
you didn't talk about storage, and obviously, that is an 
important part, the sun doesn't shine at night, right? And so I 
was looking at some statistics the Manhattan Institute put 
together, they determined that the gigafactory, Tesla's 
gigafactory, the largest battery manufacturing facility in the 
world. That its annual production is capable of storing 3 
minutes of U.S. energy. If they produced batteries for a 1,000 
years we would be able to store enough energy for 2 days in the 
United States. Fifty to 100 pounds of rare Earth materials are 
mined for every 1 pound of battery. How do you reconcile that 
and the environmental impacts? And let's keep in mind 15 of the 
top 23 commodities we are importing, minerals we are importing, 
including rare Earth, are actually from China, Russia and other 
countries like that, or China and Russia alone are involved in 
providing those materials to the United States.
    Mr. Harvey. So electricity storage and batteries is really 
expensive, and it is true we are not going to get to long-term 
grid scale battery storage at a cost-effective number any time 
soon. Fortunately, we don't need to, there are half a dozen 
strategies to balance the grid given variable renewables. I 
mentioned wheeling power. The grid is a kind of battery because 
we never have the same demands across the United States or the 
same supplies. We need to use some of our other resources 
better. The Bonneville Power administration uses its 
hydroelectricity for bulk power instead of peaking power. That 
is economically insane, right? We should use it at its highest 
value use.
    Onshore wind has a different operating regime than offshore 
wind. Offshore wind operates much longer and for different 
times. So the more varieties you have, and the more they are 
hooked together, the less you need battery storage. All that 
said, I think storage is one realm where we need to do a lot of 
R&D, and we can use spot storage to alleviate tensions and 
problems on the grid. But your main point about bulk storage is 
correct.
    Mr. Graves. Madam Chair, I want to ask unanimous consent to 
include in the record a graphic from the Manhattan Institute 
that indicates that $1 million invested in shale and $1 million 
invested in solar and wind would actually produce at least six 
times as much energy over a 30-year period as compared to just 
wind or solar.
    I yield back.
    Ms. Castor. Any objection? And I failed to rule on Mr. 
Casten's unanimous consent request. So without objection, we 
will admit into the record Mr. Casten's material and the 
ranking member's material.
    [The information follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Ms. Castor. At this time, Mr. Neguse, you are recognized 
for 5 minutes.
    Mr. Neguse. Thank you, Chairwoman Castor, thank you for 
holding this important hearing. Thank you to the witnesses. I 
reviewed your testimony, your written testimony as well as I 
know my colleagues have, and found each of you, in your 
respective testimonies, to be incredibly helpful and 
thoughtful, and certainly educational for us and our work, so I 
appreciate the work that you have done.
    I would say with respect to the ranking member's comments, 
and I certainly appreciate them regarding energy storage, begs 
perhaps the larger question, for this committee and for this 
Congress to debate, which is to say, why not invest more 
resources in research on energy storage, and that seems to be 
an area where there is some bipartisan support. And I 
appreciate the Chamber of Commerce's written testimony in terms 
of recommending increased investments in ARPA-E and so forth, 
which I imagine can be incredibly productive from an energy 
storage standpoint. So I hope that my colleagues would join us 
in that effort.
    I am a FERC nerd as well, and so, like Mr. Armstrong and 
Mr. Casten, I wanted to talk to you, Mr. Harvey, a little bit 
about your recommendations. Before I do so, I do just want to 
touch on a comment made by Mr. Carter at the beginning of 
hearing, with you, Mr. Guith--I hope I am pronouncing that 
right, my name is a tough one, so--my understanding of Mr. 
Armstrong's comment was essentially that Federal standards, or 
international standards, for that matter, from a renewable 
energy standpoint, that those could have unintended 
consequences and they could impede economic growth and so that 
is why, perhaps, some folks on the other side of the aisle 
oppose them and perhaps your organization as well. Am I 
understanding that right, that exchange?
    Mr. Guith. No. I made the point that policymakers have to 
be careful in how they develop policy, because there could be 
especially as relates to climate far-reaching impacts. I mean, 
the example that we were discussing is focusing on one specific 
type of non-emitting energy that might therefore have a 
negative impact on another non-emitting energy. In that case it 
was nuclear.
    Mr. Neguse. I appreciate your response. What I would was 
say is part of why I am struggling, and I suspect my colleague, 
maybe my colleague, Representative Huffman, feels the same way, 
is some your written testimony seems to indicate, in fact, a 
preference for some of these standards. A good example of this 
is the Kigali Amendment, right? An amendment that has been 
ratified by 66 countries, that a variety of business entities 
in our country are advocating for passage of here, right, 
because we know there would be a substantial economic impact in 
terms of the tens of thousands of jobs that would be created by 
virtue of committing to the reduction 80 percent over the next 
30 years of HFCs, right? Billions of dollars of economic impact 
here in the United States. And so, I guess the point I am 
making is that standards imposed at the Federal level or by 
international agreement can be quite a boon to our economic 
growth. And I would hope the Chamber would appreciate that 
given that you all have been very supportive of the Kigali 
Amendment.
    Mr. Guith. I think it is a great example where the business 
community was involved, so that policymakers understood what 
was achievable, versus what was hypothetical. And that is why I 
think you got to a point with Kigali, where it was a win-win 
across the board. And that is why, I mean, to go back to Mr. 
Huffman's original question, I mean the Chamber hasn't changed. 
Certainly, the business community has evolved, but we have been 
pushing for these types of advanced technology investments 
certainly since I have been involved with the Chamber a decade 
ago. I mean, without developing these technologies, if you go 
back 50 years----
    Mr. Neguse. I appreciate your comments. I don't want to 
interrupt. I would say in Representative Huffman's defense, 
while I certainly can't speak to the Chamber's activities in 
the last 10 years, and I am new to Congress here for all told 
of 112 days, I suppose, I think that the Chamber has had a long 
history that has been well documented in terms of opposing a 
variety of different important legislative efforts at the 
congressional level to try and move the needle in the fight 
against climate change. But as I said, I appreciate your 
support to the Kigali Amendment and hope you can join many of 
my colleagues here in the Congress that are urging the Trump 
administration to agree with the vast majority of the 
international community that are pushing on that front.
    Mr. Guith. We have, voicefully.
    Mr. Neguse. Thank you. Mr. Harvey, with respect to FERC, 
just following up on the point that Mr. Casten made, your 
written testimony articulates, I think, in an effective way, 
the realities of the ways in which FERC has been far from 
technology neutral, and I guess I am curious, what 
recommendations you believe we should take in terms of trying 
to give FERC that better, quote, unquote ``instruction'' that 
you referred to in your answer to Mr. Casten.
    Mr. Harvey. I will first acknowledge it is difficult to 
specify a set of rules that are going to guide all future 
rulemaking. But I do think emphasizing again that it is the 
FERC's requirement to be technology neutral to set performance 
standards, that the performance standards should be based on an 
explicit physical or economic need. Not one that is made up. It 
might be worthwhile for the FERC to have a scientific or 
technical advisory board made up of utility engineers and 
national lab experts, something like that to ascertain whether 
the decisions they made are made for a thumb on the scale 
reason, or for system balancing and legitimate purpose. But you 
do not want the Federal Energy Regulatory Commission to be the 
handmaiden of a certain industry. It will wreck our electric 
system in the long run and it will impose unnecessary costs.
    Ms. Castor. Thank you.
    Mr. McEachin, you are recognized for 5 minutes.
    Mr. McEachin. Thank you, Madam Chair. Let me start by 
apologizing to you. We had a hearing on robocalls in Energy and 
Commerce. It was a bit repetitive, but there we were, so I 
apologize for my tardiness.
    Mr. Foster and Mr. Harvey, I am hopeful that the House of 
Representatives will consider infrastructure legislation in the 
next few months. To that end, Mr. Foster, your testimony has 
discussed the importance of investing in energy efficiency and 
infrastructure, both of which spur economic development. What 
would you prioritize for investments and why?
    Mr. Foster. Well, in terms of energy infrastructure, I 
think almost any investment that you make is going to create 
good, high-paying jobs in the energy sector, the transmission 
distribution and storage system has almost three times the 
unionization rate of any other part of the private sector. So 
you are dealing with highly skilled, highly trained 
construction workers, good-paying jobs. So rebuilding a 
transmission, expanding transmission to allow more renewables 
onto the grid, a whole range of those kinds of activities will 
be very good for the economy, lowering energy costs and very 
good for job creation.
    So, especially, if you were to prioritize areas that have 
been negatively impacted by some of the changes that we have 
experienced in our evolving energy technologies, that would be 
a great place to start.
    I will just repeat again that we have, in the loan program 
office, $39 billion worth of unused loan authority that with 
the proper supervision, could be used to jump-start a big 
energy infrastructure spending program in America.
    Mr. McEachin. Thank you for that. Mr. Harvey, what about 
you? What should the infrastructure bill include to make a dent 
in our greenhouse gas pollution?
    Mr. Harvey. One element I would propose is expanding 
transmission lines across the country to help balance 
renewables and balance the whole system. In fact, I think we 
should look at ways to streamline permitting. I advocate pre-
zoning into red, yellow and green zones, where red, you are 
just not going to build anything; green, you get a permit in 90 
days if you meet the proper specs; and yellow is like 
everything today, it is an all out war. So we just need to 
clean that up and save a lot of time and a lot of trouble.
    I would recommend extending tax credits for clean energy, a 
bunch of them are set to taper down, starting now. Right when 
we are building momentum, that is the wrong time to do that. So 
I would push those back another 5 years or something like that. 
I think also we need to look at transportation. One interesting 
opportunity would be to offer matching funds to utilities to 
build an electric vehicle charging infrastructure. And in 
general, transportation infrastructure, one of the iron laws of 
transportation is if you build it, they will come. If you add 
freeway lanes, you get more cars. If you add things like bike 
paths, you get more bikes. There is a revolution in 
transportation options which we should take advantage of what 
they call micromobility to bikeshare to autonomous vehicles, or 
electric vehicles. We neglected our transportation 
infrastructure for decades now, and it is starting to fail us. 
And that is going to be very costly to the American economy.
    Mr. McEachin. Let me ask you as quickly as I can about your 
red, green, and yellow pre-zoning, is that what you called it?
    Mr. Harvey. Yes.
    Mr. McEachin. I experienced that problem in Virginia with 
local governments, a particular area loses its coal industry, 
but when we try to put up a wind farm, they are concerned about 
their view shed. So I understand some of the problems, with 
zoning particularly in your red area--I mean, in your green 
area, are you saying to those areas no matter what their zoning 
laws are, we can come in? Explain to me how that would work in 
1 minute and 3 seconds?
    Mr. Harvey. The cognizant jurisdiction, be they local, 
State, or national, need to set whatever standards they want to 
set. But then, if in a green zone a project meets those 
standards and gets a permit in 90 days.
    Mr. McEachin. I see.
    Mr. Harvey. I saved you 48 seconds.
    Mr. McEachin. There you go.
    Madam Chairwoman, I give you 45 seconds back.
    Ms. Castor. Very good. Thank you, Mr. McEachin. Mr. Palmer, 
you are recognized for 5 minutes.
    Mr. Palmer. Thank you, Madam Chairwoman. My question is for 
the entire panel. If the United States completely eliminated 
its carbon emissions, would that stop global climate change?
    Mr. Foster. If the question is ``we,'' meaning the United 
States of America, if we did that, the answer is no, it clearly 
wouldn't.
    Mr. Palmer. If the entire world stopped its carbon 
emissions, would that stop global climate change?
    Dr. Liverman. No. We have some built-in warming, but if we 
focused also on taking carbon out of the atmosphere, it could 
do so.
    Mr. Palmer. Have we ever seen a case where sea levels rose 
more than are predicted, for instance, by the scientists now?
    Dr. Liverman. My understanding is that what we are 
observing is consistent with what the science had projected, 
but sea level rise does take a number of years. So much of that 
is still to come.
    Mr. Palmer. Well, the reason I ask that is apparently, some 
folks take as the gospel truth whatever these esteemed 
scientists project in, for instance, in his book, Farewell to 
Ice, Peter Wadhams, a professor of ocean physics at Cambridge 
University, predicted that polar ice and the Arctic would be 
gone by mid decade. Not only is the ice still there, but at 
points in 2012 and 2016, it actually increased by about 50 
percent. It went from 2.2 million square miles to 3.3 million 
square miles. So I guess my question is, do each of you believe 
that the science on climate is settled?
    Dr. Liverman. The science on climate has reached 
considerable consensus. There is still areas where we are not 
completely clear about what is going to happen, partly because 
we don't know what policies we are going to pursue. And with 
regard to using one paper, one of the things----
    Mr. Palmer. That is not one paper.
    Dr. Liverman [continuing]. That the IPCC tries to do is to 
look at a whole range of research papers and assess and judge 
what those say collectively, rather than looking at just one 
paper.
    Mr. Palmer. And it is not just one paper. There are a 
number of--there is a number of examples that indicate that the 
science is not completely settled. Although, I think the 
consensus is, is that the climate is changing. I am not sure 
that the consensus is that it is all anthropomorphic. I am 
certain it is not the consensus that it is all anthropomorphic, 
and when we talk about eliminating all carbon emissions from 
the United States in the next 10 years, even Senator--former 
Secretary of State John Kerry admits that that will not 
mitigate climate change, it will not mitigate warming, 
basically has us standing alone. And there are obviously 
consequences for the policies that we develop.
    In California right now, there is a lawsuit that has been 
filed by minority group against the California Air Resources 
Board, because of the harm that it is doing to low-income 
people. Since the effective date of California's greenhouse gas 
reduction law, the Global Warming Solutions Act, 41 States have 
reduced their per capita greenhouse gas emissions more than 
California, but it had enormous negative impact on people in 
California. So, I think, we have got to look at this in the 
broader spectrum of how this affects everybody, and the U.S. 
obviously I think we continue the best in the technologies to 
reduce our carbon emissions. I am all for that.
    I think we have to look at the whole picture of climate 
change, because I think that natural variation is going to be 
the bigger factor in this. And if we are not taking steps to 
engineer solutions, use our technology engineer expertise to 
adapt and mitigate, and we just focus on the carbon side of 
things, we are going to be in big trouble. We will not be 
prepared for the consequences of that inaction.
    Dr. Liverman. I would agree, and so would IPCC, and the 
National Climate Assessment that we need to do a lot to focus 
on how we cope with extreme climate and global warming, whilst 
at the same time, looking at reducing our carbon emissions. The 
importance of adaptation is very important, both for the 
disadvantaged and for businesses across the United States.
    Mr. Palmer. Well since I got an agreement, I will yield 
back.
    Ms. Castor. Well, I want to thank the witnesses here today 
I think you helped us set the table, Dr. Liverman, to review 
the--your work and the scientific consensus across the globe 
that we are not on track to reducing carbon emissions. Yes, we 
must and we will have hearings focused on solutions regarding 
adaptation and mitigation, but there is simply not a substitute 
for tackling the source of the problem, and that is the 
increase in greenhouse gases. So thank you to the witnesses for 
your testimony. And the committee is adjourned.
    [Whereupon, at 11:53 a.m., the committee was adjourned.]

United States House of Representatives Select Committee on the Climate 
                                 Crisis

 Hearing on April 30, 2019 ``Solving the Climate Crisis: Drawing Down 
             Carbon and Building Up the American Economy''

                        Questions for the Record

  Dr. Diana Liverman, Regents Professor of Geography and Development, 
                         University of Arizona

    Dear Congresswoman Castor: Thank you for your letter with follow up 
questions about my testimony before the Select Committee on the Climate 
Crisis on Tuesday, April 30, 2019. It was a privilege to meet you and 
the committee and receive such thoughtful and important questions. I 
provide answers to the questions below, including some research that 
has been published since the release of the IPCC 1.5+C report.
            Sincerely,
                                            Diana Liverman,
     Regents Professor of Geography and Development, University of 
                                                           Arizona.

                       The Honorable Kathy Castor

    1. Is the US emissions trajectory consistent with limiting warming 
to 1.5+C or even 2+C?
    The most recent research shows that the US emissions trajectory is 
not consistent with limiting warming to 1.5+C or 2+C.
    The IPCC Special Report on 1.5+C (August 2018) did not examine 
emissions by country. The report does assess the consistency between 
the current Paris commitments (NDCs or Nationally Determined 
Contributions) and scenarios that would limit warming to 1.5+C, and 
concludes that the full implementation of the current Paris commitments 
would produce a global average temperature increase by 2100 of 2.9-
3.4+C (5.2-6.1+F) above preindustrial levels at 66% probability.
    IPCC finds that there is high agreement that the current Paris 
commitments are not in line with pathways to achieve either a 1.5+ or 
2+C target.
    The UNEP Emissions Gap report (November 2018) supports the 2.9+C-
3.4+C of warming estimate by 2100 under a scenario where Paris 
commitments are fully implemented.
    UNEP reports that US emissions decreased from 2004 to 2017, and in 
2017 were 13.1% of total global greenhouse gas emissions. UNEP states 
that the United States Paris target was to reduce emissions 17% below 
2005 levels by 2020, and 26-28% by 2025, but noted that with the 
current intention to withdraw from the Paris agreement the US is 
unlikely to meet either target.
    The latest analysis of the Global Carbon Project (Dec 2018) 
estimates that global carbon dioxide emissions rose by 2.7% between 
2017 and 2018, projecting US emissions as 2.5% higher in 2018 than 2017 
after several years of decline as coal was displaced by gas, solar and 
wind.
    The US Energy Information Administration (USEIA) Monthly Energy 
Review for May 2019 reports that energy related carbon dioxide 
emissions, which were around 6 billion metric tons in 2005, had fallen 
to 5.17 billion metric tons in 2017, a reduction of 14.4% from 2005 and 
approaching emission levels for 1990 (5.04 billion metric tons). 
However, 2018 reversed this trend increasing by 2.7% over 2017 to 5.26 
billion metric tons.
    In March 2019 the USEIA Annual Energy Outlook projected that US 
energy consumption will remain near current levels of 5 billion metric 
tons through 2050 (see figure below) if there are no changes in laws 
and regulation and if current trends shifting from oil and coal to gas 
consumption continue.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Some recent studies (e.g. America's Pledge Initiative on Climate 
2018, Kuramuchi et al 2017) suggest that actions by non-Federal actions 
by states, cities and business could contribute to emission reductions 
of up to 21% below 2005 levels by 2025, approaching the Paris reduction 
commitment of 26-28% even without new Federal policies.
    The IPCC 1.5+C report concludes that for a chance of limiting 
warming to 1.5+C, global CO<INF>2</INF> emissions must decline by about 
45% from 2010 levels by 2030, and reach net zero emissions by 2050. For 
2+C emissions would need to decline by 20% between 2010 and 2030 and 
reach net zero around 2075.
    According to the Energy Information Administration, US 
CO<INF>2</INF> emissions from energy consumption were about 6 billion 
metric tons in 2010. To be consistent with the IPCC 1.5+C pathway, and 
if the US were to follow this global average pathway, emissions would 
need to decline to 3.2 billion metric tons by 2030. Given that we are 
now in 2019, and emissions are at 5.3 billion metric tons, energy 
related emissions would need to decline annually by at least 3-4%.
    Finally, the research literature on responsibility for emissions 
suggests that the U.S. should be making even steeper cuts than the 
global average because of our historical responsibility for emissions 
and high per capita current emissions (e.g. Holz et al, 2018; Van Den 
Berg, 2019). Carbon dioxide, once emitted, has a long residence time in 
the atmosphere (between 20 and 200 years according to IPCC) and thus 
some analysts believe that cumulative emissions should be the basis for 
emission reductions. This implies that those having greatest historical 
emissions making greater cuts. The US is the largest historical emitter 
with responsibility for around 25% of accumulated CO<INF>2</INF> 
emissions, compared to 12% for China (WRI 2019).
    2. Please provide more information on the economic damages 
associated with global warming of 1.5+C and 2+C and how many dollars of 
those damages might take place in the United States?
    Assessing the economic damages of global warming is extremely 
challenging. They depend on detailed and robust estimates of the 
impacts across regions and for key sectors such as agriculture, coastal 
infrastructure, and health, and assumptions about how to convert non-
market impacts, such as those on ecosystems and disease, into dollar 
values. Results also vary with assumptions about discount rates and 
future economic growth.
    The IPCC 1.5+C report discusses several major studies of economic 
damages. First, Warren et al (2018) estimate that by limiting warming 
to 1.5+C rather than 2+C damages are reduced by 22% (range 10-26%) and 
are reduced by 87% (range 74% to 91%) compared to the current 
trajectory that would take warming to 3.5+C. Damages included are costs 
associated with climate change-induced both market and non-market 
impacts, impacts due to sea level rise, and impacts associated with 
large scale discontinuities This the source of the $54 trillion at 
1.5+C and $69 trillion at 2+C estimates of the IPCC, and also estimates 
cumulative damages of $551 trillion if temperatures rise to 3.7C by 
2100. Global GDP in 2017 was about $80 trillion, of which the US was 
responsible for almost 25% ($20 trillion). If losses were equally 
distributed and proportional to GDP then the damages to the US, based 
on this paper, would be about $13 trillion at 1.5+C and $16.6 trillion 
at 2+C by 2100, compared to more than $130 trillion at 3.5+C.
    IPCC also discusses research by Burke et al (2018) that finds that 
``limiting warming to 1.5+C instead of 2+C would save 1.5-2.0% of Gross 
World Product (GWP) by mid-century and 3.5% of gross world product 
(GWP) by end-of-century''. Under a 3% discount rate this corresponds to 
avoided damages of $8.1 trillion--$1.6 trillion by 2050, and $38.5 
trillion by 2100 (this is the source of the number included in my 
original testimony).
    More recent research by Jevrejeva et al (2019) examines the global 
economic costs of coastal flooding and conclude that annual global 
flood costs will be $10.2 trillion a year (1.8% of GDP) in 2100 at 
1.5+C (projecting .52m of sea level rise) and 11.7 trillion (2% GDP) 
under a 2+C scenario (projecting .63m of sea level rise) if no further 
adaptation is undertaken. The US annual flood cost is reported as $394 
billion a year at 1.5C (0.9% of GDP) and 446 billion at 2C (1% of GDP)
    IPCC discusses two studies focusing only on the USA which find that 
economic damages are projected to be higher by 2100 if warming reaches 
2+C than if it is constrained to 1.5+C. The first study is that of 
Hsiang et al. (2017) concluded that the USA could lose 2.3% Gross 
Domestic Product (GDP) each year per degree of global warming. They 
find that the baseline if no further action is taken to reduce 
emissions results in economic damages reaching 4.5% (range 2.5% to 
8.5%) of GDP per year by 2100. Avoided damage from achieving a 1.5+C 
temperature limit is 4% of GDP (range 2.0%-7.0%) by 2100. Avoided 
damages in the US from achieving a 2+C temperature limit are 3.5% of 
GDP (range 1.8%-6.5%). The second study by Yohe (2017) finds an annual 
GDP loss in the US of 1.2% per degree of warming, or approximately 0.6% 
for a half a degree increase from the current 1+C warming to 1.5+C. 
    Economic damage estimates for the US are also provided in the 4th 
US National Climate Assessment (NCA4). The technical report for NCA4 
(EPA 2017) compares annual economic damages in 2090 for two IPCC 
scenarios, RCP8.5 which approximates to a no further action scenario 
(e.g. a 3.5+C (range 2.6-3.8) global warming by 2100) and RCP4.5 which 
approximates to a 2+C (1.1 to 2.6) scenario (by 2100). Damages are 
estimated for sectors that include air quality, extreme temperature 
mortality, loss of labor, health, agriculture, infrastructure, energy 
and fisheries. For example, annual damages in 2050 under the RCP4.5 
(2+C) scenario include $6.9 billion in air quality, $32 billion from 
extreme high temperature mortality, $35 billion in lost labor hours, 
$1.8 billion to fisheries, $9.5 billion to roads, bridges and rail, and 
$69 billion in damage to coastal property. This totals $154 billion and 
rises to $262 billion in annual damages by 2090. $56 billion (85%) of 
the coastal property losses estimated for 2050 under the 2+C scenario 
would occur in the Southeastern United States if no further adaptation 
occurs. 
    Since this question was asked Representative Levin from 
California's 49th congressional district, I include a regional example 
of damages to the US from the recent California Climate Assessment 
(August 2018, Appendix B). The estimates of economic damages to 
different sectors in California by the middle of this century (2050) 
due to climate change include those to health from high temperature 
mortality ($50 billion a year), transport ($1 billion from 2040-2070), 
inland flooding ($42 billion/yr), sea level rise ($18 billion/yr to 
replace flooded property), and water shortages (around $3 billion a 
year) (see Table 6 for California below from Bedsworth et al. 2018). 
The California assessment notes that ``many other important impacts 
have not been quantified, including public health and property damage 
from wildfires, impacts on human morbidity from high temperatures, 
impacts of drought on water quality, and impacts to habitat and other 
ecosystem services. All of these damages are likely to be costly''.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                            references cited
    Alcaraz, O., Buenestado, P., Escribano, B. et al. Distributing the 
Global Carbon Budget with climate justice criteria Climatic Change 
(2018) 149: 131. https://doi.org/10.1007/s10584-018-2224-0.
    Bedsworth, Louise, Dan Cayan, Guido Franco, Leah Fisher, Sonya 
Ziaja. (California Governor's Office of Planning and Research, Scripps 
Institution of Oceanography, California Energy Commission, California 
Public Utilities Commission). 2018. Statewide Summary Report. 
California's Fourth Climate Change Assessment. Publication number: 
SUMCCCA4-2018-013.
    EPA. 2017. Multi-Model Framework for Quantitative Sectoral Impacts 
Analysis: A Technical Report for the Fourth National Climate 
Assessment. U.S. Environmental Protection Agency, EPA 430-R-17-001.
    Global Carbon Project (2018) Carbon budget and trends 2018. 
[www.globalcarbonproject.org/carbonbudget]
    Holz, C., Kartha, S., & Athanasiou, T. (2018). Fairly sharing 1.5: 
national fair shares of a 1.5 C-compliant global mitigation effort. 
International Environmental Agreements: Politics, Law and Economics, 
18(1), 117-134.
    Kuramochi, T., Hohne, N., Sterl, S., et al. (2017) States, cities 
and businesses leading the way: a first look at decentralized climate 
commitments in the US. NewClimate Institute and The Climate Group. 
Available at: https://newclimate.org/wpcontent/uploads/2017/09/states-
cities-and-regions-leading-the-way.pdf.
    America's Pledge Initiative on Climate (2018) ``Fulfilling 
America's Pledge: How States, Cities, and Business Are Leading the 
United States to a Low-Carbon Future.''
    UNEP (2018). The Emissions Gap Report 2018. United Nations 
Environment Programme, Nairobi
    US Energy Information Administration (May 2019) Monthly Energy 
Review
    US Energy Information Administration (March 2019) Annual Energy 
Outlook
    Van den Berg, N.J., van Soest, H.L., Hof, A.F., den Elzen, M.G., 
van Vuuren, D.P., Chen, W., Drouet, L., Emmerling, J., Fujimori, S., 
Hohne, N. and Koberle, A.C., 2019. Implications of various effort-
sharing approaches for national carbon budgets and emission pathways. 
Climatic Change, pp. 1-18.

United States House of Representatives Select Committee on the Climate 
                                 Crisis

 Hearing on April 30, 2019, ``Solving the Climate Crisis: Drawing Down 
             Carbon and Building Up the American Economy''

                        Questions for the Record

  Christopher Guith, Acting President, Global Energy Institute, U.S. 
                          Chamber of Commerce

                      The Honorable Garret Graves

    1. Has the Chamber's position on climate change changed?
    The Chamber has long supported sensible action to address 
anthropogenic climate change, with special emphasis on the fundamental 
role technology, supported by sound, durable policies, will play in 
mitigating it and adapting to it. That has not changed. We welcome the 
renewed emphasis on bipartisan solutions that can preserve American 
jobs and economic growth, maintain the international competitiveness of 
our businesses and industries, increase energy access to the nearly one 
billion people living in energy poverty, and improve the environment.
    America's business community is ready, willing, and able to provide 
the solutions that will continue to reduce emissions while growing the 
economy. Our companies and entrepreneurs will continue to lead by 
bringing innovation, technology, and ingenuity to this challenge, just 
as they have done with other environmental challenges. With a sensible 
policy environment that plays to America's strengths and business 
leadership, we can continue to make our economy cleaner and stronger by 
leveraging the America's edge in energy, technology, and innovation 
going forward. The Chamber looks forward to working with members on 
both sides of the aisle to fashion climate solutions that are sensible, 
effective, and durable.
    2. It was mentioned that the NERA report the American Council on 
Capital Formation and the Global Energy Institute sponsored examining 
the costs of meeting the Obama Administration's pledge under the Paris 
Agreement has been ``debunked.'' Could you respond to this statement.
    The NERA report was a solid and in many respects groundbreaking 
piece of analytical work. First, the business community supports the 
Paris framework, and continues to do so. It should be noted that had 
the Obama Administration laid out a plan to meet its Paris pledge and 
conducted an economic analysis of it, hiring NERA to do such an 
analysis would not have been necessary. Concerning the report itself, 
reproduced below is a response to critics of the report that GEI posted 
in June 2017 and that should put to rest any claims that it has been 
debunked:

        June 3, 2017
        Setting the Record Straight on the NERA Report
        By Dan Byers & Stephen Eule
                                summary
      Over the last few days, there has been a lot of attention given 
to a report that the Energy Institute co-sponsored that examined the 
costs of meeting the Obama Administration's Paris pledge. The report by 
NERA Economic Consulting, Impacts of Greenhouse Gas Regulations on the 
Industrial Sector, examines the costs of filling the gap between what 
President Obama committed to--a 26% to 28% reduction in net greenhouse 
gas emissions by 2025 compared to 2005--and the plans he proposed to 
accomplish it.
      President Trump cited some of the results of the study. Some 
media outlets and others have mischaracterized the report and its 
findings. Here we set the record straight on two key critiques. (For 
more in-depth analysis read beyond this summary.)
      The first erroneous claim is that the policies modeled by NERA 
were based on ``worst-case assumptions'' that would ``inflate the cost 
of meeting U.S. targets under the Paris accord.''
This is not true.
      The NERA study generated five unique scenarios using realistic 
and reasonable cost estimates based on Department of Energy baseline 
forecasts--not the one scenario with ``worst-case assumptions'' as has 
been claimed. The data from the study cited by President Trump were 
from the scenario that most closely followed the Obama Administration's 
regulatory approach. In addition, other analyses--by Hillary Clinton's 
campaign and the Energy Information Administration, for example--show 
impacts of meeting the goal similar to the range of outcomes in the 
NERA study.
      The second erroneous claim is that study does not count the 
economic benefits from constructing and operating new renewable 
generating facilities. This claim, too, is false.
      The NERA model used in the study does NOT ignore positive 
economic contributions from renewable energy projects. It simulates ALL 
economic interactions in the U.S. economy, including the economic 
benefits from renewable energy projects. The model calculated benefits 
from the building and operating of renewable energy projects. However, 
in the model, these economic benefits were outweighed by increased 
costs.
      The model design is discussed extensively in the report. It makes 
it clear that it captures all types of responses and benefits from the 
various regulatory decisions that would be made to meet the pledge.
      The reason the study was conducted in the first place was to 
undertake the analysis the Obama Administration failed to do before and 
after it made its Paris pledge. It makes sense to at least understand 
what the impacts of that pledge would be and how it might be achieved. 
The report is transparent in its assumptions and its data, explains its 
methodologies, and provides multiple scenarios which take into account 
both the benefits and costs of meeting the pledge.
      There will be considerable debate about the President's decision, 
but criticism of the NERA report is unwarranted.
      We have addressed other critiques of the NERA report here 
<https://www.globalenergyinstitute.org/nrdc-swings-and-misses> and here 
<https://www.globalenergyinstitute.org/wri-also-swings-and-also-
misses>, and readers interested in a more detailed response to the 
critiques describe above should see below.
                           detailed analysis
        Claim One: The policies modeled by NERA were based on ``worst-
        case assumptions'' that would ``inflate the cost of meeting 
        U.S. targets under the Paris accord.'' This is false.
          This argument isn't new--some environmental groups made it 
        when the report was first released. While we've addressed it 
        here and here, let's take another stab at it.
          First and foremost, the NERA report didn't just look at one 
        ``worst case'' scenario--it actually examined five, including 
        one that set a price on carbon as a way to achieve the 
        emissions reduction the U.S. has committed to. All of those 
        scenarios produced different results, which were included in 
        the report.
          The numbers cited by President Trump were specific to one 
        particular scenario, which reflected the reflected the 
        regulatory approach being taken by the Obama Administration and 
        that most likely would have been taken by a Clinton 
        Administration has Hillary Clinton won the election.
          There is solid evidence to back this up. The Obama 
        Administration's fiscal year 2015 budget request for the 
        Environmental Protection Agency included funding to develop 
        this scenario--new greenhouse gas regulations on industrial 
        sectors. And in official meetings with stakeholders, the Obama 
        Administration did not hide its intention to regulate 
        industrial emissions. InsideEPA reported on White House meeting 
        where, ``administration officials were candid in their plans to 
        regulate manufacturing GHGs to address an emissions gap' 
        between current and proposed climate rules and President 
        Obama's INDC pledge to cut GHGs 26 to 28 percent from 2005 
        levels by 2025.''
          While we're on the subject of assumptions, critics have also 
        asserted that the NERA results are out of line with results 
        from other analysts. That's not the case.
          During the election, it turns out that the Clinton campaign 
        undertook modeling to estimate the costs of closing the Paris 
        gap. It set a greenhouse gas fee at $42 (2012$) per ton of 
        carbon dioxide from energy use in 2017 and increased it by 
        roughly 2% a year thereafter. This study found significant 
        economic impacts: ``In our analysis, for example, a $42/ton GHG 
        fee increases gasoline prices by roughly 40 cents per gallon on 
        average between 2020 and 2030 and residential electricity 
        prices by 2.6 cents per kWh, 12% and 21% above levels projected 
        in the EIA's 2014 Annual Energy Outlook (AEO) respectively. 
        Average household energy costs would increase by roughly $480 
        per year, or 10% relative to the levels projected in EIA's 2014 
        Outlook.''
          The NERA results also are consistent with those from 
        modelling runs performed by EIA under President Obama. Among 
        the many side case modelling runs in the AEO 2016 was the 
        ``Industrial Efficiency High Incentives'' side case, which EIA 
        describes this way: ``Uses a price on carbon dioxide emissions 
        as a proxy for higher energy costs as a way to increase energy 
        efficiency in all industries except refining. The carbon 
        dioxide price is phased in gradually, starting in 2018, 
        reaching $35.00 in 2023 (2015 dollars per metric ton), and 
        increasing by 5% per year thereafter.''
          Why is this model run interesting? Because it produces cuts 
        in economy-wide energy-related carbon dioxide emissions in 2025 
        of about 30% below the 2005 level, entirely consistent with 
        President Obama's Paris economy-wide greenhouse gas pledge.
          When compared to EIA reference case model run (without the 
        Clean Power Plan), this scenario produces the following results 
        (all dollar figures in 2015$):

          <bullet> Change in GDP in 2025: -$269 billion Cumulative 
        Change in GDP from 2018-2025: -1.92 trillion
          <bullet> Change in Employment: Trough of -1.4 million in 2023 
        and -955,000 in 2025
          <bullet> Change in Average Electricity Price in 2025: +19%
          <bullet> Change in Cumulative Electricity Expenditures from 
        2018-2025: +$350 billion
          <bullet> Change in Average Gasoline Price in 2025: +11%

          As these other studies make plain, the NERA study we co-
        sponsored is not an outlier by any extent of the imagination.
        Claim Two: The study guilty of not counting the economic 
        benefits from constructing and operating new renewable 
        generating facilities. This claim is false.
          The NERA model used in the study simulates ALL economic 
        interactions in the U.S. economy, including the economic 
        benefits from renewable energy projects. The model calculated 
        benefits from the building and operating of renewable energy 
        projects, but in the model these were far outweighed by higher 
        costs on producers, consumers, and the overall economy due to 
        broader greenhouse gas regulations on other sectors.
          The model design and description is detailed extensively in 
        the report. One section notes the following: ``Throughout the 
        time horizon of the module run, in order to meet any increase 
        in electricity demand, increase in reserve margin requirements, 
        and/or replacement of retired generation, the electric sector 
        must build new generating capacity. Future environmental 
        regulations, system constraints (e.g., reserve margin 
        requirements), capital costs, and forecasted energy prices 
        influence which technologies to build and where. For example, 
        if a national RPS policy is to take effect, some share of new 
        generating capacity will need to come from renewable power. On 
        the other hand, if there is a policy to address emissions, it 
        might elicit a response to retrofit existing fossil-fired units 
        with pollution control technology or enhance existing coal-
        fired units to burn different types of coals, biomass, or 
        natural gas. All of these policies may also affect retirement 
        decisions. The NewERA electric sector module endogenously 
        captures all of these different types of decisions.'' [Emphasis 
        added]
          So that criticism doesn't hold water, either.

    3. Concerning H.R. 9, are the Nationally Determined Contributions 
other nations have offered up part of the Paris Agreement.
    No. Parties to the Paris Agreement have a binding obligation to 
submit periodically Nationally Determined Contributions (NDC). The 
goals in the NDCs themselves, however, are not binding in any way, and 
they are not part of the Paris Agreement itself (unlike pledges under 
the Kyoto Protocol, for example, which were negotiated and appended to 
the treaty).

United States House of Representatives Select Committee on the Climate 
                                 Crisis

 Hearing on April 30, 2019, ``Solving the Climate Crisis: Drawing Down 
             Carbon and Building Up the American Economy''

                        Questions for the Record

  Mr. David Foster, Distinguished Associate, Energy Futures Initiative

                       The Honorable Kathy Castor

    1. In your testimony, you said, ``We need to accelerate our 
investments in energy efficiency with a special priority on those 
regions of the country negatively impacted by declining use of fossil 
fuel.'' Can you provide more detail on the types of energy efficiency 
investments we should make in these communities?
    Fossil fuel production is concentrated in those states with readily 
accessible resources. Currently, 73% of all coal production jobs are 
located in just 10 states; 74% of all oil production jobs are also 
located in just 10 states; and 84% of all natural gas production jobs 
are similarly concentrated in 10 states. Compounding this problem is 
the fact that two states, Texas and Pennsylvania, are in the top ten in 
all three fossil fuel production jobs while eight others--West 
Virginia, Louisiana, Oklahoma, Illinois, Wyoming, Colorado, New Mexico, 
and California--are in the top 10 in two fossil fuel resources.
    While jobs in oil and natural gas fuels production rose in 2018 by 
over 50,000 jobs and have increased significantly from a decade ago, 
the opposite is the case for coal fuels' production. As a result, the 
states and communities impacted by the loss of coal fuels' jobs, along 
with those states and communities with the most coal power generation 
jobs, should receive special attention in economic development 
resilience planning. There are four ways that energy efficiency 
investments can benefit these highly impacted communities.
    The four response areas are energy infrastructure, the industrial 
sector, commercial buildings, and residential buildings. Energy 
efficiency investments are needed to meet carbon emissions reduction 
targets in every part of the country and in each of these sectors. 
However, by targeting those communities whose employment has been 
adversely impacted by the decline in coal production first, jobs can be 
provided in labor markets already suffering from higher than average 
unemployment. Given the demonstrated hiring crisis in energy efficiency 
(especially in its largest sector--construction--where a majority of 
employers reported that it was very difficult to hire new employees in 
2018), a focus on introducing energy efficiency technologies into these 
communities is a sensible response to worker dislocation.
    A four-pronged energy efficiency initiative in these communities 
and regions provides the added benefit of reducing residential consumer 
energy costs and making businesses and real estate more economically 
competitive.
    In the first edition of the Quadrennial Energy Review focused on 
Transmission, Storage and Distribution and released in April, 2015, the 
Department of Energy recommended that DOE should,

        Provide state financial assistance to promote and integrate 
        TS&D infrastructure investment plans for electricity 
        reliability, affordability, efficiency, lower carbon 
        generation, and environmental protection. In making awards 
        under this program, DOE should require cooperation within the 
        planning process of energy offices, public utility commissions, 
        and environmental regulators within each state; with their 
        counterparts in other states; and with infrastructure owners 
        and operators and other entities responsible for maintaining 
        the reliability of the bulk power system.

    Implementation of such a program, focusing first on Appalachia and 
other coal-impacted communities, would provide immediate economic 
support, job creation, and greater efficiency and resilience.
    In many of the communities that were originally built around the 
availability of coal resources, manufacturing also plays a more 
significant role in local economies. A focus on industrial energy 
efficiency would preserve the competitiveness of the existing 
manufacturing ecosystem while also creating demand for energy 
efficiency industrial products, particularly electrical motors, one of 
the largest consumers of energy in manufacturing. Many of the top 10 
coal producing states--PA, OH, IL, IN, KY, and WV--have significant 
manufacturing employment in both energy intensive industries such as 
steel and aluminum, but also in the production of energy efficiency 
products. These kinds of industrial energy efficiency investments, 
thus, have the twin benefit of reducing costs while increasing product 
demand. Programs such as DOE's Industrial Assessment Centers which 
provide energy efficiency assessments to small and medium sized 
manufacturers could be expanded in these communities.
    Commercial and residential energy efficiency building retrofit 
programs could also be significantly expanded in the target areas, 
financed through federally guaranteed revolving loan programs with the 
loans paid back through energy savings.
    This kind of focused investment on energy efficiency in multiple 
sectors of the economy provides affected communities with the skills 
training needed for the jobs of the future. Increased deployment of 
energy efficiency technologies is going to be needed for at least the 
next 30 years to meet carbon reduction targets. Perfecting the model 
for concentrated investment in energy efficiency in coal communities 
today will provide a model for similar investments in other geographies 
where unemployment levels are endemically high.
    2. In your testimony, you said: ``Carbon performance should be a 
universal procurement standard for government spending in the U.S., 
similar to what California recently did with its Buy Clean standard.'' 
Can you provide more detail on what a federal ``buy clean'' procurement 
standard would entail and how it would work?
    The California legislation amended state contracting provisions as 
follows, ``The Buy Clean California Act, (Public Contract Code 
Sec. 3500-3505), states the Department of General Services (DGS) is 
required to establish and publish the maximum acceptable Global Warming 
Potential (GWP). It targets embedded carbon emissions of structural 
steel (hot-rolled sections, hollow structural sections, and plate), 
carbon steel rebar, flat glass, and mineral wool board insulation. 
These materials must have a GWP that does not exceed the limit set by 
DGS.'' https://www.dgs.ca.gov/PD/Resources/Page-Content/Procurement-
Division-Resources-List-Folder/Buy-Clean-California-Act.
    Industrial emissions make up approximately 21% of all global 
greenhouse gas emissions with \2/3\ of industrial energy consumption 
coming from five key sectors, commonly known as ``energy intensive, 
trade exposed'' industries or EITE's. A federal ``buy clean'' 
procurement standard would require that all prospective bidders for 
federal government projects provide a life cycle assessment of the 
direct and indirect emissions associated with all materials proposed 
for use in an awarded contract that fall within the definition of EITE 
products. By limiting the coverage of the ``buy clean'' standard to 
those products that produce the majority of industrial greenhouse gas 
emissions, the standard will achieve maximum effectiveness with a 
minimum of regulatory oversight.
    A ``buy clean'' standard would play a dual role, reinforcing carbon 
reduction policies in the industrial sector, while, at the same time, 
promoting the economic competitiveness of high performing, energy 
efficient U.S. businesses which are already among the lowest emitting 
producers of energy intensive products in the world. That is why a 
broad coalition of California stakeholders supported passage of this 
legislation including environmental organizations, unions like the 
United Steelworkers, and California steel producers such as Gerdau 
Steel.
    3. In your written testimony, you say: ``sequencing and timing of 
how we solve a problem can ultimately determine the support it achieves 
from our fellow Americans.'' As we look how to decarbonize the 
electricity sector, how would you recommend we sequence policy 
implementation to maximize emissions reduction and public support?
    There are several policies that I think would increase public 
support for decarbonizing the electricity sector. The first would be 
the enactment of a federal clean energy standard (CES) such as was 
recently introduced by Senator Smith (MN) and Representative Lujan 
(NM). A CES that uniformly provides incentives for carbon reductions, 
even partial ones such as achieved by high efficiency natural gas or 
carbon capture sequestration technologies, removes any doubt from the 
public mind about the actual goal of decarbonization. It's not about 
rewarding one technology over another such as wind or solar; it's about 
finding the most cost efficient, secure, and reliable approach to 
decarbonizing over a 30 year glide path.
    Second, I would recommend a national initiative to modernize the 
electrical grid to achieve significant efficiencies by reducing current 
power loss. Such an initiative, focused first on those regions and 
states suffering from job loss in coal communities, would demonstrate 
the federal government's commitment to use our energy transition to 
promote economic opportunity, job creation, and skills' training for 
high unemployment regions. Initial funding for such an infrastructure 
program could come from the U.S. Department of Energy's Loan Program 
Office. See the analysis on this issue from the Energy Futures 
Initiative at: https://static1.squarespace.com/static/
58ec123cb3db2bd94e057628/t/5b4e7494758d463f2a81294a/1531868312531/
Leveraging+the+DOE+Loan+Program_SG_v4_TB+CLEAN.pdf.
    Third, I would recommend a special initiative on reducing 
industrial emissions and building domestic clean energy supply chains 
to demonstrate that federal policy is focused on making the U.S. the 
global leader in clean energy manufacturing. Components of such a 
policy would include restoring the 48C Advanced Energy Manufacturing 
Tax Credit, passing a ``buy clean'' federal procurement policy, 
establishing an industrial energy efficiency tax credit, and 
integrating carbon-based border adjustments for EITE's. Implementation 
of an EITE border adjustment policy could be done as part of the 
current USMCA or the original NAFTA and would provide an initial global 
mechanism for encouraging reductions in industrial emissions while also 
rewarding existing American companies in these critical sectors--iron 
and steel, aluminum, pulp and paper, chemicals, cement, brick, and 
glass--for their relatively high environmental performance.
    Manufacturers and their employees have played a critical role in 
resistance to decarbonizing the electrical sector out of concern for 
competitiveness in global markets. Addressing these concerns directly 
by providing economic incentives to decarbonize manufacturing would 
turn this resistance into support.
    Fourth, I would recommend making energy efficiency investments, 
particularly in negatively impacted coal communities and in high 
unemployment pockets whether in rural or urban areas, the center piece 
of a national effort to reduce carbon emissions by the creation of 
energy efficiency jobs. Since this sector exists in virtually every 
county in America and has already produced over 2.3 million jobs, this 
positive focus on new job creation presents the public with a powerful 
reason to support the transition to a low carbon economy. In addition, 
the majority of energy efficiency jobs are in construction, and pay 
better than similar jobs in the economy at large because of higher 
unionization rates and skills' requirements. They also rely on skills 
that are readily transferable to other sectors of the economy. There 
are many local examples of how to fund energy efficiency investments 
such as green banks, revolving loan funds, etc., but the federal 
government should adopt a complete menu of tax credits, supports for 
utility-funded programs, and grant programs to bring energy efficiency 
investments to scale.
    Finally, I would recommend reauthorizing the Energy and Advanced 
Manufacturing Workforce Initiative (EAMWI) started by the U.S. 
Department of Energy in 2016 to coordinate the workforce development 
efforts of the Departments of Energy, Labor, Commerce, Education, 
Defense and the National Science Foundation. EAMWI activities would 
insure maximum success in energy efficiency job training curriculum 
development, realization of job training activities in the field, and 
successful deployment of new energy efficiency and energy technologies.
    4. In your written testimony, you say: ``We need to focus on the 
manufacturing supply chains that our new energy technologies are 
creating. Nothing is more frustrating than looking back over the years 
of American technological innovation and recording the history of 
American applied research being handed off to other countries for 
commercialization.'' What can Congress do to ensure U.S. workers 
manufacture the components needed to build a cleaner energy economy?
    There are several pieces of legislation that Congress could 
consider to address this issue. First would be the restoration of the 
48C Advanced Energy Manufacturing Tax Credit which was significantly 
oversubscribed when it was first introduced and successfully created 
tens of thousands of new jobs before it expired.
    Second would be the creation of a collaboration between the 
Advanced Manufacturing Office (AMO) of the DOE, National Institute of 
Standards and Technology (NIST), and the Manufacturing Extension 
Partnership (MEP) that would be required to perform periodic supply 
chain analyses of all new energy technologies, prepare qualification 
assessments of OEM's for parts production, and deliver workshops on the 
qualification process and standards for small manufacturers at the 
state level.
    Third would be the creation of domestic content standards for the 
production of critical energy equipment similar to the rules that exist 
for other products of national security importance under the Buy 
America Act.
    Fourth would be the restoration of funding for Mission Innovation, 
the pledge to double government investments in clean energy research 
and development in five years, led by the U.S. and announced at the 
time of the Paris climate agreement. The maintenance of high levels of 
R&D funding is critical to a healthy manufacturing economy.

United States House of Representatives Select Committee on the Climate 
                                 Crisis

 Hearing on April 30, 2019, ``Solving the Climate Crisis: Drawing Down 
             Carbon and Building Up the American Economy''

                        Questions for the Record

               Mr. Hal Harvey, CEO, Energy Innovation LLC

    Dear Representative Castor: I appreciate the chance to respond to 
questions from yourself and Congressman Ben Ray Lujan. Your questions 
and our responses follow, but please note that we would be happy to 
elaborate on any point, or consider other issues.

                       The Honorable Kathy Castor

    1. In your written testimony, you say the following about cleaning 
up the electricity sector: ``We have the technology (and it's 
increasingly cheaper to deploy clean rather than polluting power 
plants), we have the know-how, we just need to get this moving--and 
quickly.'' What are the primary barriers standing in the way of faster 
deployment of clean energy technology?
    Technology and cost are no longer major barriers to deep 
electricity sector decarbonization--institutions and information are. 
Conventional wisdom that wind and solar require 100 percent redundancy 
from dispatchable power plants is not accurate. Numerous studies 
including some by federal agencies \1\ and our national laboratories 
\2\ show we can reliably operate very high penetrations of renewable 
electricity using today's technologies at a similar cost as today's 
electricity system. Further advancements in energy storage and 
renewable energy technologies, coupled with digitized devices able to 
respond to real-time grid needs, hold tremendous promise to further 
reduce costs as we decarbonize the electric grid. With such 
technological tailwinds, we now must turn our attention to overcoming 
four barriers: slow infrastructure development, incumbents preventing 
uneconomic fossil retirement, market barriers to renewable energy, and 
fossil fuel-dependent communities impacted by transition.
---------------------------------------------------------------------------
    \1\ https://research.noaa.gov/article/ArtMID/587/ArticleID/542/
Rapid-affordable-energy-transformation-possible.
    \2\ https://www.nrel.gov/analysis/re-futures.html, https://
www.nrel.gov/docs/fy18osti/71465.pdf.
---------------------------------------------------------------------------
    Our grid infrastructure has been slow to adapt to the fundamentally 
new characteristics of clean electricity technologies. Renewable energy 
is always available somewhere, and long-distance transmission lines 
enable excess in one part of the country to compensate for deficits 
elsewhere. Despite clear consumer benefits from expanding transmission 
lines to access low-cost renewables and sharing resources over large 
areas, developing new long-distance transmission lines often takes more 
than 10 years, and many promising projects never materialize.\3\ At the 
local distribution level, demand-side resources like storage are unable 
to participate meaningfully in grid management, restricting a crucial 
source of flexibility \4\ to support renewable energy. New data 
management systems and advanced rate designs are needed, yet monopoly 
distribution utilities lack proper incentives to innovate and improve 
efficiency under conventional cost-based revenue regulation.
---------------------------------------------------------------------------
    \3\ See answer to Question three below for ideas on how to 
jumpstart transmission development.
    \4\ https://energyinnovation.org/wp-content/uploads/2018/07/
OrvisAggarwal-WholesaleMarketsFlexibility-June2018.pdf.
---------------------------------------------------------------------------
    Legacy rules, procurement, and market products also favor incumbent 
fossil fuel-based technologies and make it more challenging for new 
technologies to participate in energy markets. Uneconomic fossil 
generators are not retiring as fast as they should, as backward-looking 
market designs (described in more detail in the answer to Question Two 
below) keep inefficient coal and natural gas units online. At the state 
level, utilities owning these assets resist retirement, and regulators 
lack the financial tools to accelerate retirement of uneconomic coal 
assets without harming customers \5\.
---------------------------------------------------------------------------
    \5\ https://energyinnovation.org/publication/managing-the-utility-
financial-transition-from-coal-to-clean-2/.
---------------------------------------------------------------------------
    Grid operators including utilities stack the deck against new 
renewables. In electricity markets, renewable energy, demand-side 
resources, and storage face significant barriers--in the form of 
obsolete rules--to participation and often cannot provide their full 
range of value to the market. In monopoly jurisdictions, utilities use 
outdated cost assumptions and trumped-up integration cost estimates to 
prevent competition from renewables in procurement processes. As 
evidence of the market potential, 280 gigawatts of wind and solar 
projects are stuck in queues for interconnection wholesale markets 
alone, enough to treble U.S. renewable generation capacity. Developers 
and financiers are ready, but cannot access the market.
    A rapid renewable energy transition risks leaving behind entire 
communities dependent on coal mining and fossil power plants. These 
communities often rely on mining and power plants for both jobs and 
local tax revenue to support social services. But viable local clean 
alternatives exist--local wind or solar could replace three quarters of 
existing U.S. coal capacity at a lower cost to consumers,\6\ and the 
federal government could support this just transition with financing 
and worker retraining programs in partnership with local utilities.
---------------------------------------------------------------------------
    \6\ https://energyinnovation.org/publication/the-coal-cost-
crossover/.
---------------------------------------------------------------------------
    2. In your testimony, you say: ``The first policy I would recommend 
is to require that the Federal Energy Regulatory Commission be a merit 
driven, technology neutral, adjudicatory body required to run the power 
system at the lowest cost.'' Would Congress need to make changes to 
authorizing statutes to implement the technology neutral FERC idea? 
Describe.
    Congress does not need to make changes to the Federal Power Act, 
which provides FERC's legal authority, but it does need to insist that 
FERC actually satisfies its obligations to ensure just and reasonable 
rates and avoid undue discrimination. In other words, Congress needs to 
hold FERC accountable to its obligation to be merit-driven and 
technology neutral while ensuring fair prices and reliability. As 
Commissioner Glick recently pointed out,\7\ FERC has historically 
interpreted its just and reasonable rate authority and obligation to 
avoid undue discrimination as requiring technology neutrality.
---------------------------------------------------------------------------
    \7\ page 15 https://www.eba-net.org/assets/1/6/
%5BGlick_and_Christiansen%5D%5BFinal%5D. pdf.
---------------------------------------------------------------------------
    FERC precedent and court interpretations clearly maintain that 
FERC's duty is to create a level playing field for all grid resources 
to compete on their technological and cost merits. Of course, if 
Congress wants to emphasize a certain aspect of that duty, for example, 
that FERC require grid operators to take proactive steps to develop (as 
transmission assets) and deploy (as grid services) distributed energy 
resources when they are the lowest cost option, additional legislation 
could accelerate those changes.
    One recent FERC decision approving a pernicious policy in two FERC-
regulated wholesale electricity markets \8\ punishes states taking 
action on greenhouse gas emissions. These markets impose a Minimum 
Offer Price Rule (MOPR), the original intent of which is to mitigate 
against buyer-side market power, on renewable power plants receiving 
state support through a renewable portfolio standard (RPS). In effect, 
the MOPR requires renewables to bid in at an administratively 
determined price greater than the actual cost of running these plants, 
which is zero. This in turn raises the wholesale electricity price and 
supports fossil-fueled plants which otherwise would retire.
---------------------------------------------------------------------------
    \8\ PJM Interconnection and ISO-New England.
---------------------------------------------------------------------------
    The MOPR undermines state choice--states are being forced to pay 
for fossil-fueled power plants that constituents don't want and market 
operators don't need for reliability. Congress should clarify that the 
MOPR should not be applied to resources receiving state policy support.
    The root of these backward-looking market design policies is 
institutional lag behind the economic and political realities driving 
the U.S. toward more renewable energy. Markets using the MOPR still see 
renewables as undermining the integrity of markets, rather than 
redesigning the markets to fairly accommodate these resources. 
Reliability services markets are based upon, such as peak capacity 
needs, respond to the existing system's performance attributes. MOPR 
ensures that fossil resources receive revenues through capacity 
markets, even when a high renewables system would not need that same 
service. As renewable energy output varies with weather, complementary 
resources can and should provide flexibility, especially the underused 
resources of responsive demand, efficiency, and storage. Rather than 
defining new services to accommodate state constituents' preferences 
for low-cost renewables, market operators have kept one foot in the 
past, and FERC has been loath to correct them.
    Serious technological changes are hitting the electricity grid, but 
the concomitant changes in market incentives and rules are lagging 
behind, as are the mechanisms to allow more demand side participation. 
FERC and the ISOs/RTOs wholesale electricity markets have done little 
to accelerate this transformation, instead in many cases setting rules 
prejudiced against clean energy. As new technologies come online at 
lower prices and higher volumes, Congress should consider examining 
whether existing wholesale electricity market structures are equipped 
to handle today's technology.
    3. During Q&A, you stated the following in response to a question 
from Rep. McEachin: ``One element I would propose is expanding 
transmission lines across the country to help balance renewables and 
balance the whole system. In fact, I think we should look at ways to 
streamline permitting. I advocate pre-zoning into red, yellow, and 
green zones, where red, you are just not going to build anything; 
green, you get a permit in 90 days if you meet the proper specs; and 
yellow is like everything today, it is an all-out war. So we just need 
to clean that up and save a lot of time and a lot of trouble.'' Can you 
provide more detail on how to design a red/yellow/green zoning process 
for transmission?
    The National Renewable Energy Laboratory (NREL) recently completed 
a study \9\ of the value of interconnecting the entire country with 
high-voltage direct current (HVDC) transmission, modern transmission 
technology widely used by China to build out and improve the efficiency 
of its grid. NREL's study calculated up to a 3-to-1 benefit to cost 
ratio from a transmission overlay connecting East and West so that 
clean energy can reach cities and factories anywhere across the 
nation.\10\ A similar study from the National Oceanic and Atmospheric 
Administration (NOAA) found that reducing carbon emissions 80 percent 
using today's technologies was possible at negligible incremental cost 
if we build out a national HVDC grid to support renewable development 
and integration.\11\
---------------------------------------------------------------------------
    \9\ https://cleanenergygrid.org/wp-content/uploads/2018/08/NREL-
seams-transgridx-2018.pdf.
    \10\ Unfortunately, DOE has refused to release the study. https://
cleanenergygrid.org/interconnections-seam-study/.
    \11\ https://research.noaa.gov/article/ArtMID/587/ArticleID/542/
Rapid-affordable-energy-transformation-possible.
---------------------------------------------------------------------------
    In the U.S., a HVDC transmission overlay linking the country's 
three electric grids and remote high-quality wind and solar resources 
with demand centers would reduce overall costs to consumers, open up 
massive opportunities for new renewable resources to access the market, 
and provide grid operators with additional tools to balance an 
increasingly variable electricity mix.
    Reducing permitting and siting problems by pre-screening federal 
and state lands for transmission corridor suitability is crucial to 
enabling this transmission overlay. This is already ongoing in the 
Western U.S., through the federal West-wide Energy Corridors \12\ 
planning process, and should be expanded to the rest of the country. 
The planning process identifies continuous strips of federal land 
across jurisdictional boundaries suitable for transmission development. 
Robust stakeholder engagement minimizes environmental, cultural, and 
other stakeholder conflicts. Eventually, this process will streamline 
federal siting, review, and permitting processes for transmission 
developers. Parallel efforts to engage with private landowners crucial 
to completing many of the corridors will increase the likelihood of 
success.
---------------------------------------------------------------------------
    \12\ http://corridoreis.anl.gov/.
---------------------------------------------------------------------------
    Data is also key to pre-screening transmission. The Western 
Electricity Coordination Council has developed the Environment Data 
Viewer,\13\ a tool that should be expanded for the rest of the U.S. to 
enable smart infrastructure development. The tool uses Geographic 
Information Systems (GIS) data for different land conflicts, enabling 
users to create maps of low-conflict land. For example, lowest conflict 
existing rights of way are green; low-conflict undeveloped land is 
yellow; and land with explicit environmental, infrastructure, or 
cultural conflicts ranges from orange to red. The tool uses 
professional judgment of transmission planners, Bureau of Land 
Management and U.S. Forest Service, environmental leaders, and even 
archaeologists to build the tool's classifications .
---------------------------------------------------------------------------
    \13\ https://ecosystems.azurewebsites.net/WECC/Environmental/.
---------------------------------------------------------------------------
    Some obvious ``green'' zones exist--along existing transmission 
corridors or highways, for example. These should be promptly identified 
and so-designated. Some places should be labelled ``red,'' such as 
wilderness study areas, or areas with ecologically important biota. 
Making these strictly off limits can reduce time and money spent on 
fruitless pursuits.
    Note that this recommendation does not contemplate relaxing 
environmental standards, but instead doing the work to designate these 
three classes in advance to reduce uncertainty, time, and money.
    Besides providing corridors and data, the federal government can 
also facilitate inter-state cooperation on transmission development. 
Though all consumers should benefit from a more robust HVDC 
transmission network, these benefits are often not distributed equally 
among states. The largest beneficiaries of HVDC transmission are likely 
the producer state and the load center on the other end of the line, 
making states between the two reticent to accept transmission 
development without compensation. The federal government can facilitate 
dialogue between states involved.
    4. During the hearing, Rep. Palmer stated the following: ``In 
California right now, there is a lawsuit that has been filed by 
minority group against the California Air Resources Board, because of 
the harm that it is doing to low income people. Since the effective 
date of California's greenhouse gas reduction law, the Global Warming 
Solutions Act, 41 states have reduced their per capita greenhouse gas 
emission more than California, but it had enormous negative impact on 
the people in California. So, I think, we have got to look at this in 
the broader spectrum of how this affects everybody, and the U.S. 
obviously I think we continue the best in the technologies to reduce 
our carbon emissions.'' As an energy expert living and working in 
California, what is your response to this statement?
    As the world's fifth largest economy, California is a global leader 
on climate change and a model of successful greenhouse gas reduction 
policy. As of 2016, only New York and the District of Columbia have 
lower per capita energy-related carbon dioxide emissions than 
California.\14\ Rep. Palmer cites data related to per capita emissions 
reductions that ignores California's thirty-plus years of environmental 
leadership before enacting the Global Warming Solutions Act. In 2006 
when the bill passed, California was already a national leader in 
renewable energy and used virtually no coal-fired power, the reduction 
of which accounts for the vast majority of U.S. emissions reductions 
since 2006. California has much work left to reduce emissions to meet 
its goals, but is well on its way to creating an equitable, affordable, 
low-carbon future.
---------------------------------------------------------------------------
    \14\ https://www.eia.gov/environment/emissions/state/analysis/pdf/
stateanalysis.pdf at page 4.
---------------------------------------------------------------------------
    Low-income community opposition to California's Global Warming 
Solutions Act is vastly overstated. The lawsuit takes issue with 
proposed measures in a planning document from the California Air 
Resources Board specifying measures that can reduce greenhouse gas 
emission in line with the state law--40 percent below 1990 levels by 
2030. The group backing the lawsuit, the Two Hundred, is represented by 
a law firm whose work has focused on fighting environmental protections 
in California for the last 30 years. Masquerading as a civil right 
issue, this lawsuit creates a pretext for removing the very 
environmental protections low-income residents depend on.
    Recent polling \15\ indicates low-income residents are more likely 
to support cap-and-trade than not. Disadvantaged communities and the 
organizations representing them recognize that climate change and 
pollution pose a real threat to the lives and economic security of low-
income communities, and California has built vital protections for our 
communities into our climate laws. That's why dozens of disadvantaged 
community representatives support California's climate change policies 
and work constantly to ensure that they address poverty and pollution 
at the same time.
---------------------------------------------------------------------------
    \15\ 44 percent of California residents with incomes under $40,000 
favor cap-and-trade, while 39 percent oppose it. https://www.ppic.org/
wp-content/uploads/ppic-statewide-survey-july-2018.pdf at 21.
---------------------------------------------------------------------------
    Of course, the revenue stream that pays for these programs is 
California's cap-and-trade program, which some have argued has a 
negative impact on the very same priority populations where climate 
investments are being made. The latest data show $1.9 billion (more 
than 57 percent) of all implemented dollars raised by cap-and-trade are 
benefiting state-identified disadvantaged communities and low-income 
communities.\16\ These investments are creating new affordable housing, 
improving accessible and affordable mobility, lowering energy bills, 
and creating new jobs, while also reducing greenhouse gases. 
Legislation established parallel programs to improve air quality in 
historically disadvantaged communities \17\ and study low-income 
barriers to adopting clean energy technologies.\18\
---------------------------------------------------------------------------
    \16\ https://www.arb.ca.gov/cc/capandtrade/auctionproceeds/
2019_cci_annual_report.pdf?_ga= 2.14451895. 
1868598449.1553707432092139052204.1553538057 at viii.
    \17\ AB 617 is the most recent effort by the state to improve air 
quality, particularly in EJ communities. The law is in the early stages 
of implementation but it was achieved due to a high level of engagement 
by priority communities on the issue of air pollution.
    \18\ SB 350.
---------------------------------------------------------------------------
    5. During the hearing, members raised Chinese carbon pollution 
levels on numerous occasions. China's emissions now, and their future 
trajectory, are critical to addressing the climate crisis. Given your 
experience working in China, is the Chinese government implementing 
policies that will curb and ultimately reduce Chinese carbon pollution? 
Please explain.
    It is true that without continued heroic public investment from the 
Chinese government, the world will fail to meet international emissions 
reduction goals necessary to limit warming to safe levels. It is also 
true that China has experienced rapid economic growth dependent on 
burning coal for industrial processes and electricity, resulting in 
citizens with higher incomes who now drive gasoline-powered cars. One 
cannot be sanguine or naive about the environmental problems China 
faces, nor the vast Chinese contribution to climate change.
    But in many ways, China's efforts to combat climate change have 
dwarfed those of the U.S. Despite its rapid rise to the world's largest 
greenhouse gas emitter, the Chinese government has systematically 
implemented policies to curb its greenhouse gas pollution for more than 
a decade, and remains committed to doing so in the future.
    The Chinese government began including explicit climate change 
targets in its Five-Year Plan (FYP) in 2011. China's initial greenhouse 
gas reduction goals were aimed at reducing carbon intensity (carbon per 
unit of GDP). By 2017 China had cut carbon intensity 46 percent from 
2005 levels, honoring its voluntary international commitment to reduce 
carbon intensity 40 to 45 percent from the 2005 level by 2020--three 
years ahead of schedule. Under the Paris Accord, China agreed to 
further reductions of carbon intensity 60-65 percent below 2005 levels 
by 2030, and will make ``best efforts'' to peak carbon emissions by or 
before 2030.
    Through ambitious policy and public investment, China is now the 
world leader in two key clean energy technologies--renewable 
electricity and electric vehicles (EVs). Almost 30 percent of the 
world's renewable power capacity is in China, and in 2017, China added 
almost half the world's renewable power capacity. In China's 13th Five-
Year Renewable Energy Development Plan, the government announced $373 
billion in total renewable energy investment by 2020. This historic 
renewables investment played an outsized role in driving down the 
global solar module costs 90 percent since 2008.
    China is also responsible for more EV sales annually than the rest 
of the world combined, and boasts the only city in the world with all-
electric bus and taxi fleets: Shenzhen. BYD, the international leader 
in electric bus manufacturing, trails only Tesla in EV sales. As the 
world economy continues toward low-carbon development, China's 
industries are well positioned to take advantage.
    China is evolving its command and control economic and emissions 
policy centered on mandates and subsidies into more sophisticated 
market approaches, starting with the world's largest carbon market, 
which will launch later this year (2019). Its current first phase only 
covers power generation accounting for some than 3.5 gigatons of annual 
carbon dioxide emissions, more than half of U.S. total annual 
emissions. The Chinese government plans to expand the market to cover 
other energy-intensive sectors.
    Despite these policies, without more action China's emissions will 
continue to rise. Chinese climate goals are deeply influenced by 
international norms and leadership by other nations, and the loss of 
U.S. leadership in controlling greenhouse gases is definitely softening 
China's ambition. China begins designing new policies first by learning 
the best practices of other countries, often seeking to emulate 
innovative U.S. market design. U.S. leadership on low-carbon technology 
development and emissions reduction goals provides strong motivation 
for the Chinese government to continuously push for more aggressive 
goals.

                      The Honorable Ben Ray Lujan

    1a. How does a Clean Energy Standard, such as the Clean Energy 
Standard Act of 2019, put the United States on a trajectory towards 
producing electricity with net-zero carbon emissions by mid-century?
    A clean energy standard (CES) such as the CESA of 2019 is an 
excellent way to decarbonize the power sector. The CESA of 2019 is a 
particularly good example of a CES, in that it allows for all types of 
clean energy technologies, and sets long-term targets with continuous 
improvement along the way, which will drive and sustain innovation. 
Such a bill would help rapidly decarbonize the power sector, and would 
incentivize clean energy companies to accelerate research and 
development, to meet a clear and aggressive long-term target.
    By including all zero-carbon technologies, a CES provides a high 
degree of flexibility that helps decarbonize the power sector at the 
lowest cost. Additionally, it is already cheaper \1\ in much of the 
country to build and run new clean energy than to simply pay for the 
operating costs of fossil plants, so a CES would actually help lower 
costs--right from the start.
---------------------------------------------------------------------------
    \1\ https://energyinnovation.org/wp-content/uploads/2019/04/Coal-
Cost-Crossover_Energy-Innovation_VCE_FINAL2.pdf.
---------------------------------------------------------------------------
    An initial analysis of the bill using the Energy Policy Simulator 
(EPS) \2\--assuming the share of clean electricity increases linearly 
to reach 90 percent in 2040, then pushes toward 100 percent by 2050--
suggests the CESA of 2019 would reduce power sector emissions from 2005 
levels by about 75 percent in 2035. By 2030, according to the EPS, this 
CES would save around 20,000 lives due to cleaner air. By 2040, that 
number rises to about 38,000; by 2050, it reaches about 70,000.
---------------------------------------------------------------------------
    \2\ https://us.energypolicy.solutions/.
---------------------------------------------------------------------------
    1b. How would it stimulate good, well-paying jobs? How can a clean 
energy standard help to promote U.S. technological leadership and R&D 
efforts and how would leading on this the climate benefit domestic 
businesses?
    The renewable energy industry has become a major U.S. employer. 
E2's recent Clean Jobs America report \3\ found nearly 3.3 million 
Americans working in clean energy--outnumbering fossil fuel workers by 
3-to-1. Nearly 335,000 people work in the solar industry and more than 
111,000 work in the wind industry, compared to 211,000 working in 
fossil fuel extraction, of which only 50,000 are coal miners. Clean 
energy employment grew 3.6 percent in 2018, adding 110,000 net new jobs 
(4.2 percent of all jobs added nationally \4\ in 2018), employers 
expect 6 percent job growth in 2019.
---------------------------------------------------------------------------
    \3\ https://www.e2.org/wp-content/uploads/2019/03/E2-2019-Clean-
Jobs-America.pdf.
    \4\ https://www.whitehouse.gov/articles/2018-ends-312000-jobs-
created-december-strong-year-job-market/.
---------------------------------------------------------------------------
    Clean energy jobs offer higher wages than the national average, and 
are widely available to workers without college degrees, according to 
new Brookings Institution research.\5\ Landing a clean energy job can 
equal an 8-19 percent increase in income, and 45 percent of all workers 
in clean energy production (e.g. electricians, installers, repairers, 
and power plant operators) have only a high school diploma, while still 
receiving higher wages than similarly educated peers in other 
industries.
---------------------------------------------------------------------------
    \5\  https://www.brookings.edu/research/advancing-inclusion-
through-clean-energy-jobs/.
---------------------------------------------------------------------------
    E2 reports the fastest-growing jobs across 12 states were in 
renewable energy during 2018, and the U.S. Bureau of Labor Statistics 
already forecasts \6\ the country's two fastest-growing jobs through 
2026 will be solar installer (105% growth) and wind technician (96% 
growth).\7\ While we have no jobs estimate from this CES, it is 
reasonable to expect significant acceleration of these already 
encouraging trends, since the CES requires more than doubling current 
annual installations of wind and solar. Because the best wind and solar 
resources are available in the Great Plains, Southeast, and Southwest, 
opportunities abound for economic development in rural as well as urban 
areas.
---------------------------------------------------------------------------
    \6\ https://www.bls.gov/ooh/fastest-growing.htm.
    \7\ https://www.bls.gov/ooh/fastest-growing.htm.
---------------------------------------------------------------------------
    1c. What other policies would complement a clean energy standard?
    Congress should focus on three policy areas to enable a cheaper, 
faster clean electricity transition: Maximize existing transmission 
while streamlining future development, spur investment in flexible 
zero-carbon resources, and invest in building and end-use efficiency 
and electrification.
    Maximize existing transmission while streamlining future 
development--Transmission is the platform that allows our nation's 
electricity system to function. As renewables provide increasing 
amounts of electricity in the U.S., we need to move it from the places 
with the greatest sun and wind resources to the places where people and 
businesses need to use it. We can do that by getting more out of our 
existing system,\8\ and by adding new lines. The federal government 
could build on the National Interest Electric Transmission Corridors 
\9\ to overlay priorities for greenhouse gas reduction goals, reforming 
and aligning transmission incentives with greenhouse gas 
objectives.\10\ The federal government could then partner with states 
to increase capacity on existing rights of way, as well as build new 
lines. President Lyndon Johnson provided a model for this in the 1960s 
with the build-out of the Pacific Intertie.\11\ Texas also provides a 
model--pre-approving and building out transmission to ``Competitive 
Renewable Energy Zones,'' where clean energy resources are abundant. 
Market mechanisms can then be used to select the lowest cost projects 
to build clean power in those zones.
---------------------------------------------------------------------------
    \8\ Dynamic line rating gets more out of the system than existing 
practices in much of the country (for more, see https://
issues.nawindpower.com/article/using-grid-weve-got). Where needed, we 
can beef up transmission capacity on existing rights of way.
    \9\ https://www.energy.gov/sites/prod/files/edg/media/
NIETC_Fact_Sheet.pdf.
    \10\ See also transmission answer for Rep. Castor.
    \11\ http://www.orkas.com/the-future-of-electric-transmission/.
---------------------------------------------------------------------------
    Spur investment in flexible zero-carbon resources and get more out 
of existing assets--Solar and wind power are the cheapest new zero-
carbon generation sources today, but their production varies with the 
availability of sunlight and wind, so they require a more flexible 
power system to realize their value as power system decarbonizers. 
Fortunately, many options are already available to draw additional 
flexibility out of the power system, including improved grid and 
transmission operations. Grid flexibility can also come from physical 
assets, such as batteries and fast-ramping natural gas plants, better 
co-optimization power supply and power demand.\12\ Congress 
incentivizes the investment in storage and demand response needed to 
balance a high-renewables grid, while also leveraging the national labs 
to partner with system operators to integrate better weather 
forecasting and market optimization software.
---------------------------------------------------------------------------
    \12\ https://energyinnovation.org/wp-content/uploads/2017/10/A-
Roadmap-For-Finding-Flexibility-In-Wholesale-Power-Markets.pdf.
---------------------------------------------------------------------------
    Invest in building and end-use efficiency and electrification--
Using electricity more efficiently is a key policy for reducing the 
overall cost of a national CES. Because the majority of U.S. buildings 
standing today will still be standing in 2050, Congress must find ways 
to incentivize whole-building efficiency retrofits. To reduce overall 
costs and leverage the clean grid to decarbonize building heating, 
retrofits should combine appliance electrification and on-site clean 
power generation (e.g., rooftop solar), if practical and applicable.
    A program with financial incentives including low-interest 
loans,\13\ on-bill financing,\14\ property tax financing,\15\ and cash 
rebates at the point of equipment sale \16\ for building 
decarbonization retrofitting could improve economics and stimulate 
investment. Programs should also encourage pay-for-performance, 
increasing the incentive for efficiency measures that reduce grid 
costs.\17\ Incentives should cover electrification for the big end-
uses--building heat, water heat, and clothes drying, while implementing 
appliance standards that ensure maximum efficiency and customer 
savings.
---------------------------------------------------------------------------
    \13\ https://www.energy.gov/savings/low-interest-energy-loan-
programs.
    \14\ https://aceee.org/blog/2019/04/bill-financing-gains-ground-
faces.
    \15\ https://www.energy.gov/eere/slsc/property-assessed-clean-
energy-programs.
    \16\ https://www.smud.org/en/Rebates-and-Savings-Tips/Improve-Home-
Efficiency.
    \17\ https://www.brookings.edu/research/advancing-inclusion-
through-clean-energy-jobs/.
---------------------------------------------------------------------------
    2. Would a low-carbon grid be as reliable and resilient as a 
predominately fossil fuel driven grid? Please explain.
    Cleaning up the electricity supply brings different but manageable 
resilience and reliability problems. To reduce outages and improve 
security, policymakers should focus on the main causes of outages--the 
aging and vulnerable transmission and distribution systems.
    A more distributed and decentralized grid relying on local solar 
and storage can be more resilient to centralized threats. Relying on 
smaller, uncorrelated power generators over a larger footprint improves 
reliability. At the same time, widening grid balancing areas and 
strengthening interregional transmission connections also reduce the 
risk associated with single generator or transmission failures.
    With respect to a low-carbon power generation mix, the transition 
from fuel-based power to higher shares of renewable energy affects bulk 
power system reliability and resilience in a blend of both positive and 
negative ways.
    For human-caused events, such as cyber or physical attacks, 
renewables can help to reduce fuel supply risk. Coal relies on rail 
delivery, which is subject to physical attacks, since roughly 40 
percent of U.S. coal comes from Wyoming's Powder River Basin, and 
nearly all via the 103-mile Joint Line rail corridor.\18\ And natural 
gas pipelines are vulnerable to cyber and physical attacks.\19\ As 
demonstrated during the recent polar vortexes, coal piles on-hand can 
freeze,\20\, and co-dependence on natural gas for heating and 
generation during extreme cold can threaten resource availability. 
Prolonged heat waves can leave nuclear unusable \21\ if cooling water 
is too hot.
---------------------------------------------------------------------------
    \18\ https://www.nap.edu/read/11977/chapter/7.
    \19\ http://docs.house.gov/meetings/HM/HM07/20160419/104773/HHRG-
114-HM07-Bio-ParfomakP-20160419.pdf.
    \20\ https://www.greentechmedia.com/articles/read/as-extreme-
weather-forces-coal-to-falter-where-will-resilience-come-
from#gs.frgowa.
    \21\  http://www.unisdr.org/files/1145_ewheatwave.en.pdf.
---------------------------------------------------------------------------
    But renewable energy sources are not automatically resilient. A 
robust grid requires strategies to deal with natural events, such as 
adverse weather. Hydroelectric generation is drought-vulnerable, while 
cloud cover from intense storms and hurricanes can threaten solar 
availability. Extreme winds may force partial wind curtailment for 
short periods of time.
    Resilience can be achieved first by strengthening the distribution 
system for utilities--which causes by far the most power 
interruptions.\22\ Second, by making the transmission grid more 
``islandable,'' meaning that grids can automatically isolate blackouts 
in small areas so they do not cascade through the system. Third, having 
a heterogenous set of clean energy sources and geographically dispersed 
supplies provides insurance against failures. Smart strategies to 
manage demand via demand response technologies gives many more options 
to grid operators. And of course, energy efficiency dramatically 
reduces stresses on the grid, and allows for more ``ride through'' in 
the case of disruption.
---------------------------------------------------------------------------
    \22\ https://rhg.com/research/the-real-electricity-reliability-
crisis-doe-nopr/.
---------------------------------------------------------------------------
    The upshot is that with smart operations and policy, the grid can 
be made more resilient and more reliable, even as we move to clean 
energy at scale.

                                  <all>
</pre></body></html>
